<html>
<title> - DOMESTIC AND GLOBAL WATER SUPPY ISSUES</title>
<body><pre>[Senate Hearing 112-268]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-268
 
                 DOMESTIC AND GLOBAL WATER SUPPY ISSUES 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

HEAR TESTIMONY ON OPPORTUNITIES AND CHALLENGES TO ADDRESS DOMESTIC AND 
                       GLOBAL WATER SUPPLY ISSUES

                               __________

                            DECEMBER 8, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-894 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                JEANNE SHAHEEN, New Hampshire, Chairman

RON WYDEN, Oregon                    MIKE LEE, Utah, Ranking
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           DANIEL COATS, Indiana
BERNARD SANDERS, Vermont             JOHN HOEVEN, North Dakota
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee















































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Castle, Anne, Assistant Secretary of Water and Science, 
  Department of the Interior.....................................     4
Gleick, Peter H., President, Pacific Institute, Oakland, CA......    26
Hansen, L. Jerry, Principal Deputy Assistant Secretary for 
  Installations, Energy, and Environment, U.S. Army..............    11
Keppen, Dan, Executive Director, Family Farm Alliance............    66
Lee, Hon. Mike, U.S. Senator From Utah...........................     1
Meeker, Melissa L., Executive Director, South Florida Water 
  Management District, West Palm Beach, FL.......................    49
Salzberg, Aaron, Special Coordinator on Water Resources, Bureau 
  of Oceans and International Environmental and Scientific 
  Affairs, Department of State...................................    16
Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     1
Stanley, Thomas, Chief Technology Officer, GE Power and Water, 
  Water and Process Technologies, Trevose, PA....................    38
Stewart, Harry T., Director, Water Division, New Hampshire 
  Department of Environmental Services, Concord, NH..............    55
Willardson, Anthony, Executive Director, Western States Water 
  Council, Murray, UT............................................    42

                               Appendix I

Responses to additional questions................................    67


                 DOMESTIC AND GLOBAL WATER SUPPY ISSUES

                              ----------                              


                       THURSDAY, DECEMBER 8, 2011

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:10 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen presiding.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone. I apologize for 
starting late. I knew if we had a subcommittee hearing today, 
we would have both at the same time. So, I should have expected 
that.
    Let me begin by thanking our panelists for being here. I'm 
going to also recognize Senator Bingaman, who chairs the full 
Energy and Natural Resources Committee. We're delighted to have 
him here for however long he can stay. Senator Lee has another 
engagement and has to leave. So, what I would like to do, 
Senator Lee, is ask you to go ahead and make your opening 
remarks, and then I will make mine, and introduce the 
panelists.
    So, if the panelists are OK with that, Senator Lee.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you so much, Senator Shaheen. I 
appreciate your accommodating my schedule. I also want to thank 
our witnesses for joining us today.
    I've been looking forward to this hearing and the different 
perspectives and opportunities before us as we look at our 
domestic and our global water supplies. I'm encouraged that our 
committee's looking at opportunities to further ensure that we 
have continued access to clean and reliable sources of water.
    It's my intent, it has been my intent, as we've been 
approaching this meeting, to address a myriad of issues in 
connection with this hearing, to ensure that we've got these 
water resources for the next century, and to ensure that we 
respect the primacy of the States and their role, their 
historic and constitutional role in the allocation of water.
    Although the allocation of water is and long has been a 
State-driven process, the Federal Government has been involved 
in the development of water for more than a century, 
particularly in the West. Projects have been built to store and 
to manage water, to produce power, and reduce the impacts of 
floods, provide for navigation, and to help develop irrigation.
    Most of these Federal projects were built with the support 
of local communities under the prevailing State water laws. The 
regulation and appropriation of water resources are and should 
remain within the purview of a State-driven process. As we 
proceed with this hearing, I want to be clear, the allocation 
of water is a State responsibility, fundamentally, and not a 
Federal one. I believe every State in this Nation faces similar 
challenges relating to the supply and the quality of water 
resources.
    First, with limited fresh water supplies, how can we assure 
and ensure that we have an adequate and safe water supply for 
urban and rural communities? How do we develop affordable 
options to treat and further develop our finite supplies of 
water? I hope that our witnesses today can describe some 
options that are available to address these 2 questions.
    Water, as it has served for the last century, will continue 
to be the backbone of our economy in many respects. Safe, 
reliable, and cost-effective supplies for water will continue 
to be a critical driver of all sectors of the American economy, 
including agriculture, industry, recreation, and that water 
that's used for domestic and culinary purposes.
    I encourage our witnesses today to think outside the box on 
options to expand our water supply through new resources and 
through conservation efforts. In so doing, I'd also encourage 
our witnesses to think outside the box on how the Federal 
Government can best assist the States with meeting their water 
supply challenges.
    So, I look forward to the extent that I'm able to remain 
for the next few minutes to hearing some of these, and--and 
will follow-up with my own questions in--in writing inasmuch as 
I'll be unable to remain for the duration of the meeting.
    I want to recognize and thank Tony Willardson, who is the 
Executive Director of the Western States Water Council. He's 
from my home State of Utah, from Salt Lake City. I want to 
thank him especially for being here.
    Finally, in closing, I want to acknowledge that--I 
understand that the EPA is embarking on the preparation of a 
report to address the value of water to the U.S. economy. I'll 
be following up with some questions in writing on--on how 
various entities that we'll be discussing today may have 
contributed to this study or be involved in it, and how we can 
follow up on that. So, with that, I'll turn it back to you, 
Senator Shaheen. Thank you again for accommodating my schedule.
    Senator Shaheen. Thank you very much, Senator Lee.
    As Senator Lee suggested, we're here today to explore the 
opportunities and challenges facing domestic and global water 
supplies. It is a very broad topic, but it's also one that 
deserves our ongoing attention, because water is critical. Yet, 
most of us really don't pay very much attention to the water 
that we use, where it comes from, where it goes after we finish 
using it.
    Many of us in the United States take water for granted, but 
globally, 800 million people do not have access to safe 
drinking water. The figures on water use are astounding. The 
U.S. Geological Survey estimates that Americans use about 100 
gallons of water per day. The majority of our daily water use 
helps generate electricity at our country's power plants, with 
over 200 billion gallons of water used in this sector alone.
    Globally, agricultural water use accounts for nearly 70 
percent of all water withdrawals. When we consider that the 
world's population is expected to grow from 7 billion to 10 
billion people by 2050, we quickly realize the--the successful 
management of our water resources is critical. The State 
Department reports that in just 2 decades the world's demand 
for fresh water is expected to exceed supply by 40 percent.
    There's increasing recognition that water scarcity raises 
tensions between Nations and may be a driver of armed conflict. 
Coupled with our changing climate, the future of our water 
supplies, both here in the U.S. and around the world, is a 
cause for grave concern.
    In my home State of New Hampshire, the fastest growing of 
all the New England States, we're projected to add 260,000 new 
residents by 2030. While we're fortunate in New Hampshire to 
have abundant water supplies, we face our own challenges from 
increased flooding and aging infrastructure.
    I'm very pleased to be able to acknowledge Harry Stewart, 
who is from New Hampshire, and is joining us from New 
Hampshire's Department of Environmental Services, where he 
heads the Water Resources Division, to provide the perspective 
from not only New Hampshire, but from the Northeastern States.
    While we've seen great strides in technology to overcome 
water challenges, including desalinization, we don't yet have a 
silver bullet to overcome water scarcity. At the same time, 
there are innovative ways to reduce water consumption, using 
existing technologies. Our Armed Forces have often been 
trailblazers in figuring out how to do more with less. The 
Army's Net Zero Initiative for water is an impressive example 
from which we can all learn. Mr. Hansen, we're all very anxious 
to hear what you have to tell us.
    I'm pleased to welcome our witnesses today, and look 
forward to hearing from them about the state of the existing 
technologies, the future of technological innovation, and what 
else we can do as a society to ensure we have adequate supplies 
of water for future generations.
    I want to recognize our first panel, the Honorable Anne 
Castle, who is Assistant Secretary for Water and Science, with 
the Department of the Interior. Thank you for being here. Mr. 
Jerry Hansen, who's the Principal Deputy Assistant Secretary 
for Installation, Energy, and Environment, with the U.S. Army. 
Good afternoon. Mr. Aaron Salzberg, who's the Special 
Coordinator for Water Resources with the U.S. Department of 
State.
    Before I turn it over to Ms. Castle, let me just ask 
Chairman Bingaman if he would like to make any remarks at the 
start.
    The Chairman. I really didn't have any opening statement. 
I'm very glad to be here to learn what I can from these 
witnesses. I think it's a very important issue, and one that we 
need to understand much better. Thank you for having the 
hearing.
    Senator Shaheen. Thank you.
    Ms. Castle.

  STATEMENT OF ANNE CASTLE, ASSISTANT SECRETARY OF WATER AND 
              SCIENCE, DEPARTMENT OF THE INTERIOR

    Ms. Castle. Thank you, Chairman Shaheen, Senator Bingaman. 
Thank you very much for inviting me to be here today to talk to 
you about the Department of the Interior's undertakings and 
accomplishments with respect to water scarcity, both 
domestically and globally.
    I'll be talking specifically about the Bureau of 
Reclamation and the U.S. Geological Survey, the 2 agencies that 
I work most closely with. While it is States that allocate 
water supplies and control administration of use, the Federal 
Government has a very important role to play in leading the way 
to sustainability of water resources, and providing the tools 
that we need to get there.
    The USGS is best known in the world of water for the over 
7,000 stream gauges that it operates, deployed all across the 
country. Those stream gauges provide us with real-time stream 
flow information that is accessible to anyone who goes online. 
That information is really essential to the National Weather 
Service, to FEMA, to the Army Corps of Engineers, and to just 
about any water manager.
    USGS also helps us with water imbalances, by telling us 
exactly how and where water is being used across the country. 
Every 5 years, USGS produces a report on the overall water use 
in the United States, and tells us what water withdrawals are 
used for, and what volume of water is being used for those 
purposes.
    USGS is also drilling down on particular watersheds, and 
doing very detailed supply and demand inventories in existing 
river basins. For example, Senator Shaheen, as you know, I'm 
sure, USGS recently completed 2 reports on water supply and 
demand in the seacoast area in New Hampshire. One was looking 
at current and future surface water demand, based on growing 
population and climate change. The other was a groundwater 
model that was looking at projected groundwater depletions, 
based on both withdrawals and climate change as well.
    Reclamation also has a very key role to play. It's the 
largest wholesaler of water in the United States, and the 
second largest producer of hydroelectric power. We provide 
drinking water to over 31 million people, and irrigation water 
supplies to 10 million acres of land.
    Reclamation's role has really evolved over the years from 
being solely a constructor and operator of dams and reservoirs 
to being one of the co-managers of the ecosystems in which 
those reservoirs exist. We now know that we have to pay 
attention to downstream resources if we're going to fulfill our 
mission of providing reliable supplies of water and power.
    Interior's signature initiative to lead the way toward 
sustainability of water supplies is our WaterSMART program. 
Reclamation is a key player in WaterSMART. We know that we need 
to develop better strategies for managing our own water 
supplies, but we also recognize that we have a role to play in 
facilitating new technology, in incentivizing conservation and 
reuse, and encouraging innovation for all types of water users.
    One of the ways that WaterSMART does that is providing 
cost-share grants to help fund water conservation and reuse 
measures and to incentivize technological breakthroughs. A 
great example of a WaterSMART grant is in Senator Lee's State, 
a grant that we made to the Uinta Water Conservancy District, 
$300,000 to fully automate its water delivery system. That's 
going to enable water savings of over 1,800 acre feet, and also 
contribute to better water sustainability in the important 
energy resource development of the Uinta basin of eastern Utah.
    Another example of information that we provide to assist in 
water supply management is through USGS's earth-observing 
satellite system, the Landsat series of satellites. Landsat 
gives us remotely sensed land imagery over the entire globe, 
but it also allows us to very accurately estimate consumptive 
use of water from vegetation and crops. So, it gives us a 
better tool for more quickly and inexpensively estimating water 
use through evapotranspiration. That's a very important 
component of water balance.
    My written testimony describes our other work, our 
international work in the Middle East and North Africa. It also 
describes our efforts to estimate the impacts of climate change 
on water supplies, and assess how to improve that information.
    Finally, I've described our incubation of new technologies 
for accessing unconventional supplies of water, like seawater, 
or brackish groundwater, or other impaired sources, so that we 
can actually increase the availability of water.
    As water scarcity increases, which we have every reason to 
believe that it will, we're trying to use a multipronged 
approach to create the platforms and the tools that water 
managers and planners need to adapt to changing conditions, and 
to create security for the future.
    I look forward to talking with you further about this 
important question and to answer any of your questions. Thank 
you.
    [The prepared statement of Ms. Castle follows:]

  Prepared Statement of Anne Castle, Assistant Secretary of Water and 
                  Science, Department of the Interior
    Chairwoman Shaheen, Ranking Member Lee and Members of the 
Subcommittee, I am Anne Castle, Assistant Secretary of Water and 
Science at the Department of the Interior (Department). I am pleased to 
report on the Bureau of Reclamation's (Reclamation) and the U. S. 
Geological Survey's (USGS) accomplishments as they relate to the 
opportunities and challenges to address domestic and global water 
supply issues. These are areas of priority and special study at the 
Department and I appreciate the opportunity to share with you 
information on the many activities we have underway.
    The USGS and Reclamation play key roles with respect to meeting our 
Nation's water supply challenges. Water is one of six science mission 
areas of the USGS and has been an essential part of the USGS mission 
for more than 120 years. USGS is known throughout the country for its 
operation of our national system of stream gauges. The USGS installed 
its first stream gauge in Embudo, New Mexico in 1889 and today, a 
network of more than 7,000 stream gauges operated in cooperation with 
local, state, and Federal agencies, provides real-time data important 
to the National Weather Service, FEMA, the U.S. Army Corps of Engineers 
and other Tribal, state, and local partners. Streamflow information is 
used for interstate and international transfers, river forecasting, 
water budgets, and other purposes. Stream gauge information is 
essential to effective and sustainable water management, as it provides 
necessary data to make decisions concerning the water supply.
    Founded in 1879, the USGS is the Nation's largest water, earth, and 
biological science and civilian mapping agency. The USGS collects, 
monitors, analyzes, and provides scientific understanding about natural 
resource conditions, issues, and problems. The USGS provides impartial 
scientific information on the health of our ecosystems and environment, 
the natural hazards that threaten us, the natural resources we rely on, 
the impacts of climate and land-use changes, and the core science 
systems that help us provide timely, relevant, and useable information. 
With a diversity of scientific expertise, the USGS carries out large-
scale, multi-disciplinary investigations and provides scientific 
information to resource managers, planners, and other customers.
    Reclamation owns and operates water projects that promote and 
sustain economic development within the 17 western States. The mission 
of Reclamation is to manage, develop, and protect water and related 
resources in an environmentally and economically sound manner in the 
interest of the American public. Since it was established in 1902, 
Reclamation has constructed more than 600 dams and reservoirs including 
Hoover Dam on the Colorado River and Grand Coulee on the Columbia 
River. Reclamation is the largest wholesaler of water in the country, 
delivering water to more than 31 million people, and providing one out 
of five western farmers with irrigation water for 10 million acres of 
farmland across the United States. Reclamation is also the second 
largest producer of hydroelectric power in the United States, and 
provides significant amounts of renewable energy to customers 
throughout the West.
The Department's WaterSMART Program Contributes to Water Supply 
        Security
    On February 10, 2010, Secretary Ken Salazar signed a Secretarial 
order establishing the Department 's WaterSMART Initiative. The 
``SMART'' in WaterSMART stands for ``Sustain and Manage America's 
Resources for Tomorrow.'' The WaterSMART Program includes WaterSMART 
cost share grants (Water and Energy Efficiency Grants, System 
Optimization Review Grants, Advanced Water Treatment and Pilot and 
Demonstration Project Grants, and Grants to Develop Climate Analysis 
Tools), Reclamation's Basin Studies, Landscape Conservation 
Cooperatives, West-Wide Climate Risk Assessments, the Title XVI Water 
Reclamation and Recycling program, the Cooperative Watershed Management 
Program, the Water Conservation Field Service Program, USGS's Water 
Availability and Use Assessments, and the WaterSMART Clearinghouse. 
Through the WaterSMART Program, the Department works with states, 
tribes, local governments, and non-governmental organizations to secure 
and stretch water supplies for use by existing and future generations 
to benefit people, the economy, and the environment and will identify 
measures needed to address climate change and future demands.
    Rapid population growth, depletion of groundwater resources, 
impaired water quality, water needed for human and environmental uses, 
and climate variability all play a role in determining the amount of 
fresh water available at any given place and time. Water shortage and 
water-use conflicts have increasingly become commonplace in many areas 
of the United States. As competition for water resources grows--for 
irrigation of crops, growing cities and communities, energy production, 
and the environment--the need for information, tools, and technology to 
aid water resource managers also grows.
    Through the Basin Study Program, Reclamation and its partners are 
conducting studies of the supply and demand for water in 12 basins 
throughout the West, including the Colorado River Basin, the Yakima 
River Basin, and the St. Mary and Milk River Basins. Subsequent West-
Wide Climate Risk Assessments will provide hydrologic projections that 
water managers can utilize to adapt to climate change and other 
resource management challenges.
    Reclamation's Title XVI Program provides opportunities to reclaim 
and reuse wastewater and naturally impaired ground and surface water in 
the 17 western States and Hawaii, providing flexibility during water 
shortages by reusing water typically available during drought periods. 
Recent examples of Title XVI projects that use technology to create new 
drought resistant sources of water include the Santa Clara Valley Water 
District's South Bay Advanced Water Treatment Plant. The plant will use 
microfiltration, reverse osmosis, and ultra violet disinfection 
techniques to produce up to 10 million gallons per day of recycled 
water from wastewater to help meet the Silicon Valley's future water 
demands. Similarly, the Long Beach Water Department is using the Title 
XVI Program to develop and test a new double-pass nanofiltration system 
to desalinate seawater to drinking water quality. The demonstration 
phase has been completed, and the process has been shown to result in 
energy savings when compared to reverse osmosis processes.
    USGS's WaterSMART program includes the ongoing Water Census Program 
which is designed to provide a comprehensive examination of water 
availability in the United States. An initial Water Census pilot 
project for the Great Lakes Basin was completed in 2011 (http://
water.usgs.gov/wateravailability/greatlakes/). The pilot provides an 
indication of the detailed information that will be generated through 
the Program. In general, USGS's water programs provide information 
designed to quantify water availability, understand ecological needs 
for water, and improve the ability to accurately measure consumptive 
uses.
The Department's Actions to Address Water Supply Uncertainties Relating 
        to a Changing Climate
    The Department has released two reports this year as called for by 
Sections 9503 and 9506 of the SECURE Water Act, P.L. 111-11, which was 
enacted to develop tools to help resource managers secure adequate and 
safe supplies of water. Reclamation's Section 9503 Report synthesized 
existing peer-reviewed literature on climate change and included an 
original assessment of climate change implications for snowpack and 
natural hydrology in eight major Reclamation river basins (http://
www.usbr.gov/climate/SECURE/docs/SECUREWaterReport.pdf). Projections of 
future precipitation indicate that the northern and north-central 
portions of the United States may gradually become wetter while the 
southwestern and south-central portions may gradually become drier. 
Projections also suggest that warming and associated loss of snowpack 
will persist over much of the western United States. This loss of 
snowpack storage is expected to result in a decrease in the amount of 
reliable water supply in areas where snow has been a major component of 
the hydrologic system.
    The Section 9506 report, titled Strengthening the Scientific 
Understanding of Climate Change Impacts on Freshwater Resources of the 
United States, was prepared by a Federal interagency panel led by the 
USGS and developed in concert with the Council on Environmental 
Quality, the National Oceanic and Atmospheric Administration, and the 
Office of Science and Technology Policy. The report reviews the state 
of existing science and identifies strategies for improving systems to 
collect climate-related data and water monitoring information. The 
recommendations are intended to help water managers predict, respond 
and adapt to the effects of climate change on the Nation's freshwater 
supplies so that they can help ensure adequate water quantity and 
quality. Recommendations include a need to strengthen the Nation's 
water monitoring systems, including both ground-and space-based 
systems.\1\
---------------------------------------------------------------------------
    \1\ http://www.doi.gov/news/pressreleases/
loader.cfm?csModule=security/getfile&pageid=260567
---------------------------------------------------------------------------
The Department's River Restoration Activities and Species Recovery 
        Programs Enhance Water Supply Security
    In addition to developing tools to address uncertain climatic 
conditions, an important aspect of Reclamation's mission is to ensure 
reliability of water supplies through its river restoration programs. 
In order to continue to deliver water and generate power, Reclamation 
must address the environmental effects associated with its projects. 
These ongoing restoration efforts provide certainty to water users, 
enhancement to the environment, and economic benefits to the 
surrounding communities. A 2009 economic report prepared for the 
Department concludes that every one million dollars we invest in 
ecosystem restoration yields approximately 30 jobs.\2\
---------------------------------------------------------------------------
    \2\ http://www.doi.gov/news/pressreleases/
loader.cfm?csModule=security/getfile&PageID=22612
---------------------------------------------------------------------------
    USGS provides scientific expertise and support to restoration and 
species recovery programs and is an active participant in major 
ecosystem restoration programs that protect drinking water supplies, 
irrigation and industrial water uses, and maintain a healthy 
environment. USGS conducts research and monitoring to develop and 
convey a fundamental understanding of ecosystem function and 
distributions, and to evaluate the physical and biological components 
of freshwater, terrestrial, and marine ecosystems and the human and 
biotic communities they support.
Landsat Imagery Contributes to Our Understanding of Water Use and 
        Availability
    An additional example of technology that assists water supply 
management is USGS's Earth-observing satellite, called Landsat, which 
has been providing sustained remotely-sensed land data for the entire 
planet since 1972. One of the many valuable uses of Landsat is to 
enable water managers to ``see'' evapotranspiration and estimate 
consumptive water use from irrigation. The States of Idaho and Arizona 
use this satellite data for this purpose, which has proven to be much 
cheaper than traditional methods of measuring consumptive use.
    One thing that makes Landsat unique is its temporal resolution, 
which is a measurement of how often it takes an image of each square 
meter of the Earth's surface. Until recently, Landsat captured an image 
about once every 8 days which is useful for evaluating the ongoing 
changes to the western landscape and patterns of water use. In November 
of this year however, one of the two Landsat satellites (Landsat 5) 
became inoperative after breaking records for longevity, and the 
temporal resolution was cut in half. An eighth Landsat is scheduled to 
launch in early 2013 and critical steps are being taken to plan for the 
next satellite. Maintaining the continuity of the data is essential to 
water managers that rely on it.
Research and Development Activities Help Develop Tools to Address Water 
        Supply Challenges
    In addition to recognizing the importance of gathering information 
and developing strategies to better manage water supplies, the 
Department recognizes that technology, efficiency, and innovation will 
be central to maximizing water supplies in the years ahead. Federal 
investments in the research, development and demonstration of water 
conservation and reuse technologies can be catalysts in the creation of 
U.S. jobs, and can strengthen the competitiveness of U.S. industries in 
a global economy. Federal investments in research, development and 
demonstration projects can lead to breakthroughs in science and 
engineering, which can create foundations for new industries, new 
companies and new jobs. For example, Reclamation has been engaged in 
funding research, development and demonstration technologies to address 
water shortages which have been instrumental in facilitating the 
expansion of the U.S. market for water conservation technologies. 
Through its Desalination and Water Purification Research and 
Development Program, Reclamation has provided grant money to a 
consortium of U.S. membrane manufacturers to evaluate a ``standard'' 
diameter for large reverse osmosis elements. The consortium developed a 
16-inch standard diameter element that has been adopted for large 
capacity plants such as Singapore's 2.6 million gallon per day Power 
Seraya project and the new 108.5 million gallon per day desalination 
project in Sorek, Israel, which may also be used elsewhere.
    Similarly, Reclamation's Advanced Water Treatment grants Program 
for strategic, targeted water management improvements, encourages the 
use of innovative technologies that address water supply 
sustainability. Loving County, Texas is using WaterSMART Grant funding 
this year to begin a field-installed pilot project to evaluate the 
viability of using wind powered vapor compression technology to treat 
brackish groundwater. In California, the Richvale Irrigation District 
is implementing an online Geographic Information System and irrigation 
flow-event recording system using WaterSMART Grant funding. The project 
will enable the district to improve flow management, reduce leaks and 
spills, and conserve water by providing continuous feedback on water 
consumption to growers and is projected to save 11,500 acre-feet of 
water annually.
    The Department has a history of supporting research and development 
efforts to create and improve water purification technologies to 
encourage new water supplies, including highly purified brackish water, 
seawater, and wastewater. The Department recognizes the growing 
importance of unconventional water sources and that research and 
development must be a priority now in order to make these options more 
certain and sustainable for the future. The USGS's Water mission are 
includes the National Research Program which develops technology and 
insights regarding varied and complex hydrologic and ecological 
processes that are important for protecting and enhancing the Nation's 
water resources and the ecosystems they support. USGS scientists are 
conducting a wide variety of research and development activities to 
study water scarcity. A few examples are discussed below.

  <bullet> Purification of water using solar energy--An example of new 
        technology that directly addresses water scarcity is the solar 
        distillation loop (US Patent No. 7,108,769). This invention 
        provides a low-energy, inexpensive process for water 
        purification and is designed to help solve the complex problems 
        associated with water scarcity, increasing water conveyance 
        costs, and regional accumulation of salts in soils resulting 
        from irrigation.
  <bullet> Changes in snowpack runoff--The western United States 
        depends heavily on runoff from snowpack melt to store 
        wintertime precipitation into the drier spring and summer 
        months. USGS scientists have been conducting research to 
        document the shift towards earlier runoff that is caused by (1) 
        more precipitation falling as rain instead of snow and (2) 
        earlier or faster snowmelt. Results of this work will impact 
        the manner in which water is managed in the West.
  <bullet> Water sustainability in the Southwest United States--The 
        USGS has investigated the potential effects of specific levels 
        of climate warming on streamflow in the Colorado 6 River basin 
        using a water-balance model. This work supports both WaterSMART 
        activities, as well as Reclamation's Colorado River Basin 
        Study.
  <bullet> Drought--Climate, droughts and streamflow patterns are all 
        interdependent. USGS research is documenting regional, 
        national, and global spatial patterns of drought. Coping with a 
        prolonged drought is anticipated to be difficult, particularly 
        in the arid and semi-arid West, where water demand has 
        increased significantly and water supplies are likely to be 
        insufficient for demand. Severe drought conditions have also 
        affected the East in recent years. Understanding drought 
        frequency, duration, and severity are key to meeting water 
        demands.

    Reclamation conducts research and development of technologies such 
as membranes and advanced treatment for water reuse and desalination 
represents innovation in an area that may be one of our best 
opportunities to create `new' water supplies that benefit both inland 
and coastal areas here in the U.S. and around the world. In 2008, the 
National Academy of Sciences released a two-year study, sponsored by 
Reclamation and the Environmental Protection Agency, which looked at 
the role of desalination in contributing to the Nation's water supply. 
The study resulted in recommendations for two overarching goals: 1) to 
understand the environmental impacts of desalination and develop 
approaches to minimize these impacts relative to other water supply 
alternatives; and 2) develop approaches to lower the financial costs of 
desalination so that it is an attractive option relative to other 
alternatives in locations where traditional sources of water are 
inadequate. The recommendations form the basis for Reclamation's 
advanced water treatment technology initiatives.
    Reclamation has a number of initiatives that develop and apply 
advanced water treatment technologies in water scarce regions with 
involvement that ranges from funding and partnerships for laboratory 
studies, to prototyping new concepts, to assisting other federal 
agencies and organizations around the world. One Reclamation project 
that incorporates advanced water treatment and technology research is 
the Yuma Desalting Plant in Arizona and its adjoining Water Quality 
Improvement Center.
    The Yuma Desalting Plant was constructed under the authority of the 
Colorado River Basin Salinity Control Act of 1974 to recover 
agricultural return flows that bypass the Colorado River. Due to budget 
constraints as well as sufficient water supplies on the lower Colorado 
River prior to the current drought, the plant has been maintained, but 
not operated except for brief periods. Working with the Metropolitan 
Water District of Southern California (MWD), Southern Nevada Water 
Authority (SNWA), and Central Arizona Water Conservation District 
(CAWCD), the Colorado River Basin states and other parties, in March 
2011 Reclamation concluded a successful pilot run of the plant under 
budget and ahead of schedule to recycle approximately 30,000 AF of 
irrigation return flow water that was used to help meet the U.S.'s 1944 
Water Treaty to deliver Colorado River water to Mexico and to provide 
flows for the Cienega de Santa Clara (Cienega), a wetland in Mexico. 
The Cienega is now home to more than 350 bird species and habitat for 
thousands of migratory and resident birds--an accomplishment that has 
set the stage for future collaboration with Mexico.
    In October 2011, Reclamation announced a number of awards under its 
Desalination and Water Purification Research Program, using $1.5 
million of Federal funds to support nearly $2.8 million for use in 
research projects, including five new projects and two projects that 
are receiving continuing funding for their second phase. The projects 
help to reduce environmental impacts, integrate renewable energy, 
reduce long-term costs, expand scientific understanding, and test pilot 
and demonstration-scale projects. Examples include a project to design 
and test a pressure regulation subsystem for a wave-driven desalination 
system being carried out by a company in Boston, Massachusetts. This 
system will be used in conjunction with a seawater reverse osmosis 
system powered by ocean wave energy to create a clean and cost-
effective alternative to diesel-driven desalination systems.
    A number of projects are also being carried out at Reclamation's 
Brackish Groundwater National Desalination Research Facility in 
Alamogordo, New Mexico. New Mexico State University with the Office of 
Naval Research is funding students and faculty to work with General 
Electric and their researchers on electrodialysis, to develop a more 
affordable desalination system for small users. Additionally, the 
University of Texas at El Paso with Veolia Water Systems received a 
second year of demonstration funding to continue the commercialization 
of a brackish desalination system that would recover approximately 98% 
of the brackish water rather than the conventional 70%.
Addressing the Energy/Water Nexus
    There is no dispute that water shortages can affect energy 
production and energy production can impact water supplies. Through the 
WaterSMART Program, the Department is committed to integrating energy 
and water policies to promote the sustainable use of all resources, 
including incorporating water conservation criteria and the water/
energy nexus into the Department's planning efforts. WaterSMART 
specifically recognizes that water and energy are inextricably linked 
and that water conservation can yield significant energy conservation 
benefits too. For example, Reclamation's Water and Energy Efficiency 
grant program recognizes the connection and has prioritized funding for 
projects that include energy savings in addition to water savings. The 
most recent grant awards included 25 projects that included energy 
savings in addition to water savings.
    USGS plays an integral role with respect to understanding the 
constraints and impacts involved in the relationship between energy and 
water. For example, USGS evaluates water consumption of thermoelectric 
power plants as part of its water use assessments and is working with 
industry and the U.S. Energy Information Administration to evaluate the 
water uses associated with different technologies. USGS expects to have 
a report completed in 2012 regarding classifications of various cooling 
technologies and methodologies for estimating consumptive uses. USGS 
also conducts water quality and quantity monitoring in connection with 
oil and gas development. This subcommittee recently heard testimony 
from USGS relating to shale gas production and water resources in the 
eastern United States. USGS is currently coordinating with other 
agencies, including the Department of Energy and the Environmental 
Protection Agency to address human and environmental health and safety 
concerns in the development of shale gas resources. In the West, USGS 
is working with the Bureau of Land Management (BLM) on groundwater and 
surface water monitoring in oil and gas development areas in Colorado 
and Wyoming. USGS is also working with BLM on evaluating impacts 
relating to renewable energy development such as solar power in the 
southwest to ensure that development plans address water supply 
constraints.
Efforts to Address International Water Supply Issues
    Though Reclamation's efforts are primarily focused in the 17 
western states, what is learned in one part of the world is rapidly 
transferred to other regions with similar needs. As one example of 
Reclamation's international efforts, in coordination with the 
Department of State, Reclamation worked toward the creation and 
operation of the Middle East Desalination Research Center (MEDRC) in 
Muscat, Oman as a tangible part of the Middle East Peace Process. This 
year, Reclamation participated with the State of Israel in an audit of 
MEDRC policies and procedures. Reclamation recently updated an 
Interagency Agreement with the Department of State to provide technical 
assistance to MEDRC as well as to provide technical assistance as `new' 
water infrastructure is developed by the Palestinians, Jordanians, and 
Israelis utilizing desalination and water reuse. Through the same 
agreement, Reclamation has been providing preliminary advice on the Red 
Sea Dead Sea mega desalination and energy project.
    USGS works with the Department of State and the Department of 
Defense in many countries, including Afghanistan, Ethiopia, Haiti, 
India, Iraq, Pakistan, and Sudan, to support local and national efforts 
to better understand and manage water resources. USGS's international 
efforts include a focus on the ability to exchange water data across 
nations and to interpret the data with common protocols. A summary of 
USGS's International Water Resources Branch activities is found at: 
http://water.usgs.gov/international/. USGS is actively participating in 
the work of the Open Geospatial Consortium jointly with the World 
Meteorology Organization to develop and apply standards for describing 
and distributing water data from any database (whether local, national 
or International) such as those of the USGS National Water Information 
System. In 2010, the USGS released the results of a collaborative 
effort with the Afghanistan Geological Survey and the Afghanistan 
Ministry of Energy and Water, and supported by the United States Agency 
for International Development, to study water resources in the Kabul 
Basin. Because of the decades-long gap in the record of hydrologic and 
climatic observations due to war and civil strife, the investigation 
made use of remotely sensed data and satellite imagery, including 
glacier and climatic data, in addition to recent geologic 
investigations, analysis of streamflow data, groundwater-level 
analysis, surface-water-and groundwater-quality data, and estimates of 
public-supply and agricultural water uses.
    Other international examples include work in Iraq, where the USGS 
recently provided training on groundwater assessment methodologies and 
helped to develop basin wide water availability methodologies using 
remote sensing techniques. In addition, since 1988 the USGS, at the 
request of the U. S Embassy, has been partnering with the National 
Drilling Company of the Abu Dhabi Emirate to collect information on the 
ground-water resources of the Emirate, to conduct research on the 
hydrology of the arid environment, to provide training in water-
resources investigations, and to document the results of the 
cooperative work in scientific publications.
Conclusion
    In conclusion, as water scarcity increases throughout the world, 
the Department of the Interior's efforts to create and utilize new 
technologies are helping to firm up water supplies for agricultural, 
municipal, industrial, and environmental needs. State governments 
administer water use within their borders and state law determines 
allocations and allowable uses. But the Federal government has a 
responsibility to provide leadership and tools to address the 
challenges of imbalance between supply and demand. We can provide 
incentives to encourage water conservation and reuse, leadership in new 
technology to increase usable supplies, and assistance for ecosystem 
restoration efforts that increase the certainty of water supplies for 
the future. All of these efforts depend on partnerships with local 
utilities, states, tribes, and foreign allies. The Department aims to 
continue generating positive, concrete results from these efforts and 
to help communities in managing opportunities and challenges for a 
secure water future.
    I would be pleased to answer any questions the Subcommittee may 
have.

    Senator Shaheen. Thank you very much.
    Mr. Hansen.

   STATEMENT OF L. JERRY HANSEN, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY FOR INSTALLATIONS, ENERGY, AND ENVIRONMENT, U.S. ARMY

    Mr. Hansen. Thank you, ma'am.
    Madam Chairwoman, Senator Bingaman, it's a pleasure today 
to appear to discuss water scarcity and how the Army's water-
related programs, and particularly our efforts to create net 
zero installations and reduce water requirements in contingency 
operations that are part of the solution. We're especially 
grateful for this committee's interest in the Army's energy and 
water reduction programs. We believe the committee's ongoing 
efforts, coupled with the President's vision for 
sustainability, will help our installations accomplish their 
worldwide missions now and into the future without disruption.
    The Army faces significant manmade and natural threats to 
our energy and water supply requirements, both at home and 
abroad. Just this past year, Army installations have faced a 
tsunami, earthquake in Japan, tornadoes in the South, and 
droughts in the West. We must address these threats and work to 
ensure that the Army of tomorrow has the same access to 
resources as the Army of today.
    Addressing sustainability is operationally necessary, 
financially prudent, and essential to mission accomplishment. 
We are creating a culture that recognizes the value of 
sustainability, measured not just in terms of financial 
benefits, but benefits to maintaining mission capability, 
quality of life, relationships with local communities, and the 
preservation of options for the Army's future.
    The Army's proud to lead the way in meeting water intensity 
reductions in the Energy Policy Act of 2005. Our installation 
of water intensity has dropped from 57.6 gallons per gross 
square foot in 2007 to 48.8 in 2010.
    The centerpiece of our program, to appropriately manage our 
natural resources, is our net zero program. A net zero water 
installation limits the consumption of fresh water resources 
and returns water back to the same watershed, so as not to 
deplete the groundwater and surface water resources of that 
region in quantity and quality over the course of a year. We 
have pilot installations identified and net zero energy and net 
zero waste, as well as net zero water.
    The net zero water strategy balances water availability and 
use to ensure a sustainable water supply for years to come. 
This concept is of increasing importance, and scarcity of clean 
potable water is quickly becoming a serious issue in many 
areas.
    The continued drawdown of major aquifers results in 
significant problems for--for our future. Strategies such as 
harvesting rainwater and recycling discharge water for reuse 
will reduce our need for municipal water and also reduce our 
discharges of storm water or treated wastewater.
    In addition to the net zero initiative, our water security 
mission makes water a consideration in all Army activities. To 
increase efficiency, reduce demand, seek alternative sources, 
and create a culture of water accountability, while sustaining 
or enhancing operational capabilities.
    For example, Installation Management Command will be 
holding users accountable to modernize facilities, install new 
technologies, and leverage partnerships that can provide an 
increased level of water security. This will lead to increased 
sustainability, a more resilient water-related infrastructure, 
and enhance mission assurance.
    The Army has identified 8 installations as net zero water 
pilot sites. Let me highlight just 2 examples of interest to 
committee members. First, is Camp Rilea, Oregon. This 281,000-
acre installation is striving to reach net zero water by 
successfully redesigning their water supply and wastewater 
capability, so that they can operate independent of the 
existing municipal supply, if needed, to keep the North Coast 
Energy Operation Center operable 24/7.
    Camp Rilea also recently installed several rapid 
infiltration basins to simultaneously supplement their existing 
reclaimed water reuse capabilities, and comply with regulatory 
requirements for wastewater discharge.
    Second, Joint Base Lewis-McChord, in Washington. Joint Base 
Lewis-McChord has requested funding for replacing an aging and 
obsolete wastewater treatment plant at their installation. The 
proposed new plant will generate class A reclaimed water, which 
can then be reused as part of the net zero initiative. The 
project is designed to reduce or eliminate storm water 
discharges into a creek and reuse it. Joint Base Lewis McChord 
is including storm water in its net zero goals. The 
installation has been meeting the EO--Executive Order 135104 
required water use reduction of 2 percent per year, mostly 
through water conservation projects, reducing the amount of 
water used for irrigation.
    In parallel to net zero water, the--the Army is also 
implementing solutions to reduce water use in our contingency 
operations. Reducing water use directly decreases the threats 
to our convoys, because 70 to 80 percent of our resupply weight 
or convoy weight is fuel and water.
    Less water means fewer convoys, which means fewer soldiers 
are placed at risk. Deploying technology at our contingency 
bases, such as the Shallow Water Reuse System, makes the Army 
more efficient and directly enhances the mission. The magnitude 
of water savings associated with the Shower Water Reuse System 
deployed at a 600-man force provider tent city are pretty 
impressive. In many cases, the system produces a simple 
economic payback for less than a week of use. From the net zero 
water pilots and contingency base initiatives, we'll be 
collecting best management practices and lessons learned, and 
we will share these as widely as possible.
    Madam Chairwoman, this completes my statement. Thank you 
again for the opportunity to appear before you today. I'll look 
forward to your questions. I also have an Army vision for net 
zero folder, 2 pages, that I'll be happy to provide for the 
record, if you'd like.
    [The prepared statement of Mr. Hansen follows:]

  Prepared Statement of L. Jerry Hansen, Princinpal Deputy Assistant 
    Secretary for Installations, Energy, and Environment, U.S. Army
                              introduction
    Madam Chairwoman and members of the Committee, it is a pleasure to 
appear before you to discuss the Army's water related programs, 
particularly our efforts to create net zero installations. We are 
especially grateful for this Committee's continued support for the 
Army's energy and water reduction programs. The Committee's on-going 
efforts, coupled with the President's vision for sustainability, marked 
by increased energy and water efficiencies, and reductions in the 
generation of solid waste, will ensure that our installations are able 
to accomplish their world-wide missions now and into the future without 
disruption.
                               background
    The Army's vision is to appropriately manage our natural resources 
with a goal of net zero installations. Today, the Army faces 
significant threats to our energy and water supply requirements both at 
home and abroad. Addressing sustainability is operationally necessary, 
financially prudent, and essential to mission accomplishment. The goal 
is to manage our installations not only for water efficiency, but also 
energy efficiency, and solid waste reduction. We are creating a culture 
that recognizes the value of sustainability measured not just in terms 
of financial benefits, but benefits to maintaining mission capability, 
quality of life, relationships with local communities, and the 
preservation of options for the Army's future. The Army is making 
investments on our installations by improving efficiencies in energy, 
water, and reducing waste for the benefit of the Nation and, provide 
current and future Soldiers with the maximum amount of flexibility 
possible to address the Nation's security needs.
                    army installation water program
    In addition to our installation to become net zero initiative, our 
water security mission makes water a consideration in all Army 
activities in an effort to increase efficiency, reduce demand, seek 
alternative sources, and create a culture of water accountability while 
sustaining or enhancing operational capabilities. For example, in the 
Installation Management Command, which manages the majority of Army 
installations one of their strategic goals is to maintain water 
efficiency by holding users accountable to modernize facilities, 
install new technologies, and leverage partnerships that can provide an 
increased level of water security. This will lead to increased 
sustainability, a more resilient water-related infrastructure, and 
enhanced mission assurance. The trend in our installation water 
intensity (Gallons/Gross Square Foot), 2007--57.6, 2008--54.0, 2009--
58.2, and 2010--48.8, has decreased over the last four years for which 
data are available. The Army is a leader amongst all Federal Agencies 
in regards to meeting the water intensity reductions in the Energy 
Policy Act of 2005. In fact, based on data from the Federal Energy 
Management Program, were it not for the Army's superior performance 
with water intensity reductions in the last two years, the Federal 
Government as a whole would not have met its Congressionally mandated 
water intensity targets.
    To meet the challenges of limited and stressed potable water 
sources, we will continue to plan and implement, particularly net zero, 
that recognize water as a strategic resource. Enhancing water 
conservation and management, and creating awareness are basic 
responsibilities of every Army Soldier and civilian. Success depends on 
individual and organizational accountability for improved performance 
through implementation of solutions to meet current and future water 
security challenges. Changing our behavior in how we view and use water 
is central to our continued success.
                             net zero water
    Earlier this year, we asked for nominations from throughout the 
Army for installations that were interested in being becoming net zero 
energy, water, and/or waste pilot. We received applications from 60 
installations. For net zero water, we evaluated 23 applications from 
across the U.S. and across multiple Army commands. A total of eight 
installations were identified as net zero water pilots including 
Aberdeen Providing Ground, Maryland; Camp Rilea, Oregon; Fort 
Buchannan, Puerto Rico; Fort Riley Kansas; Joint Base Lewis McChord, 
Washington; Tobyhanna Army Depot, Pennsylvania; Fort Carson, Colorado; 
and Fort Bliss, Texas and New Mexico. While each installation is unique 
and has specific needs based on their location and function, the net 
zero water pilot initiative brings them together to share information 
and strategies, and will provide a model for other installations that 
are working on their own sustainability efforts.
    The net zero water strategy balances water availability and use to 
ensure a sustainable water supply for years to come. This concept is of 
increasing importance since scarcity of clean potable water is quickly 
becoming a serious issue in many areas. The continued draw-down of 
major aquifers results in significant problems for our future. 
Strategies such as harvesting rain water and recycling discharge water 
for reuse is reducing the need for municipal water, exported sewage, or 
storm water.
    To achieve a net zero water installation, efforts begin with 
conservation followed by efficiency in use and improved integrity of 
distribution systems. Water is re-purposed by using gray water 
generated from sources such as showers, sinks, and laundries and by 
capturing precipitation and storm water runoff for on-site use. 
Wastewater can be treated and reclaimed for other uses or recharged 
into groundwater aquifers. Several Army installations are already well 
down the path to reaching net zero water goals.
                       multi-agency collabroation
    While the Army possess a significant amount of in-house expertise 
in water, including offices within the U.S. Army Corps of Engineers 
that we are working with including the Construction Engineering 
Research Laboratory in Champaign, Illinois, and the U.S. Army 
Engineering and Support Center in Huntsville, Alabama, there is 
considerable expertise elsewhere in the federal government that we are 
also drawing on.
    We have reached out to the federal Environmental Protection 
Agency's Office of Research and Development to assist the Army with the 
net zero initiative. Ms. Katherine Hammack, the ASA(IE&E) and Dr. Paul 
Anastas, the EPA's Assistant Administrator for Research and 
Development, and the Science Advisor to the Administrator, signed a 
Memorandum of Understanding on 28 November 2011 to formalize the 
collaboration. We will work jointly to advance the development of new 
applications and technologies that can be used as we strive towards net 
zero energy, water, and waste. We will explore technologies and 
approaches that (1) increase efficiency and recovery of energy, water, 
and materials, (2) incorporate design and use of Green Infrastructure, 
(3) address the energy/water nexus, (4) addresses social and behavioral 
components, (5) aid in our understanding of water, energy, and material 
flows and interactions, and (6) incorporate water and energy security 
and climate-ready solutions.
    We are also working with the Department of Energy's Pacific 
Northwest National Laboratory (PNNL) within the context of the 
Department of Defense and Department of Energy's Memorandum of 
Understanding to draw on PNNL's expertise in water efficiency. PNNL 
will begin by performing a water balance assessment for each of the net 
zero water pilots. A water balance (Figure 1*) compares the total water 
supplied to the installation to the actual water consumed by equipment 
and processes such as industrial, landscaping, and residential use. The 
water balance will identify the largest water consumers and assist in 
identifying problem areas such as high leak rates in the water 
distribution system.
---------------------------------------------------------------------------
    * All figures have been retained in subcommittee files.
---------------------------------------------------------------------------
    Background information will be collected on an installation's 
overall water supply, wastewater discharge, and building inventory. 
This information provides historic installation water use trends and 
specific trends in water use at the building level. Following the 
background information collection, building and process walk-through 
audits will be conducted to provide information to estimate water use 
by end-use. These data are then used to develop the water balance 
providing an estimate of water use by major end-use category.
    Based on results from the water balance, a strategic project road 
map will be created (Figure 2). The road map will identify net zero 
water projects that will have the greatest affect on overall water 
demand reduction and will move the installation towards net zero. 
Projects will include a mix of efficient technologies and projects that 
target alternate water sources, such as gray water, that will replace 
the use of freshwater resources, such as those that draw raw water from 
rivers or lakes. There will be an emphasis on demand reduction and then 
alternate water source projects. After completion of the economic 
analysis of the net zero water projects, the road map will provide a 
list of projects to be programmed into the Army budgets and will assist 
in identifying other possible funding sources. Each installation's 
master planning activity will be part of the creation of the road map 
so that the installations current master plans are well integrated into 
their net zero water program.
                         contingency base water
    In parallel to the net zero water pilot initiative, the Army is 
also examining ways to reduce water use in contingency operations. 
Reducing water use directly decreases the threats to our convoys 
because 70 to 80 percent of our resupply weight or convoy weight is 
fuel and water. Less water means, fewer convoys which means fewer 
Soldiers are placed at risk. As with our U.S. based installations, we 
know that our budgets are going to be coming down and we are 
strategizing how to do more with less. Deploying technology at our 
contingency bases that makes the Army more efficient, such as the 
Shower Water Reuse System (SWRS), demonstrates our commitment to use 
resources more efficiently and directly enhances the mission. The SWRS 
works by taking waste or graywater and recycling it for future use. To 
accomplish this, the SWRS takes the soiled shower water and runs it 
through a series of filters, membranes, and chemicals. The water 
distributed from this system is within potable quality standards, 
although while technically potable, the Surgeon General has only 
approved it for reuse within the shower.
    The SWRS can treat up to 12,000 gallons of water per day and 
returns 75 percent of it for reuse. When the system is used at full 
capacity, 9,000 gallons of water are saved per day. Spread over an 
entire year, the Army could recognize a potential savings of more than 
3.2 million gallons of water in just one shower facility.
    Most contingency bases are not near accessible water supplies and 
need to be constantly resupplied. The cost of water per gallon in a war 
zone is extremely high. Once all factors are added up, one gallon of 
water delivered to a base in Afghanistan can cost anywhere from $5 to 
$30. This is what makes the SWRS such a force multiplier. By 
drastically reducing the amount of water needed to be resupplied, it 
returns more Soldiers to the field and lessens the burden on combat 
forces due to the coming drawdown.
    The SWRS is currently undergoing additional field testing at the 
Army's recently opened Base Camp System Integration Laboratory (SIL) at 
Fort Devens, Massachusetts. The SIL is designed to enable the Army and 
the joint services to evaluate future technologies in a live Soldier 
environment, providing solutions to reduce the energy and water demand 
and logistical burden on base camps in Afghanistan.
    The four-acre SIL is fully instrumented to measure water, fuel, and 
power use, forging the path for increased energy efficiency and base 
camp commonality. While the SWRS has already undergone two years of 
mission testing, evaluation at the SIL will be slightly different. We 
are currently working with Pennsylvania State University to create a 
way to filter laundry water in the same water reuse unit. If 
successful, the laundry water filter will be added on to the SWRS in 
the field. By Spring 2012, 54 SWRSs will be fielded to units in 
Afghanistan. Each SWRS system costs roughly $170,000. If used at its 
full capacity, the Army could realize a potential savings of millions 
of dollars per unit each year. It is this type of innovation that the 
Army is implementing to enhance capability and do more with less.
                               conclusion
    Through our installation water goals, the net zero initiative, and 
technologies such as the Shower Water Reuse System, the Army is 
researching innovative technological solutions coupled with changes in 
culture to achieve greater efficiencies in water. Thus, throughout the 
Army, we are focused on identifying ways to decrease the Army's water 
footprint across its entire global mission. From the net zero water 
pilots and contingency basing initiatives, we will be collecting best 
management practices and lessons learned throughout and will seek to 
share these across the Army, other Services, other federal agencies, 
and any other organizations that might find these practices useful for 
their own sustainability programs.
    Madam Chairwoman, this concludes my statement. Thank you again for 
the opportunity to appear before you today. I look forward to your 
questions.

    Senator Shaheen. Thank you very much. We would like that 
very much for the record. Thank you, Mr. Hansen.
    Mr. Salzberg.

   STATEMENT OF AARON SALZBERG, SPECIAL COORDINATOR ON WATER 
RESOURCES, BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND 
            SCIENTIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Salzberg. Thank you, Madam Chair, Senator Bingaman. I, 
too, appreciate the opportunity to appear before you today.
    As Secretary Clinton has noted, perhaps there's no 2 issues 
are more important to human health, economic growth, and peace 
and security than access to basic sanitation and sustainable 
supplies of water. Yet, as you pointed out, today, over 884 
million people lack access to safe drinking water, and over 2-
1/2 billion people lack access to basic sanitation. Each day, 
nearly 4,000 people, most children under 5, die from 
preventable diarrheal diseases caused by contaminated water. 
Not surprisingly, women and girls are most affected.
    In addition to the health impacts, water will affect our 
ability to protect the environment, achieve food and energy 
security, and respond to climate change. Competition for water 
and the lack of access to basic water and sanitation services 
may become a source of conflict and a contributing factor to 
State fragility and failure.
    While these statistics are grim, there is hope. In most 
places, there is enough water to meet demands. What's lacking 
is a commitment to sound water resources management and to 
meeting the basic water and sanitation needs of the people. To 
address these challenges, the United States is working 
internationally to help countries achieve water security. This 
means ensuring that people have reliable and sustainable access 
to the water they need, when they need it, where they need it, 
while reducing the risks from extreme hydrological events.
    To achieve this goal, the United States is working to 
increase access to safe drinking water and sanitation, improve 
water resources management, and mitigate the tensions 
associated with shared waters.
    Last year, Secretary Clinton outlined 5 primary areas of 
action for our work on water. First, to build and strengthen 
institutional and human capacity at the local, and national, 
and regional levels. Countries and communities must take the 
lead in securing their own water future. We need to help build 
their capacity so they can do so.
    Second, increase and better coordinate our diplomatic 
efforts. We need to work to raise international awareness, to 
encourage developing countries, to prioritize water and 
sanitation, and national plans and budgets, and to integrate 
water into global food security, health, and climate change 
initiatives.
    Third, mobilize financial support. This is going to require 
resources. In many cases, there is capital within developing 
countries. We need to work to mobilize these resources toward 
water and sanitation infrastructure by strengthening local 
capital markets, providing credit enhancements, and exploring 
other avenues for support.
    Fourth, promote science and technology. Madam Chair, you're 
right, there is no silver bullet. That said, science and 
technology can have a huge impact. We need to work hard to 
incentivize the development of technologies that can make a 
difference at scale, and to share U.S. experience and knowledge 
with the rest of the world.
    Finally, fifth, build and sustain partnerships. We, the 
U.S. Government--we cannot solve this problem alone. As you've 
already heard, there's a great deal of knowledge and experience 
that lies within the U.S. technical agencies, the private 
sector, the U.S.-based non-profit community. We need a whole-
of-government, a whole-of-America approach, and stronger 
partnerships with the non- governmental community.
    I'll stop here, but I'll leave you with a quote from 
Secretary Clinton. She said, ``It's not every day that you find 
an issue where effective diplomacy and development will allow 
you to save millions of lives, feed the hungry, empower women, 
advance our national security interests, protect the 
environment, and demonstrate to billions of people that the 
United States cares, cares about you and your welfare. Water is 
that issue.''
    We look forward to continuing our work with the members of 
the subcommittee, USAID, other U.S. Government agencies, and 
interested stakeholders to improve water resources management 
and to get safe water and basic sanitation to the billions of 
people who are currently without.
    Madam Chair, with your permission, I would like to submit 
my full remarks for the record, and thank you again for the 
opportunity to testify on behalf of the Department of State.
    [The prepared statement of Mr. Salzberg follows:]

  Prepared Statement of Aaron Salzberg, Special Coordinator on Water 
    Resources, Bureau of Oceans and International Environmental and 
                    Scientific, Department of State
    Chairperson Shaheen and other Members of the Water and Power 
Subcommittee, I appreciate the opportunity to appear before you today 
to discuss the global water challenge. As Secretary Clinton has noted, 
perhaps no two issues are more important to human health, economic 
growth and peace and security than basic sanitation and access to 
sustainable supplies of water.
The Challenge of Water
    Both at home and abroad, water security is becoming one of the 
great challenges of our time. Today, an estimated 884 million people 
lack access to an "improved" drinking water source. (Improved drinking 
water sources include piped water, a borehole, or a protected dug well. 
We don't know how many people lack access to ``safe'' water--drinking 
water quality is not measured globally.) More than two and a half 
billion people lack access to basic sanitation. While we are making 
some progress--particularly in increasing access to improved drinking 
water sources - over 1 billion people still defecate in the open. Each 
day, nearly 4,000 people die from diarrheal diseases which remain the 
second leading cause of death in children under five worldwide. Many of 
these deaths are preventable: increased access to safe drinking water, 
sanitation and hygiene (WASH) can reduce diarrheal disease by 30-40%. 
These interventions can also reduce or eliminate morbidity associated 
with water-related neglected tropical diseases such as Guinea worm 
disease, trachoma, and schistosomiasis.
    Women and children are disproportionately impacted by these issues. 
Women and girls often bear the primary responsibility for meeting the 
water needs of the family--they often spend hours every day collecting 
water, with the consequence of foregoing other economic and educational 
opportunities. Similarly, the burden of tending to family members 
sickened by diarrheal diseases falls primarily on women. In some areas, 
collecting water consumes up to five hours per day and involves walking 
more than two miles carrying over 40 pounds of water. Collecting water 
can often involve walking through isolated, unsafe areas that expose 
women and girls to health and safety risks. Girls are also more likely 
to stop attending school when appropriate sanitation facilities are not 
available.
    Water will have a great impact on food security. On a worldwide 
basis, more than 70% of the water used globally goes towards 
agriculture; in some developing countries, it's over 90%. As demand for 
food increases and countries shift to foodstuffs that require more 
water--such as beef--already scarce water resources will be under 
greater pressure. To expand food production we will need to improve the 
productivity of water (our ability to get more ``crop per drop'') and 
work to ensure reliable access. This means expanding irrigated 
agriculture, using new technologies to reduce the water used in certain 
applications such as drip irrigation and drought-tolerant crop 
varieties. It means using natural and man-made systems to store and 
manage supplies. We will also have to take steps to protect our 
freshwater and coastal ecosystems. Fish are a significant source of 
protein for more than two and a half billion people in developing 
countries. Overfishing, pollution and poor management have led to a 
decline in many freshwater fish species and will undermine food 
security. Finally, children who suffer from chronic diarrhea have 
difficulties absorbing the nutrients they need and are therefore more 
likely to be malnourished.
    Water will also play a key role in achieving energy security. Water 
needs to be brought to its point-of-use, and it is heavy. The pumping 
and transport of water can, in many cases, be one of the leading 
consumers of energy. Conversely, water can be a source of clean, 
renewable, energy. Dams can play a key role in meeting future energy 
needs and along with natural infrastructure can be critical to managing 
and mitigating the impacts of floods and droughts. But dams can also 
have an impact on people and the environment. Stakeholder involvement 
and sound management will be essential to ensuring the interests of 
people and the environments are protected. We also need to be sensitive 
to the impacts of new energy development on existing water resources.
    Water is becoming an increasing threat to peace and security. 
Within countries, water availability and access to basic drinking water 
and sanitation services may be a source of local conflict and a 
contributing factor to state fragility or failure. Among countries that 
share water, tensions are likely to rise as demands grow. Today, over 
40% of the world's population lives in river basins shared by two or 
more countries. Disagreements are inevitable. The key is to keep these 
disagreements from escalating into violent conflict. At the same time, 
water can be unifying. Water can provide a platform for building trust 
and cooperation between countries. Water user groups, and increased 
transparency and accountability between the people and service 
providers, can both increase access and advance democratic values. 
While history is not necessarily a good predictor of our future, it is 
true that water is more often a source of cooperation than it is of 
conflict.
    Climate change will exacerbate many of these challenges. In many 
regions, wet regions may get wetter; dry regions may get drier; 
glaciers will recede; and sea levels will rise. Greater variability in 
rainfall will increase the likelihood of floods and droughts in some 
regions. Rising sea levels, storm surges, flood damage, and saltwater 
intrusion will threaten freshwater supplies in many areas. Extreme 
weather (floods and droughts) is likely to increase in certain places - 
threatening both people and economies. Greater water run-off from more 
frequent and more intense precipitation events is likely to carry more 
pollutants into water systems. All these will put greater pressure on 
our ability to manage water holistically across a broad range of 
competing needs.
    In sum, by 2025, experts predict that nearly two-thirds of the 
world's population will be living under water stressed conditions, 
including roughly a billion people that will face absolute water 
scarcity (a level that threatens economic development as well as human 
health). Water scarcity and poor water quality will increase disease, 
undermine economic growth, limit food production, and become an 
increasing threat to peace and security.
    There is hope. Some regions are truly water scarce. In those cases, 
countries will have to work hard to reduce demand and better manage 
supplies through proper pricing, improved water storage, conservation, 
and water reuse. But in most places, there is enough water to meet 
demands. What is lacking is a commitment to sound water resources 
management and to meeting the basic water and sanitation needs of the 
people.
The U.S. Approach
    The goal of U.S. efforts on water internationally is to help 
countries achieve water security. This means that people have reliable 
and sustainable access to the water they need, when they need it, where 
they need it, while reducing the risks from extreme hydrological 
events. To achieve this goal, the United States is working to increase 
access to safe drinking water and sanitation, improve water resources 
management, increase the productivity of water resources, and mitigate 
tensions associated with shared waters. We are also working to better 
integrate water and sanitation considerations into our efforts on food 
security, climate, and health. In other words, we cannot have food 
programs failing because the sustainability of the water resources was 
not considered; we cannot undermine children's health or education by 
failing to ensure they have safe water to drink or appropriate 
sanitation facilities; and we need to improve the management of water 
if we are going to effectively manage the projected impacts of climate 
change.
    Secretary Clinton has outlined five primary areas of action for our 
efforts on water:

  <bullet> Build and strengthen institutional and human capacity at the 
        local, national and regional levels--Countries and communities 
        must take the lead in securing their own water futures. We need 
        to help them build capacity at all levels so as to better 
        enable communities and countries to understand and respond to 
        water and sanitation challenges. This includes strengthening 
        regional cooperative mechanisms for managing shared water 
        resources.
  <bullet> Increase and better coordinate our diplomatic efforts--We 
        need to work with donor countries and international 
        organizations to raise international awareness and to address 
        critical needs; to encourage developing countries to prioritize 
        water and sanitation in national plans and budgets; and to 
        integrate water into global food security, health, and climate 
        change initiatives. We need to help countries establish a 
        precedent for early action rather than letting the issue grow 
        until it can no longer be ignored. Perhaps the greatest 
        impediment we face is the lack of political will. The fact that 
        countries themselves fail to prioritize meeting the basic water 
        and sanitation needs of their own people is a major impediment 
        to moving forward. We have seen a number of cases where, with 
        the right political leadership, a country has turned itself 
        around and made significant progress in meeting the water and 
        sanitation needs of their people.
  <bullet> Mobilize financial support--Managing water issues requires 
        resources. Even if all of the world's official development 
        assistance were directed towards water and sanitation it would 
        still not be enough to meet developing country needs. In many 
        cases, there is significant capital within developing countries 
        to fund water projects. We need to focus our support on 
        mobilizing those resources by strengthening local capital 
        markets, providing credit enhancements, and exploring other 
        avenues for support.
  <bullet> Promote science and technology--There is no technological 
        silver bullet. That said, science and technology can make a 
        huge impact. We need to work harder to incentivize innovation 
        on technologies that can make an impact in the water sector and 
        to share U.S. expertise and knowledge with the rest of the 
        world.
  <bullet> Build and sustain partnerships--We cannot solve this problem 
        on our own. There is a great deal of knowledge and experience 
        that lies within the U.S. technical agencies, the private 
        sector, and the U.S.-based non-profit community. We need a 
        whole-of-government approach and stronger partnerships with the 
        non-governmental community.

    The United States remains one of the largest bilateral donors to 
water and sanitation efforts. Together, the United States Agency for 
International Development, the Millennium Challenge Corporation and the 
U.S. Army Corps of Engineers invested over $950 million in fiscal year 
2010 (the last year for which we have complete data) for all water 
sector and sanitation-related activities in developing countries. Of 
this amount, USAID and MCC invested over $898 million in drinking 
water, sanitation and hygiene activities. As a result of USAID's 
activities, some 2.8 million people received improved access to safe 
drinking water and 2.9 million received improved access to sanitation 
in 2010. You can find additional details in our 2011 Report to Congress 
on the implementation of the Senator Paul Simon Water for the Poor Act 
(www.state.gov/g/oes/water ).
    We contribute annually to UN organizations and multilateral 
development banks through our dues and through special multi-donor 
trust funds related to water projects. More than twenty U.S. government 
agencies are engaged on international water challenges sharing their 
knowledge and expertise with developing country partners to help build 
international capacity to address the global water challenge. The 
United States also remains active in a number of transboundary water 
basins throughout the world including the Nile and Mekong river basins.
    As Secretary Clinton said, ``It's not every day you find an issue 
where effective diplomacy and development will allow you to save 
millions of lives, feed the hungry, empower women, advance our national 
security interests, protect the environment, and demonstrate to 
billions of people that the United States cares, cares about you and 
your welfare. Water is that issue.'' We look forward to continuing our 
work with Members of the Committee, USAID, other U.S. government 
agencies, and other interested stakeholders to improve water resources 
management and get safe water and basic sanitation to the billions who 
are currently without.
    Thank you again for this opportunity to testify before this 
subcommittee on behalf of the Department of State.

    Senator Shaheen. Thank you very much.
    Let me begin with you, Ms. Castle, because Senator Lee 
talked about this in his statement, about the fact that 
currently States control much of the regulation policy around 
water. I certainly know that, as a former Governor.
    But, should we do more at the national level to address 
water supply issues in this country? Do we need a national 
water policy, or do we have one, and we just don't know about 
it?
    Ms. Castle. I don't think we have one--sorry. I don't think 
we have one and don't know about it. I think that the best 
thing that we can do at the Federal level is to more fully 
integrate and coordinate--as Mr. Salzberg said, take advantage 
of all the expertise that exists in individual agencies, and to 
make sure that we're maximizing our use of resources. Because I 
do think there's a very important Federal role in providing 
leadership and providing the tools to get to water 
sustainability.
    But, I also think that, not just because the States control 
water allocation and use, but also because water issues are so 
regional and local. They're different in every watershed. The 
best solutions are those that come from the ground up. It's the 
kind of thing that the Cooperative Watershed Management Program 
was designed to facilitate. Getting people together in the 
community is developing sustainable water plans, rolling those 
up into river basins, and into State plans. I think that is the 
best mechanism that we have to create solutions that are going 
to last. Because solutions to watershed conflict have to have 
widespread support. They cannot be top down, in my opinion.
    So, the concept of Federal-level water planning, I don't 
think is one that is best designed to succeed. I think, rather, 
it should come from the ground up.
    Senator Shaheen. Thank you. You mentioned technology and 
the importance of technology. I think you all actually 
mentioned that, in some respects. But, given that we haven't 
seen any real major technological leaps in the recent past, are 
there more R&D efforts that we ought to be engaging in and 
promoting through Federal policy, to encourage those kinds of 
technological breakthroughs?
    Ms. Castle. Senator Shaheen, I think that there has been 
good progress made in advancing technology with respect to 
making new sources of water available. Desalination technology 
has advanced. A very significant problem with desalinization 
has been the energy requirements. Those have actually come down 
significantly over the past 20, 25 years. So, we're seeing some 
successes there.
    Some of the kinds of advance technologies that Reclamation 
is funding, both through its desalinization research program 
and through the WaterSMART grants, is in the category of using 
renewable energy to power desalinization processes. Wind, 
solar, even wave energy. I think that's a very significant 
avenue for additional research and development.
    I do think we have to concentrate on R&D. I think that's an 
area where Federal coordination would be really welcome, 
because there are a lot of different agencies who are putting 
effort into those kinds of projects. I also think we can learn 
from countries around the world, like Israel and Australia, who 
have made significant leaps forward in desalinization and use 
of impaired water sources.
    Senator Shaheen. In the 25 seconds that I have left, can 
you just describe one of the projects that's been funded 
through the water and energy efficiency grant program, and how 
it's been effective?
    Ms. Castle. I can. You know, we've made probably close to 
60 or 70 grants under the water and energy efficiency program. 
This past year, we had $24 million available that was spread 
over about 52 projects. Of those, 24 had energy efficiency, 
energy savings incorporated into the water conservation 
project. I can give you a specific example that's 
representative.
    In Oregon, the Three Sister's Irrigation District had a 
project to line an irrigation canal to reduce seepage and 
reduce the diversion requirement from the river. When you 
encase the irrigation canal, that gives you the opportunity to 
put hydropower generation on the conduit. That's what they did.
    So, the project included generation of hydroelectric power 
that they could then use for their own power needs, and had 
enough left over to sell power into the grid to partially pay 
for the conservation project.
    We've seen several projects like that, with the enclosure 
of formerly unlined canals, and hydroelectric power generation 
tacked onto it. It's a really good system. It's very 
sustainable and low impact environmentally.
    Senator Shaheen. Great. Thank you. Senator Bingaman.
    The Chairman. Thank you all for your testimony. I guess 
each of us approaches this problem based on where we're from 
and in our own experience. The State I represent is an arid 
State. New Mexico. In our State, I believe I'm right, that by 
far the largest use of water is agriculture. Accordingly, the 
largest opportunity for reducing water use is agriculture. It 
strikes me that all of the things you're talking about are 
useful, but we do not do enough to assist, and incentivize, and 
require that agriculture be more sensitive to water use and 
waste in this country.
    I don't know if any of you have views on that, but I don't 
know the extent to which the Department of Agriculture has 
focused on this as a priority in their work with farmers who 
are dependent upon large amounts of waters for the crops they 
grow.
    Particularly, this is an issue in my State, because the 
water that is being used by agriculture in many cases is 
groundwater, and it is being depleted. We are not going to have 
it 10, 20, 30 years from now to use. So, if any of you have 
comments on that. Ms. Castle, maybe you'd want to start, to 
give any thoughts you have on that.
    Ms. Castle. Senator Bingaman, the way in which the Bureau 
of Reclamation gets involved in agricultural efficiencies is 
primarily in the delivery systems. I mentioned to Senator 
Shaheen kinds of projects where we're facilitating the lining 
or enclosure of formerly unlined canals. We also provide 
WaterSMART grant funding for automation of delivery systems to 
avoid spills and over deliveries, and again, cutting down on 
the need for diversions.
    We do less in the area of actual consumptive use by crops. 
It's my understanding that the Department of Agriculture and 
the Natural Resource Conservation Service does quite a bit of 
work in that area, and provides information on best practices, 
with respect to drip irrigation systems, and control 
technologies that allow testing of the soil moisture, so that 
you're not over applying the irrigation water supply. I know 
less about that area, though.
    The Chairman. Mr. Salzberg, did you want to make a comment?
    Mr. Salzberg. Sure. Just quickly, Senator. You know, you're 
exactly right. This is certainly one of the most pressing 
issues that we face internationally. Many developing countries 
around the world dedicate well over 70 percent of their water 
for irrigation purposes. In fact, I was looking at one country 
this morning where over 99 percent of its water goes for 
agricultural purposes, an almost impossible figure. So, any 
gains that we can make in that sector is important to our being 
able to use water for other purposes in those countries.
    So, there's no question that our trying to focus on moving 
a country away from flood irrigation toward those technologies, 
like drip irrigation, that can minimize the water applied to 
the crops, land management practices that can help retain 
moisture, both on the field, but also in adjacent areas, that 
can hopefully offer long-term support and drought protection, 
low-water consuming crops, and crops that can grow on brackish 
water are things that we need to be thinking about.
    Of course, management and policy changes that incentivize 
sound water use. So, even the pricing of water in some cases, 
establishing water user groups that can help ensure that 
farmers understand that these things are do have a cost to 
them, and that they need to be--manage them wisely. This is a 
critically important area for us to work on.
    The Chairman. Let me ask about one other issue. In the 
West, historically, control of water and management of water 
has been a State issue, and the Federal Government has 
assisted. But, in the case where we've got rivers running 
across different States, from one State to another, the States 
have dealt with that issue by entering into compacts.
    Where we have 2 States sharing an underground aquifer, that 
hasn't happened. We've got the circumstance, which has been a 
long-term source of irritation in Eastern New Mexico, that we 
share the Ogalala Aquifer with a lot of States, but 
particularly with West Texas. They have a very, what I would 
characterize as a very irresponsible set of water laws in 
Texas, which basically allows you to pump and use as much water 
as you've got equipment for, whereas in our State, we have 
tried to limit water use make it much more orderly. But, the 
frustration, of course, on our side is that the water level in 
the aquifer continues to drop because of the excessive water 
use on the Texas side of the border. As I say, we've got 2 
straws in one aquifer that is straddling the State line.
    Is there any idea as to how the Federal Government could 
try to play a more constructive role in this? The problem is, 
there's no incentive on the part of Texas to do anything other 
than what they're doing until they run out of water, in which 
case they're going to have to move out of West Texas into other 
parts of Texas, I guess. But Ms. Castle, maybe you have some 
thoughts on how we solve this problem.
    Ms. Castle. That's a tough problem, Senator Bingaman. I 
would first say that one of the best weapons in any sort of 
groundwater dispute is good information, and that's sometimes 
lacking, in groundwater, particularly. So, I know that USGS has 
been doing some work to characterize that aquifer and to look 
at rates of depletion, and the stresses on the aquifer. I think 
that that's going to be a necessary component of any solution.
    You know, frequently, I think these interstate groundwater 
disputes get dealt with in the form of the surface water 
compacts that they're attached to. But when that doesn't exist, 
it poses a more difficult problem. But I can see ultimately 
that there would need to be a groundwater compact between New 
Mexico and Texas, with allocation and safe withdrawal rates. 
You're absolutely right, when one State has the rule of 
capture, and the other one doesn't, it doesn't create equal 
footing as a basis for negotiations.
    I do think the Federal Government's role can be to supply 
good information. I need to give some additional thought to 
what else we might be able to do.
    The Chairman. Thank you very much. Thank you.
    Senator Shaheen. Thank you. Mr. Hansen, one of the things 
that has impressed me about the efforts that have been 
undertaken by the Army, but I think by the Navy as well, and 
the military, in general, has been the effort not just to 
address water, but also energy. I wonder if you could talk 
about how you, the Army, looks at those 2 issues, and the nexus 
between the 2, and why--and thinking about how to address them, 
you decided that it needed to be a joint effort.
    Mr. Hansen. Yes, ma'am. Part of it was that we were both 
looking at the same challenges at the same time, and that was a 
marriage of convenience. But we also are connected to the joint 
bases and have connections there that drove us in that 
direction. We've also shared some personnel and personnel 
turnover, which we shared between the 2 agencies. So, that's 
further cooperation.
    But we are going for net zero energy, as well as water, as 
I mentioned. With net zero energy, meaning that we're 
attempting at an installation level to produce as much energy 
at the installation as we consume. This is over s period of a 
year. So, for instance, with solar, we may be producing more 
than we need during the day, and drawing from the grid at 
night, but--and then, certain seasons are--so that would be 
more so than others.
    But we also recognize for every energy project that there's 
a water component. So, for instance, with solar, if we're using 
PV, there is a certain amount of water, and we predict--project 
that out to about a third of year timeframe to makes sure that 
we have a sufficient amount. That's considered in our NEPA work 
as well.
    If we want to use a--a more efficient concentrated solar 
solution, for instance, it's going to require more water. So, 
that becomes more of a challenge. So that is--that could be a 
limiting factor in--in using certain types of technologies.
    So, the 2 are very interrelated, and we think that they're 
equal challenges to our sustainability for the future and 
they're--we're really joined at the hip with those 2, and 
that's why we manage them out of the same office.
    Senator Shaheen. Can you talk a little bit about how you 
are coordinating with other Federal agencies, to the extent 
that you are, and how that's working.
    Mr. Hansen. Yes, ma'am. As you know, the Department of 
Defense and Department of Energy have an MOU that we're very 
involved with the DOE labs. We currently have a senior 
executive from the Department of Energy that's helping us with 
our renewable energy initiatives, the partnership initiatives. 
We're using Pacific Northwest National Lab, for instance, to do 
our water survey audits at installations that help us map out 
what we're currently using, establishing a baseline for that.
    We've also recently established an MOU with the EPA, and 
are working closely with them in a number of areas. We are 
involved in interagency land use coordinating committee, with 
the Department of Interior and other agencies that are looking 
at withdraw lands issues and others, particularly in the West, 
where there are a number of challenges to long-term leases and 
other types of energy projects that we might want to enter into 
with the private sector.
    So, we really are trying to partner with everyone who's 
interested in the same topic. We've reached out, and a lot of 
them have reached out to us. I think that's continuing to grow.
    Senator Shaheen. Good. That's encouraging. I also--you were 
talking about some of the efforts to look at how--how much 
water individuals are using. I remember one time, when I was in 
college, we had a water shortage for a while, and so we were 
all instructed to make sure we turned off the faucets as we 
were brushing our teeth, you know, limit showers, all of those 
sort of very easy standard kinds of things. But are there 
lessons that you think you have learned, as you're looking at 
personal habits and how we change those personal habits around 
water usage? Because clearly, that's a place where we in the 
United States have not been very careful about our water use.
    Mr. Hansen. Yes, ma'am. I think changing the culture for 
water is similar to changing the culture for energy. Both are 
very definitely needed, and we're approaching that at 
installation level by metering, and by getting feedback, 
whether it's through a mock bill or an actual bill to the 
family housing areas, to make people more aware and more 
visible of what their use actually is.
    We're encouraging the use of filters for the water to 
reduce the pressure to a reasonable level, and limit the amount 
of usage. That's not an official policy yet, but we've got a 
lot of discussions on how we can change habits that have really 
lead to inefficient use of both energy and water over the 
years, and which really have to be changed.
    We find that the younger generation is very much more akin 
to this, and do some of those things more naturally than some 
of us that are the older cohorts. We're attacking that at all 
levels of our education systems, too. For instance, the West 
Point, the United States Military Academy is very involved in a 
number of these projects, and--and passing that along. We're 
sharing all of our best practices with all our installations. I 
think that while culture change is not an overnight phenomena, 
that I'm very encouraged by the amount of change I've seen just 
in the last year or so.
    Senator Shaheen. That's encouraging. Mr. Salzberg, you 
mentioned the impact, globally, of water use on women, in 
particular. It's something that I hadn't really thought about 
until I started going through the briefing for this hearing, 
and recognizing that empowering women and girls in other 
countries around the world has been very important to 
stability, to economic prosperity. Can you talk about what the 
impact of water scarcity is on women and girls, and if it's not 
addressed, what the prospects are for the future?
    Mr. Salzberg. It's a very important question, of course. 
You know, we see in some places, if you look at Sub-Saharan 
Africa, there are women that spend 6 hours a day collecting the 
water for their families. So, you can imagine that they have to 
forego other economic-generating opportunities, other things 
that they might be doing for the family and for the community.
    At the same time, the lack of safe water, and in 
particular, sanitation in schools is a reason why girls, when 
they reach a certain age, become very uncomfortable in 
attending some of these schools, and is accountable for some of 
the dropping out that we see in many schools internationally. 
So, it's important for a whole bunch of reasons.
    Women are also responsible, of course, often for taking 
care of members of the family who are sick or ill. Diarrheal 
disease being the leading illness among children would be a 
main reason for women having to stay home, and, again, not 
being able to engage in other economic opportunities. So, it 
really does affect women and girls at all levels of 
development.
    Senator Shaheen. As we're looking at the effects of climate 
change, particularly in Africa, Sub-Saharan Africa, but seeing 
some of those effects here, are there ways that we're looking 
at planning for the water effects of climate change globally? 
Is that--have there been discussions about this in Durban this 
week that you've been following?
    Mr. Salzberg. Start with the last question first. Yes, 
water is the subject that's certainly be discussed out in 
Durban. I know that there's many events on the margins of the 
major meetings, talking about these kinds of issues.
    First is collecting data. It's just trying to get an 
understanding of the resources that we have, and how they'll be 
impacted by some of these changes. Ms. Castle pointed out to a 
number of activities that we're doing domestically. The same 
exact kinds of things that we need to be doing internationally.
    We then need to translate that data into some sort of 
useable form for consumers. We need to generate information 
that will be meaningful to our consumers. That means both those 
people who can help generate some of the solutions to these 
challenges, but also those people who will be most impacted by 
these kinds of challenges. So, we have a data management issue 
there.
    Then from an action standpoint, we really do need to focus 
our work on building flexible structures. In other words, 
infrastructure that can be altered, and respond, and adapt to 
changing conditions over time. Flexible institution----
    Senator Shaheen. Like, give me an example.
    Mr. Salzberg. When we start thinking about dams, large-
scale infrastructure. How do we ensure that we can operate 
those under a wide range of different conditions. If we know 
that we have glaciers upstream that will be melting, and so, it 
will be changing the timing of seasonal flows down a particular 
river, then how do we ensure that we've got infrastructure that 
will be able to change and manage those changes over the next 
30-100 years. Because that's how long we hope that this 
infrastructure will be in service for. So, it's a large, large 
issue in many places throughout the world.
    How do we build flexible institutions, and flexible 
contractual agreements, and legal agreements? When you look 
across the world, when you have legal agreements, they're based 
on country X gets this amount of water, country Y gets this 
amount of water. If the amount of water is going to be changing 
over time, you can imagine it's going to be very difficult to 
enforce those types of agreements. So, we need to build very 
robust institutions that allow the countries to work together, 
to--on an annual, 5-year, 10- year, whatever's appropriate 
basis, to reevaluate the data, and to re-optimize the 
management of shared resources for the benefit of all the 
people within the basin.
    So, the key really is going to be building in flexibility 
into many of the institutions and arrangements that we have.
    Senator Shaheen. Thank you. I feel like this is a 
conversation that we're just beginning here at this hearing, 
but because we have another panel to present, I'm going to 
thank the 3 of you very much for your testimony. We will have 
some questions, I think, submitted for the record, which we may 
ask you to respond to. Hopefully, from this hearing, we will 
generate some additional actions and continue this 
conversation. So, thank you all very much. I'm going to ask the 
second panel if they would come forward.
    While they're doing that, I will just point out that the 
Senate is out for the weekend, so some of the Senators who 
might have come today have--obviously are getting on earlier 
flights. But I view this as just more time for me to ask 
questions. So again, I want to thank each of our panelists for 
joining us this afternoon. I will introduce you briefly. We 
will then begin.
    Dr. Peter Gleick is President of the Pacific Institute, in 
Oakland, California. Thank you for joining us. Mr. Thomas 
Stanley is the Chief Technology Officer for General Electric. 
Tony Willardson is the Executive Director of the Western States 
Water Council. Melissa Meeker is the Executive Director of 
South Florida Water Management District, in West Palm Beach. 
Harry Stewart is the Director of the New Hampshire Department 
of Environmental Services, Water Division. So again, thank you 
all very much for being here. Dr. Gleick, I'm going to start 
with you.

  STATEMENT OF PETER H. GLEICK, PRESIDENT, PACIFIC INSTITUTE, 
                          OAKLAND, CA

    Mr. Gleick. Madam Chairwoman, thank you very much for the 
opportunity to come and speak to the committee and the 
subcommittee about opportunities and threats on national and 
global fresh water issues. My written testimony has been 
submitted for the record. It's far more detailed in both the 
issue of threats facing us and some of the solutions and 
opportunities that I'll be able to talk about today. But it's 
there for the record.
    Theodore Roosevelt said a hundred years ago, quote, The 
Nation behaves well if it treats the natural resources as 
assets, which it turns over to the next generation increased 
and not impaired in value, end of quote. I would just start by 
noting that we're failing to do that for water. We are not 
turning over our water resources in a better condition than we 
found them.
    There are a wide range of global and national water 
challenges, as you've heard already partly from the previous 
panel. I would say they fall into 2 basic categories. The first 
is challenges over water availability and use. The second is 
challenges over the quality of water resources. I might add a 
third that is, perhaps, challenges with the way we manage 
water, and with the institutions that we create to deal with 
water.
    My written testimony addresses a wide range of challenges. 
I'll just mention a few of them. Some have already been touched 
on. Our water quality is threatened with new contaminants, with 
old contaminants that we failed to remove. We are failing to 
invest adequately in maintaining and upgrading our water 
infrastructure, precisely at a time when governments are 
cutting back on all sorts of expenditures.
    Water disputes are growing over the allocation and use of 
water. Senator Lee made the comment at the beginning that 
States typically have the responsibility for allocating water. 
That's not entirely correct, of course. In fact, Utah and 
Nevada have a challenge over groundwater resources, as Senator 
Bingaman noted, that has not adequately addressed, and may not 
be adequately addressed at the State level. Often when States 
have a challenge that they can't resolve among themselves, they 
require the Federal Government to step in.
    The health of natural ecosystems is degrading. The natural 
ecosystems that use the same water that humans use. Water and 
energy links are very strong. They're typically ignored in 
policy. We don't think about the water required to produce 
energy. We don't think about the energy required to produce 
water. The whole issue of fracking these days is an example of 
a desire to solve an energy problem without, perhaps, 
adequately thinking about some of the water-related challenges. 
They're food and water links. We grow a tremendous amount of 
food for the United States and for the rest of the world, and 
yet, we don't manage that agriculture water use particularly 
well.
    Finally, on the challenges side, Federal coordination over 
water is lacking. There are very important serious Federal 
responsibilities for water. They're not well coordinated. 
They're not well managed. It's a difficult challenge, but it 
needs to be improved. So, it's time for what I would describe 
as a 21st century U.S. water policy, and there are a series of 
recommendations in my written testimony. I'd just like to touch 
on a couple of them.
    First of all, we need to better coordinate among the 
Federal agencies that have different responsibilities for 
water, and energy, and agriculture, and water quality, and all 
of the different water-related issues. We might consider a 
national water commission. We haven't had one that's reported 
to the President and the Congress since the early 1970's. We 
might reinstate basin water commissions that have been very 
effective at managing water resources.
    Second, the Nation lacks and must develop an adequate 
understanding of water supply use and flows. It's sort of 
remarkable, but we do not have adequate data on the way we use 
water, on the water that's available, on the variability of 
that water resources. Ms. Castle talked about the USGS's 
responsibility in this area, but it needs to be widely 
expanded. The Secure Water Act, Public Law 111-11, recommended 
a national census for water. It's not been adequately funded.
    We need better strategies for pricing water and for 
marketing water. There's a serious Federal responsibility for 
the way much of the western water is priced and allocated. 
We've subsidized water extensively. There were good reasons for 
doing that, but not all subsidies that we put in place a 
century ago, or 50 years ago, or 30 years ago still make sense.
    Water policies and infrastructure need to be designed for 
climate change. Climate change is a real problem. It's already 
happening. We see clear evidence of it, and some of the most 
significant impacts of climate change will be on our water 
resources, because the hydrologic cycle is the climate cycle.
    There are some other recommendations in my written 
testimony. I just want to point out one figure from that 
testimony. It's figure 3, if you have it available. We, at the 
Pacific Institute, put out a report on energy and water in the 
intermountain West a few weeks ago. One of the conclusions of 
that report was a tremendous amount of water currently used to 
produce energy in the United States could be saved if we moved 
to a combination of renewable energy systems and smart advanced 
cooling systems on existing technology. We could reduce the 
amount of water required for cooling very substantially with 
modern technology in the energy area.
    Then finally, I'd like to note there is some good news. The 
United States uses less water today for everything than we used 
30 years ago. Figure 4 in that--in my written testimony shows 
this. Our water use has leveled off. On a per capita basis, our 
water use has dropped dramatically. That's a result of changes 
in the structure of our economy, and in particular, it's a 
result of tremendous improvements in the efficiency with which 
we use water. We're growing more food with the same amount of 
water. We're producing more industrial, and commercial, and 
domestic products with the same amount of water.
    It is possible to have a healthy growing economy and 
population with a significantly potentially decreased use of 
water. So, there are lots of opportunities to do better the 
things we're already doing.
    Thank you very much. I'd be happy to answer questions.
    [The prepared statement of Mr. Gleick follows:]

Prepared Statement of Peter H. Gleick\1\ President, Pacific Institute, 
                              Oakland, CA
---------------------------------------------------------------------------
    \1\ Dr. Gleick is President and co-founder of the Pacific 
Institute, Oakland, California and a member of the U.S. National 
Academy of Science. His comments reflect his own opinion and the 
recommendations of the Pacific Institute, Oakland, California. (Phone: 
510-251-1600)
---------------------------------------------------------------------------
    Madame Chairman, Senators: I would like to thank the Committee for 
the opportunity to address threats and opportunities facing the 
Nation's freshwater resources and to offer specific recommendations for 
a 21st century U.S. water policy.
    The water crisis around the nation and around the world is growing, 
presenting new threats to our economy and environment, but also 
offering new opportunities for better and coordinated responses. We 
have long known that we need coordinated federal planning for water; 
but such coordination remains an elusive goal. And the nation faces new 
water challenges such as climate change, new pollutants, and decaying 
infrastructure.
    My written and oral testimony will address two broad issues:

          1. The kinds of water challenges we face at the national and 
        international levels, and
          2. The kinds of responses we need at the federal level.
Global and National Water Challenges
    There is a wide range of water challenges, but they fall into two 
basic categories: challenges over water availability and use, and 
problems associated with water quality and contamination.
Basic Human Needs for Water Services are Unmet
    Globally, the most significant and unresolved water problem is the 
failure to meet basic human needs for safe water and adequate 
sanitation for billions of people. This is the greatest development 
disaster of the 20th century and has been explicitly acknowledged by 
this body with the bipartisan passage of the Paul Simon Water for the 
Poor Act of 2005 and the Paul Simon Water for the World Act of 2009, 
which has expanded U.S. development assistance for water and 
sanitation. The failure to meet these basic needs means that millions 
of people, mostly young children, still die annually--and 
unnecessarily--from preventable water-related diseases. This problem is 
getting worse, not better. Figure 1* shows that deaths from water-
related diseases worldwide are rising, not falling.
---------------------------------------------------------------------------
    * All Figures have been retained in subcommittee files.
---------------------------------------------------------------------------
    We are not immune to this problem. Despite the fact that the U.S. 
has built one of the most sophisticated and complete municipal tap 
water system in the world, millions of people here, mostly in rural 
communities, are inadequately protected from water contamination or are 
drinking water with unacceptable levels of pollutants. For example, a 
recent assessment released by the Pacific Institute reported that 
between 2005 and 2008, 92 drinking water systems in California's San 
Joaquin Valley alone had groundwater wells with nitrate levels over the 
legal limit, potentially affecting the water quality of over 1.3 
million residents. Far too many people in small, poor, rural 
agricultural communities in California's Central Valley have no option 
but to drink contaminated water despite more than a decade of efforts 
to address this problem. Indeed, many of the nation's most pressing 
environmental justice concerns revolve around access to safe water, or 
disproportionate exposure to water pollution.
    A second global water challenge is climate change, and the 
increasingly apparent and severe impacts that climate changes will have 
on our water resources.\2\ The natural hydrological cycle of 
evaporation, condensation, precipitation, runoff, and re-evaporation is 
a fundamental component of the Earth's climate. The scientific 
community, as represented by the National Academies of Science of every 
major nation on Earth, every major professional scientific 
organization, and nearly 100% of the world's climatologists, agree that 
humans are changing the climate in fundamental ways (see Table 1). 
These climate changes are increasingly threatening water systems and 
water resources everywhere. While the scientific facts about climate 
change have so far failed to lead to an adequate political response at 
either the national or international level, the political and policy 
disputes do not change the fundamental scientific reality of the 
threats of climate change, particularly to our water resources.
---------------------------------------------------------------------------
    \2\  See, for example, the following Senate and House testimonies 
and briefings: H. S. Cooley. 2009. Testimony of Heather S. Cooley to 
the United States Congress Select Committee on Energy Independence and 
Global Warming. For the Hearing on Global Warming Effects on Extreme 
Weather. July 10, 2008. http://www.pacinst.org/publications/testimony/
cooley__extremeevents__7__10__08.pdf
    P.H. Gleick, 2010. Testimony of Dr. Peter H. Gleick for The 
Congressional Select Committee on Energy Independence & Global Warming 
Hearing, ``Not Going Away: America's Energy Security, Jobs and Climate 
Challenges.'' December 1, 2010. http://www.pacinst.org/publications/
testimony/gleick__testimony__climate__strategies.pdf
    P.H. Gleick, 2011. ``The Vulnerability of U.S. Water Resources to 
Climate Change.'' American Meteorological Society/American Association 
for the Advancement of Science (AMS/AAAS) Briefing, Capitol Hill, 
Washington DC. May 9, 2011. http://www.pacinst.org/publications/
testimony/vulnerability__to__climate__change.pdf.

    Table 1. Position Statements on Human-Induced Climate Change
The following international Scientific Academies and Professional 
Societies have published official organizational statements on the 
issue of climate change and human influence. This list is not complete, 
but indicates the comprehensive and strong nature of the scientific 
understanding about human-caused climate change.

American Academy of Pediatrics
American Association for the Advancement of Science (AAAS)
American Chemical Society
American College of Preventive Medicine
American Geophysical Union
American Institute of Biological Sciences
American Institute of Physics
American Medical Association
American Meteorological Society
American Physical Society
American Public Health Association
American Quaternary Association
American Society for Microbiology
Australian Coral Reef Society
Australian Medical Association
Australian Meteorological and Oceanographic Society
Canadian Foundation for Climate and Atmospheric Sciences
Canadian Meteorological and Oceanographic Society
Ecological Society of America
European Academy of Sciences and Arts
European Federation of Geologists
European Geosciences Union
European Physical Society
European Science Foundation
Federation of Australian Scientific and Technological Societies
Geological Society of America
Geological Society of Australia
Geological Society of London
Institute of Biology (UK)
Institute of Professional Engineers New Zealand
Institution of Engineers Australia
InterAcademy Council
International Association for Great Lakes Research
International Council of Academies of Engineering and Technological 
Sciences
International Union for Quaternary Research
International Union of Geodesy and Geophysics
National Academies of--Australia, Belgium, Brazil, Cameroon Royal 
Society of Canada, the Caribbean, China, Institut de France, Ghana, 
Leopoldina of Germany, of Indonesia, Ireland, Accademia nazionale delle 
scienze of Italy, India, Japan, Kenya, Madagascar, Malaysia, Mexico, 
Nigeria, Poland, Royal Society of New Zealand, Russian Academy of 
Sciences, Senegal, South Africa, Sudan, Royal Swedish Academy of 
Sciences, Tanzania, Turkey, Uganda, The Royal Society of the United 
Kingdom, the United States, Zambia, and Zimbabwe.
National Association of Geoscience Teachers
Network of African Science Academies (The science academies of 
Cameroon, Ghana, Kenya, Madagascar, Nigeria, Senegal, South Africa, 
Sudan, Tanzania, Uganda, Zambia, Zimbabwe, as well as the African 
Academy of Sciences)
Royal Meteorological Society (UK)
World Federation of Public Health Associations
World Meteorological Organization

    A third major global water challenge is the growing risk to 
national and international security associated with increasing 
competition and disputes about the allocation, use, and quality of 
freshwater. The U.S. intelligence community and military are 
increasingly concerned about the ways that water shortage, the control 
of internationally shared rivers, and water contamination will affect 
U.S. military and diplomatic policy and strategy. We know that water 
has played a role in political and violent conflicts in the Middle 
East, the Sudan, India, China, the Horn of Africa, and elsewhere.\3\ 
The Secretaries of State for at least the past four presidential 
administrations have publicly addressed international water issues in 
one form or another.
---------------------------------------------------------------------------
    \3\ See the Water Conflict Chronology, at www.worldwater.org, for a 
comprehensive list of water-related conflicts.
---------------------------------------------------------------------------
    Here in the United States, we also face a broad and growing set of 
freshwater challenges including growing scarcity, disputes over water 
allocation and use among neighboring states, unmitigated water 
contamination from both known and new pollutants, threats to our energy 
production, a clear and present danger associated with climate change, 
inadequate investment in critical water infrastructure and data 
collection systems, and, as mentioned above, threats to national 
security associated with water problems outside of our own borders. I 
describe each in more detail, below.
Water Quality is Threatened
    New water contaminants are finding their way into our waterways; 
and many known contaminants are not adequately removed, especially from 
``non-point sources'' such as the runoff of agricultural chemicals such 
as fertilizers and pesticides. Insufficient investment in technologies 
and infrastructure to monitor water quality and quantity, inadequate 
federal regulations and weak enforcement of existing water quality 
regulations permit unnecessary, costly, and dangerous water 
contamination to go unchecked.
    The reality is that many communities and tribes lack access to safe 
water. Lack of access to clean, safe drinking water can be caused by 
contamination in the water, by a lack of adequate drinking water and 
wastewater infrastructure, such as old or nonexistent plumbing, and by 
outdated Federal water-quality laws that no longer reflect best 
available technology or information.
Investment in Maintaining and Upgrading Water Infrastructure is 
        Inadequate
    Municipalities and communities trying to provide safe tap water and 
reliable wastewater services are faced with billions of dollars of 
infrastructure needs precisely at the same time that government funding 
for public systems is being crippled. Farmers cannot afford to upgrade 
irrigation infrastructure to reduce losses and cut waste. Insufficient 
investment in monitoring equipment, or new piping, or water 
purification technologies is leading to a deterioration of national 
water quality and availability. Other witnesses will provide detail on 
national water infrastructure needs, but these needs lie at the core of 
national strength.
Water Disputes over Allocations and Use are Growing
    Disputes over allocations of shared rivers once limited to the arid 
western states are now increasingly appearing in the southern and 
eastern U.S. Tensions between cities and farmers over water rights are 
rising. An example is the ongoing and unresolved dispute over the 
Apalachicola-Chattahoochee-Flint river systems shared by Florida, 
Alabama, and Georgia. Severe drought in Texas, worsened by rising 
global temperatures, is leading to new (or worsening existing) 
groundwater disputes and concerns about uncontrolled water withdrawals. 
The vast majority of States are now expected to have water shortages in 
coming years according to the General Accountability Office.\4\
---------------------------------------------------------------------------
    \4\ General Accountability Office. 2003. http://www.gao.gov/
new.items/d03514.pdf. ``Freshwater Supplies: States' views.'' GAO-03-
514, Washington DC.
---------------------------------------------------------------------------
Degraded Natural Ecosystems are Worsening
    Natural ecosystems such as the Everglades, the Sacramento-San 
Joaquin Delta, the coastal and inland wetlands of the Gulf States, 
delicate desert water systems, and even the fisheries of the Great 
Lakes are under growing threats. One of the original impetuses for the 
national water quality laws passed over three decades ago was the sight 
of Lake Erie dying and the Cuyahoga River burning on national 
television. Tremendous progress was made in cleaning up Lake Erie, but 
that progress is now being lost. The fisheries of Lake Erie and other 
water bodies are again threatened by the lack of federal action to 
protect national waterways from contamination.
Water and Energy Links Are Strong but Ignored
    Water use and energy use are closely linked: Energy production uses 
and pollutes water; water use requires significant amounts of energy. 
And the reality of climate change affects national policies in both 
areas. Limits to the availability of both energy and water are 
beginning to affect the other, and these limits have direct 
implications for US economic and security interests. Yet energy and 
water issues are rarely integrated in policy. Considering them together 
offers substantial economic and environmental benefits.
    As we enter the 21st century, pressures on both our national water 
and energy resources are growing. Alternative energy sources are 
raising new questions about the associated water risks. Producing 
biofuels, for examples, is water-intensive, and chemicals used to grow 
these crops threaten our nation's water quality. Hydraulic fracturing 
(fracking) of shale gas formations has the potential to greatly 
increase domestic production of natural gas, a cleaner-burning fossil 
fuel than dirty coal, and less politically costly than imported Middle 
Eastern oil. Yet fracking also has the potential to damage or destroy 
vast groundwater resources or pollute surface water, and federal 
oversight of these risks has fallen far behind industry efforts to 
expand fracking operations.
    Similarly, there are growing risks that energy and electricity 
production will be adversely affected by limited water resources. In 
just the past few years, several power plants have been temporarily 
closed or derated (i.e., had their energy production reduced) due to 
drought, lack of reliable water supply, or temperature limits on 
rivers. New power plants have been opposed because of water scarcity 
concerns. Table 2 presents some recent headlines from around the U.S. 
of these problems. The failure to link these issues will inevitably 
lead to disruptions in the supply of both water and power.

Table 2--Some recent headlines from around the nation show the links 
between water and energy.
Drought Could Force Nuke-Plant Shutdowns--The Associated Press, January 
2008
Sinking Water and Rising Tensions--EnergyBiz Insider, December 2007
Stricter Standards Apply to Coal Plant, Judge Rules; Activists Want 
Cooling Towers for Oak Creek-- Milwaukee Journal Sentinel, November 
2007
Journal-Constitution Opposes Coal-Based Plant, Citing Water Shortage--
The Atlanta Journal-Constitution, October 2007
Maryland County denies cooling water to proposed power plant--E-Water 
News Weekly, October 2007
Water woes loom as thirsty generators face climate change--Greenwire, 
September 2007
Water and Food Links
    The vast majority of water consumed in the United States (and 
worldwide) goes to grow food. As demands for water from cities, energy 
systems, and environmental restoration increase, pressure is growing on 
the nation's farmers to relinquish water that they have been using, 
often for decades. Given the limited ability to expand supplies of 
water, especially in the Great Plains and California where much of the 
nation's food is grown, this leaves only three options:

          1. Take land out of production, decreasing the amount of food 
        and fiber we produce;
          2. Change the types of crops we grow away from water-
        intensive irrigated crops to more water-efficient crops that 
        can flourish, at least partly, on rainfed lands; or
          3. Increase the productivity of agriculture by improving 
        water-use efficiency and reducing waste.

    While farmers always weigh these three options when making 
decisions, the last approach is the most attractive: it permits farmers 
in increase yields and income while maintaining or even decreasing 
total water use. But improvements in water-use productivity in 
agriculture will require new federal policies to eliminate subsidies 
for some kinds of crops, raise the price of water delivered from 
federal irrigation systems to encourage efficiency, or provide 
financial assistance to farmers to invest in shifting irrigation 
technologies to modern systems for monitoring and delivering water.
    The good news is that progress is being made in increasing water-
use productivity in agriculture, and implementation of new federal 
policies can expand on this progress. Figure 2 shows that farmers in 
California have steadily increased their production of field and seed 
crops per unit water used. Measured another way, farmers are exploring 
strategies for producing more food and money with less water. Policies 
that encourage these strategies and innovations should be supported.
Federal Coordination over Water is Lacking
    Responsibility for water is spread out over many federal agencies 
and departments, operating with little overall coordination. Over 30 
federal agencies, boards, and commissions in the United States have 
water-related programs and responsibilities. The nation's complex legal 
and institutional framework for water management has evolved over two 
centuries, and has never undergone comprehensive review and 
integration. The result is an incomplete and often inefficient approach 
to water management at the federal level that has been noted by 
numerous past commissions, advisory boards, and councils.
It is Time for a 21st Century U.S. Water Policy
    The role of the federal government in solving our water problems is 
rightly limited: Many of our water problems are local, and must be 
resolved at the local and regional level. But the responsibility to 
develop and implement appropriate national policies is not being 
adequately fulfilled by the diverse federal agencies responsible for 
them. Part of the problem is confusion over authority. Part of the 
problem is the failure of executive branch in recent years to request 
sufficient funds to protect and manage our water resources, or of the 
legislative branch to appropriate and allocate those funds. Part of the 
problem is old water legislation that has not been updated to account 
for the realities of the 21st century and for recent advances in our 
scientific and technical understanding of both water problems and 
solutions. I offer here several specific recommendations for developing 
a 21st century United States water policy, recently produced from 
research conducted over the past several years with colleagues at the 
Pacific Institute.\5\
---------------------------------------------------------------------------
    \5\ See, J. Christian-Smith and P.H. Gleick (editors), 2012, A 21st 
Century U.S. Water Policy (in press, Oxford University Press, New 
York), and J. Christian Smith, P.H. Gleick, and H. Cooley, 2011, ``U.S. 
Water Policy Reform,'' in P.H. Gleick (editor) The World's Water, 
Volume 7 (Island Press, Washington D.C.), pp. 143-155.
---------------------------------------------------------------------------
Recommendation 1--Federal water-related agencies and programs are 
        fragmented and require better coordination
    The persistent and emerging challenges of the twenty-first century 
demand an integrated and comprehensive approach to national water 
policy. One possibility is to reconstitute a National Water Commission 
to provide up-to-date advice to the executive and legislative branches. 
The United States has not had a comprehensive water commission in place 
for 30 years, since the 1968 National Water Commission reported to the 
President and Congress in 1973. Moreover, we have never had a water 
commission with the authority and responsibility to review and 
recommend policies for the role of the U.S. in addressing international 
water issues. Nor has such a commission ever addressed the new 
challenges of climate change. Such a commission could be very valuable.
    We recommend the following actions to move toward better 
integration of federal water programs:

  <bullet> Congress should re-evaluate the jurisdiction over water 
        management, funding, and protection in Congressional 
        committees. Current jurisdiction is split among different 
        committees, often with competing or contradictory objectives.
  <bullet> The Office of Science, Technology, and Policy's Committee on 
        Environment, Natural Resources, and Sustainability should 
        develop a national strategy for water protection. Such a 
        strategy would:

    --Develop a National Water Council or Roundtable on Water, similar 
            to the existing National Ocean Council and Roundtable on 
            Climate Information and Services,
    --Define how to assess existing pressures and potential threats to 
            interstate surface and groundwater, and
    --Recommend amendments, or new legislation, to bring interstate 
            groundwater basins under the EPA's regulatory authority.

  <bullet> U.S. river basin commissions should be re-instituted as a 
        more rational locus for organizing water-management 
        responsibilities and should be tasked with developing river-
        basin management plans that become a gateway for federal 
        funding. For example, grants for improved water management that 
        are now dispersed through separate agencies and programs, e.g., 
        the Farm Service Agency, the Environmental Protection Agency 
        (such as the State Revolving Loans), the U.S. Bureau of 
        Reclamation's grant program, and others, could instead include 
        scoring criteria that prioritizes projects developed through 
        the comprehensive river basin management plans.
  <bullet> A national water commission or council comprised of diverse 
        non-federal experts and including leaders of the environmental 
        justice movement should be formed to recommend policies and 
        principles for sustainable water management in the 21st 
        century. The commission's first task should be to develop 
        guidance documents for the river basin commissions in terms of 
        creating scientifically rigorous, participatory river basin 
        management plans. In addition, a national water commission 
        could make recommendations for reducing the risks of 
        international tensions over shared water resources, including 
        how to resolve concerns with Mexico and Canada over shared 
        water systems. These recommendations would be valuable in other 
        international river basins where U.S. experience, international 
        stature, and expertise can be effective.
Recommendation 2--The nation lacks, and must develop, an adequate 
        understanding of water supply, use, and flows
    In 1889, the U.S. Geological Survey (USGS) began measuring the flow 
in the nation's rivers and continues to play a leading role in data 
collection, analysis, and management. Other federal agencies, such as 
NOAA and NASA, collect data critical for protecting the nation from 
extreme weather events, including flooding and droughts. Unfortunately, 
a vast amount of water data are still not collected, and large numbers 
of existing data collection systems are being lost. In 2009 alone, 
nearly 100 long-term stream gages were discontinued due to budgetary 
constraints and Congress has failed to adequately support funding for 
some vital satellite systems, such as the Joint Polar Satellite System 
(JPSS), raising the specter of a loss of advance warning for extreme 
weather events. This represents a direct threat to health and safety of 
U.S. citizens and the economy. It is critical for Congress to provide 
consistent funding for comprehensive water data collection programs.
    We recommend full appropriation for the Secure Water Act (P.L. 111-
11) to conduct an urgently needed national water census. A national 
water census will deliver information nationwide on water availability 
and water use throughout the country, including water used for vital 
food production and thermoelectric power generation. The Act authorized 
$20 million for the national water census effort but the money has 
never been fully appropriated. This is a key priority not only for 
improving the nation's data collection but also to provide valuable 
information to states about water availability and water use.
Recommendation 3--More appropriate economic strategies can create more 
        sustainable water-use patterns
    Water pricing is often thought of as a local or state concern, and 
indeed, most financing of water systems is and should remain local. 
However, as the largest wholesaler of water in the west, federal 
agencies such as the U.S. Bureau of Reclamation also play an important 
role in setting water rates. Forty years ago, the last National Water 
Commission recommended discontinuing the subsidization of new 
irrigation projects, writing:

          Direct beneficiaries of Federal irrigation developments 
        should pay in full the costs of new projects allocated to 
        irrigation.

    Nearly four decades later, this recommendation has largely been 
ignored. The U.S. should reform pricing policies that subsidize the 
inefficient use of water and continue to cost the taxpayers money. The 
Central Valley Project Improvement Act passed by Congress in 1992, 
required the Bureau of Reclamation to institute tiered water rates to 
encourage conservation, but their current rate structure is 
ineffective. It should be reformed, and this requirement for 
conservation pricing should be extended to other federal projects in a 
way that provides incentives for improving water-use practices.
    We recommend new federal financing strategies to improve the 
administration of water-related laws. Rather than simply expanding 
federal investment, we recommend a three-pronged approach: (1) 
encourage more local investment through continued funding at or above 
current levels for state revolving funds; (2) encourage the adoption of 
marginal cost pricing by water utilities, and (3) raise fees on 
polluters to be re-invested in agencies that regulate water pollution. 
Similar economic tools are increasingly being used worldwide to 
discourage unsustainable water practices. In order to ensure that all 
people have access to water to meet their basic needs at an affordable 
price we suggest the creation of a Low Income Home Water Assistance 
Program within State Revolving Loan programs.
Recommendation 4--Water policies and infrastructure should be designed 
        to evolve with changing climatic conditions
    There is a well acknowledged need to evaluate both the implications 
of climate change for the nation's water resources and appropriate 
technologies and water management strategies for coping with 
unavoidable impacts of climate change. In 2009, the Government 
Accountability Office (GAO) reports that although many federal resource 
managers understand that climate change impacts are important to the 
resources that they manage, they have not yet incorporated climate 
change projections, mitigation, or adaptation efforts into planning.\6\ 
While there has been increased collaboration on improving data 
collection and information dissemination in regard to the impacts of 
climate change on water supply, there is still a lack of a coordinated 
national strategy.
---------------------------------------------------------------------------
    \6\ Government Accountability Office (GAO). 2009. Climate Change 
Adaptation: Strategic Federal Planning Could Help Government Officials 
Make More Informed Decisions. GAO-10-113. http://www.gao.gov/products/
GAO-10-113.
---------------------------------------------------------------------------
    The passage of the Secure Water Act (2009) calls for the 
establishment of a Climate Change and Water Intra-governmental Panel, 
which primarily focuses on downscaling climate data and conducting 
individual basin studies (beginning with the Colorado, Yakima, and the 
Milk/St. Mary River basins). This is critical in terms of enhancing our 
scientific understanding of climate change impacts, but such mitigation 
and adaptation efforts should be accelerated and expanded. The Council 
on Environmental Quality's Interagency Climate Change Adaptation Task 
Force finds that ``there still are significant gaps in the U.S. 
government's approach to climate change adaptation and building 
resilience.'' The federal government should develop national strategy 
for climate change adaptation to now-unavoidable impacts. Such a 
strategy would:

  <bullet> Define a protocol to analyze the climate resiliency of 
        federal agency actions.
  <bullet> Conduct a national inventory to identify the most promising 
        opportunities to modify federal dam operations in the United 
        States in light of climate change.
  <bullet> Require agencies to integrate energy and water efficiency 
        efforts (also addressed below).
  <bullet> Identify priority areas for coordinated government response.
Recommendation 5--Existing Federal water laws should be updated and 
        adequately enforced
    Congress must modernize the antiquated Clean Water Act and Safe 
Drinking Water Act--two foundational pieces of federal legislation 
passed originally with bipartisan support, and immensely popular with 
the American people.
    Once modernized, federal regulations must be enforced. There is an 
overwhelming assumption that safe, affordable water for drinking and 
household use is available to all residents in the US. This is false. 
Violations of our nation's water laws have become routine--a recent 
survey of national water quality data found that more than 50% of 
regulated facilities violated the Clean Water Act, but enforcement 
actions against polluters were infrequent.\7\ Clear and immediate 
action is needed to expand enforcement efforts against violations of 
established water law.
---------------------------------------------------------------------------
    \7\ K. Russell and C. Duhigg. 2009. ``Clean Water Act Violations: 
The Enforcement Record.'' The New York Times, September 13, 2009.
---------------------------------------------------------------------------
    We recommend the following changes to the Clean Water Act and the 
Safe Drinking Water Act to improve the protection of public health:

  <bullet> Tighten controls on point sources to better reflect the 
        Clean Water Act's goal of zero discharge of pollutants.
  <bullet> Update technology standards to reflect current best 
        available technologies and encourage innovation.
  <bullet> Create stricter penalties for violating NPDES permits, 
        levying fines that are sufficiently large to make polluting no 
        longer a viable cost of doing business and by rescinding or 
        denying renewal of permits of repeat violators.  Update the 
        Safe Drinking Water Act's standard-setting regulations to make 
        them more protective of human health. Despite continued 
        emergence of new contaminants in drinking water, regulations 
        have barely changed and have not incorporated the risks of 
        synergistic impacts. Standards should be updated to include the 
        additive effects of common mixtures of chemicals.
  <bullet> Bring bottled water quality standards and enforcement under 
        the authority of the EPA rather than the FDA and make the 
        standards consistent with tap water standards.
  <bullet> Integrate implementation and enforcement of the Clean Water 
        Act and Safe Drinking Water Act to make most efficient use of 
        resources.
  <bullet> Expanding the authority and administration of the Clean 
        Water Act to regulate non-point source pollution and 
        groundwater quality.
  <bullet> Restoring the traditionally broad scope of the Clean Water 
        Act to bring water bodies such as ephemeral streams and 
        wetlands with no ``nexus'' to a navigable water body back under 
        its jurisdiction.
  <bullet> Integrating equality of access to safe drinking water into 
        the Safe Drinking Water Act's mandate.

    In addition, many of the nation's waterworks and regulations were 
created before we fully understood the extent and value of the 
ecological services provided by intact river systems. New legislation 
is needed to ensure that these benefits (and the water required to 
sustain them) be given equal consideration with other project purposes, 
similar to the 1986 amendments to the Federal Power Act that gave 
habitat conservation goals ``equal consideration'' with power and 
development interests.
Recommendation 6--Twenty-first century water management must encompass 
        decentralized solutions such as water demand management, 
        stormwater capture, recycled water, greywater, and other 
        nontraditional approaches
    There are several other key actions Congress can take to ensure 
that national water policy is far more comprehensive, modern, 
effective, and efficient.

  <bullet> Increase efforts to promote the use of water-efficient 
        technologies and practices through updated federal standards 
        for appliances and fixtures, along with expanded education and 
        technical assistance. Federal water-efficiency standards were 
        created by the EPA over two decades ago; these standards should 
        be more frequently updated to reflect advances in technology.
  <bullet> Technical assistance programs to landowners, such as the 
        Farm Service Agency should be specifically targeted at 
        accelerating the adoption of water conservation and efficiency 
        practices in priority agricultural areas.
  <bullet> Federal agencies should support community-based 
        organizations that play a central role in ensuring the 
        involvement of affected residents by increasing programs to 
        technical assistance providers working on critical water 
        issues, such as EPA's program to support small water systems 
        and the NRCS' Watershed Protection and Flood Prevention 
        Program.
  <bullet> Target federal spending through State Revolving Loans and 
        other programs on demand management and infrastructure that 
        increases the productive use of water.
Recommendation 7--Federal water policies must be integrated with other 
        policies, including energy, agriculture, and climate change
    As noted earlier, there are strong links between the water sector 
and other sectors, including energy and food production. The water 
sector is a major energy consumer and future trends suggest that this 
demand could grow due to more energy-intensive water supplies and 
treatment technologies, e.g. desalination.
    Conversely, smart national policies can help address both water and 
energy challenges. For example, as shown in Figure 3, strategies that 
promote renewable energy and alternative cooling systems in the western 
United States can, over the next two decades, reduce water withdrawals 
for energy production by far more than 50%--a tremendous improvement in 
water efficiency. In particular, the Pacific Institute research 
recommends that federal water policy:

  <bullet> Phase out irrigation, energy, and crop subsidies that 
        promote wasteful use of water and energy.
  <bullet> Pursue new appliance standards and smart labeling of water 
        efficient appliances that save money, water, and energy.
  <bullet> Promote research and development that will help traditional 
        energy sources reduce water withdrawals and consumption.
  <bullet> Promote research and development for renewable energy 
        sources that use little to no water.
  <bullet> Use alternative water sources such as reclaimed or saline 
        water for power plant cooling.
    The National Academy of Sciences should be asked to conduct an in-
depth analysis of the impact of energy development and production on 
the water resources of the United States. The Secretary of the Interior 
and the Administrator of the Environmental Protection Agency should 
work together to identify the best available technologies to maximize 
water and energy efficiency in the production of electricity and other 
energy resources, including evaluating the energy used in water storage 
and delivery operations in major Reclamation projects.

Recommendation 8--Fully incorporate environmental justice principles 
        into federal water policy
    Many federal agencies, including EPA and Department of the 
Interior, already have the statutory ability to address the concerns 
raised by environmental justice communities in permitting, project 
review and construction, and financing activities. Through the work of 
the National Environmental Justice Advisory and other efforts of the 
Office of Environmental Justice, there are many documents providing 
guidance on how to achieve this in a variety of agencies. However, a 
renewed effort must be made to fully integrate environmental justice 
into federal water policy, which would use benchmarks of measurable 
progress towards eliminating water-related disproportionate impacts in 
low-income communities and communities of color and have a clear system 
of evaluation and accountability. Some of the key elements of such an 
effort include, but are not limited to:

  <bullet> Hiring staff explicitly charged with environmental justice 
        assessments of policies and projects and providing training for 
        other policy staff, such as permit writers;
  <bullet> Assessing disproportionate impacts in any proposed project, 
        policy, or permit, ranging from NPDES permits to Bureau of 
        Reclamation dam operations, and modify or cancel proposed 
        projects, policies, or permits if disproportionate burdens 
        cannot be reduced;
  <bullet> Ensuring water quality permits and programs, such as the 
        Underground Injection and the Total Maximum Daily Load 
        programs, are based on numeric standard that are protective of 
        the most sensitive populations.
  <bullet> Prioritizing grants for environmental justice communities 
        within existing water-related funding programs. Programs such 
        as the Clean Water State Revolving Fund, the Safe Drinking 
        Water Revolving Fund, and the USDA Rural Loan and Grant program 
        should prioritize funding and expand current program 
        specifically for low-income communities and communities of 
        color to fund critical water supply, water quality, and 
        wastewater projects.
  <bullet> Conducting an environmental justice review of federal water-
        related funding programs. Entities receiving federal funding 
        should be required to demonstrate collaboration with affected 
        communities and ongoing efforts to address disproportionate 
        impacts in order to continue receiving funding. This would 
        apply to programs to both grant and loan programs such as US 
        Department of Agriculture's Environmental Quality Incentives 
        Program, State Revolving Funds, but also Bureau of Reclamation 
        agricultural water delivery programs such as California's 
        Central Valley Project.
  <bullet> Addressing long-standing tribal water claims.
Recommendation 9--Other important federal government actions: The 
        federal government must lead by example. The federal government 
        should lead by example, establishing new rules and targets for 
        its own operations. We recommend that:

  <bullet> All federally managed buildings must meet or exceed 
        WaterSense standards for fixtures and appliances.
  <bullet> The federal government should set a target encouraging half 
        of federally managed buildings to utilize recycled water, storm 
        water, or greywater sources by 2025.
  <bullet> All federal water projects should evaluate the risks of 
        climate change and develop plans for modifying physical 
        infrastructure or operating procedures to reduce these risks.
Some Good News
    The assumption that a growing economy and growing population must, 
inevitably, demand more and more water without limit now turns out to 
be wrong. In the past several decades in the United States, quietly and 
without fanfare, the nation has been improving the productivity of 
water use, growing more food and producing more goods and services 
without increasing the demand for water.
    Figure 4 shows this remarkable change, plotting gross domestic 
product with total water withdrawals over the past century. In the late 
1970s and early 1980s, demand for water began to level off and even 
decline; on a per-person basis, the nation uses far less water today 
per person than in 1980. This is a tremendous increase in water 
``productivity'' as shown in Figure 5, which plots total economic value 
per unit water. This measure of productivity has grown tremendously in 
the past two decades, showing that limits to water availability do not 
mean economic hardship or suffering. Indeed, additional investment in 
physical infrastructure of water treatment and delivery systems has the 
potential to create hundreds of thousands of new jobs nationwide.
Conclusions
    The 21st century brings with it both persistent and new water 
challenges, including growing human populations and demands for water, 
unacceptable water quality in many areas, weak or inadequate water data 
collection and regulation, and growing threats to the timing and 
reliability of water supply from climate change. Several countries have 
reformed their water policies to better address these challenges. While 
the political and cultural contexts of these reforms have varied, water 
reforms offer the potential to meet economic demands for water with 
less water through solutions that focus on ``soft path'' water 
solutions including water conservation and efficiency, smarter water 
pricing, new technology, and more participatory water management.
    The United States has not followed suit and continues to rely on 
fragmented and outdated water policies based on a patchwork of old 
laws, competing institutions, and aging infrastructure. This testimony 
offers specific recommendations for Congress drawing on the unique 
characteristics of the United States water system together with 
insights drawn from experience around the world, in an effort to help 
identify a more effective and sustainable approach to federal water 
management.
    I congratulate you for considering this vital issue and for helping 
to raise national attention on the need to re-evaluate and re-focus 
efforts on sustainably managing the nation's precious freshwater 
resources.
    Thank you for your attention.
                   Biography for Dr. Peter H. Gleick
    Dr. Peter H. Gleick is co-founder and President of the Pacific 
Institute in Oakland, California. The Institute is one of the world's 
leading non-partisan policy research groups addressing global 
environment and development problems, especially in the area of 
freshwater resources. Dr. Gleick was described by the San Francisco 
Chronicle in 2009 as ``arguably the world's leading expert on water.'' 
His research and writing address the hydrologic impacts of climate 
change, sustainable water use, water privatization, and international 
conflicts over water resources. His work on sustainable management and 
use of water led to him being named by the BBC as a ``visionary on the 
environment'' in its Essential Guide to the 21st Century. In 2008, 
Wired Magazine called him ``one of 15 People the Next President Should 
Listen To.''
    Dr. Peter H. Gleick produced some of the first research on the 
implications of climate change for water resources. He has also played 
a leading role in highlighting the risks to national and international 
security from conflicts over shared water resources. He produced some 
of the earliest assessments of the connections between water and 
political disputes and has briefed major international policymakers 
ranging from the Vice President and Secretary of State of the United 
States to the Prime Minister of Jordan on these issues. He also has 
testified regularly for the U.S. Senate, House of Representatives, and 
state legislatures, and briefed international governments and 
policymakers.
    Dr. Gleick received a B.S. from Yale University and an M.S. and 
Ph.D. from the University of California, Berkeley. In 2003 he received 
a MacArthur Foundation Fellowship for his work on global freshwater 
issues. In 2006 he was elected to the U.S. National Academy of 
Sciences, Washington, D.C. and his public service includes work with a 
wide range of science advisory boards, editorial boards, and other 
organizations. Gleick is the author of more than 80 peer-reviewed 
papers and book chapters, and nine books, including the biennial water 
report The World's Water published by Island Press (Washington, D.C.).

    Senator Shaheen. Thank you.
    Mr. Stanley.

STATEMENT OF THOMAS STANLEY, CHIEF TECHNOLOGY OFFICER, GENERAL 
   ELECTRIC POWER AND WATER, WATER AND PROCESS TECHNOLOGIES, 
                          TREVOSE, PA

    Mr. Stanley. Senator Shaheen, it's a privilege to share 
with you today GE's thoughts on addressing domestic and global 
water supply issues.
    As the Chief Technology Officer for GE's global water 
business, it's my responsibility to effectively manage the 
about $100 million a year that GE invests in clean water 
research and development. So, I welcome this opportunity to 
outline for you GE's research and development efforts in this 
very critical area.
    So, I work for GE Power and Water, which is part of GE 
Energy. GE Energy has more than 100,000 global employees, and 
generates about $40 million in revenues annually. GE Energy 
provides integrated product and service solutions in all areas 
of energy and water--water industries, including conventional 
and renewable technologies.
    Our water business, that I have responsibility for, has 
more than 8,000 employees in 130 countries around the world. 
That includes 400 scientists and engineers located in 10 major 
technical centers, who are dedicated to developing solutions in 
collaboration with our customers to address issues associated 
with water purity and water scarcity.
    We also have access to GE's network of global research 
centers. GE research, as that is called, is one of the world's 
largest and most diversified industrial research labs. Today, 
GE research has a dedicated team and a world-class team of 
scientists and engineers partnering with my team in--in our 
business to develop the next generation of solutions, making 
water more accessible and more affordable for our customers in 
this time, as all have commented about, at a time of increasing 
water challenge. So, our business has identified several themes 
that are very important to our customers. My team has aligned 
our research activities with these important themes.
    The first is to develop the capability to treat 
increasingly impure water sources. The second is to develop the 
ability to reuse or recycle a higher percentage of treated 
water. The third is to reduce the cost and the energy 
consumption required to treat water. Last, is to develop 
solutions for our customers to meet increasingly stringent 
requirements and regulations on the discharge of--of water.
    In my written testimony, I took the time to elaborate on 3 
examples that illustrate these themes. The first of these was 
our ability to now take--or get very high recovery of usable 
water from salty or brackish rivers and streams. We are now 
evaluating this new technology with a number of beverage 
manufacturers, who are required to use these brackish water 
sources, and have to have a--and have a high premium on a high 
yield of useable water.
    The second is the treatment and recycle, at low cost, of 
the water that's produced in the conjunction with the 
production of oil.
    The third is to capture exceedingly low concentrations of 
mercury in waste water effluent from coal-fired power plants, 
allowing these plants to meet these increasingly stringent 
requirements.
    So, just a few examples, but representative examples for 
the kinds of things that my team works on on a daily basis to 
address these issues.
    There's an important role that the Federal--Federal funding 
can play in R&D to leverage the investments of key 
stakeholders, including foundations, and universities, and 
communities, as well as industry, in addressing water scarcity 
and quality issues.
    Chairman Shaheen, it's been my pleasure. I thank you for 
your time. It's been a pleasure to talk about these topics.
    [The prepared statement of Mr. Stanley follows:]

  Prepared Statement of Thomas Stanley, Chief Technology Officer, GE 
      Power and Water, Water and Process Technologies, Trevose, PA
Introduction
    Chairman Shaheen and members of the Subcommittee, it is privilege 
to share with you GE's thoughts on the opportunities and challenges to 
address domestic and global water supply issues. As the Chief 
Technology Officer for GE Power & Water, Water & Process Technologies, 
it is my responsibility to effectively manage the approximately $100 
million that GE invests in clean water research and development every 
year, and it is these complex issues that my team and I strive to 
address each and every day. I welcome this opportunity to outline for 
you GE's research and development efforts in critical areas including 
treating impure sources of water; increasing reuse/recycling of treated 
water; reducing cost and energy consumption required to treat water; 
and meeting increasingly stringent regulatory requirements for 
discharged water.
Background
    GE is a diversified global company that provides a wide array of 
products to meet the world's essential needs. From energy, water, and 
transportation to healthcare and security, we deliver advanced 
technology solutions through a broad business portfolio to promote 
cleaner, more efficient energy alternatives; provide more efficient 
aircraft engines and locomotives; increase the availability of clean, 
safe water; and improve access to quality healthcare.
    The businesses that comprise GE Energy--GE Power & Water, GE Energy 
Management and GE Oil & Gas--have more than 100,000 global employees 
and generate annual revenues of about $40 billion. GE Energy provides 
integrated product and service solutions in all areas of the energy 
industry including coal, oil, natural gas and nuclear energy; renewable 
resources such as water, wind, solar and biogas; as well as other 
alternative fuels and new grid modernization technologies to meet 21st 
century energy needs.
    GE has long recognized the connection between energy and water. In 
2008 GE integrated its water and power generation businesses to better 
meet customer needs and address significant global challenges, creating 
GE Power & Water. With a broad array of power generation and energy 
delivery technologies, GE works in all areas of the energy industry-
including gas and steam turbines; renewables such as wind and solar; 
alternative fuels, including biofuels, coal gasification and 
liquefaction; and nuclear energy. Our Power & Water team also develops 
advanced technologies to help solve the world's most complex challenges 
related to water availability and quality. Numerous products are 
qualified under ecomagination, GE's initiative to aggressively bring to 
market new technologies that will help customers meet pressing 
environmental challenges. The following chart* outlines the wide array 
of technologies encompassed by GE Power & Water.
---------------------------------------------------------------------------
    * GE Power & Water chart has been retained in subcommittee files.
---------------------------------------------------------------------------
    The roots of the GE's Water & Process Technologies business date 
back to 1925 and became a GE business in 1999, evolving from a series 
of acquisitions over the last 12 years. This business currently employs 
nearly 8,000, including 400 scientists and engineers located in 10 
major technical centers around the globe who are dedicated to 
developing solutions in collaboration with our customers, addressing 
problems associated with water purity and recovery.
    This team also has access to GE's network of Global Research 
Centers (GRC), which are located around the globe. The GE GRC is one of 
the world's largest and most diversified industrial research labs, 
creating true breakthrough technologies for GE's businesses over the 
last 100 years. Today, GE Research has a world-class team of scientists 
and engineers partnering with the technical team in our Water & Process 
Technologies business to develop the next generation of solutions, 
making water more accessible and more affordable for our customers, in 
a time of increasing water challenges.
R&D Focus
    Our business has identified several themes of importance to our 
customers, and my team has aligned its research and development 
activities with these important themes. These themes are to: 1) develop 
capability to treat increasingly impure sources of water; 2) develop 
ability to reuse or recycle a higher percentage of treated water; 3) 
reduce cost and energy consumption required to treat water; and 4) 
develop solutions for customers to meet increasingly stringent 
regulations on impurities in discharged water.
    Following are a few specific examples of new technologies we are 
developing to help customers meet these challenges.
Improved Recovery from `Brackish' Water Sources
    We are working to reduce the cost and improve the recovery of water 
extracted from relatively salty and impure rivers and lakes. These 
sources are typically referred to as `brackish' water. Today, using 
state-of-the-art technology, when pure water is produced from brackish 
sources, about 80% of the water is recovered as clean water. The 
remaining 20%, which contains all the salts and many of the impurities 
that were present in the feed water, must be discharged. GE Water and 
Process Technologies is developing a new technology that will allow 
recovery to exceed 99% in a process that will require only modest 
capital investment and will be very efficient to operate. This 
technology, called the Non-Thermal Brine Concentrator, will provide a 
much more efficient way to extract very pure water from brackish feed 
water sources. The impact of this new technology is illustrated in 
Figure 1*, below.
---------------------------------------------------------------------------
    * All figures have been retained in subcommittee files.
---------------------------------------------------------------------------
    We are validating and demonstrating this technology with several 
beverage manufacturers, all of whom use brackish water sources and 
require high water recoveries because of water scarcity and water cost 
in their regions.
Maximizing Oil Recovery and Water Recycling
    Much has been made in recent years of the energy-water nexus. One 
example of this is the use of increasing amounts of water in the 
production of oil. In many of today's producing oil fields, water or 
steam must be used to force the oil through the field so that it can be 
extracted. When oil is recovered this way, much more water than oil is 
produced--as much as 10 times more water than oil. Once out of the 
ground, the oil is separated from the water and the oil is sent to a 
refinery. The so-called `produced water' remains. It is very dirty, 
containing small amounts of oil that could not be separated, as well as 
dissolved salts and a host of other impurities. Figure 2* shows a 
sample of produced water recovered from a Canadian oil sands site which 
uses steam to extract the oil. Cleaning this water is a tremendous 
challenge.
    We are working with our customers to improve methodologies for 
treating this water so that it can be safely recycled back into the 
field to further facilitate oil recovery. We are establishing 
demonstration facilities for new de-oiling technology followed by more 
robust membrane devices that, if successful, will allow water recycling 
in equipment that will require about 20% less capital investment than 
current state-of-the-art technologies, and run with 30% less operating 
cost due to improved energy efficiency. In addition it may be possible 
to recycle more of the produced water back into the field. These are 
very significant improvements in capability and efficiency.
Managing Mercury Emissions in Water
    Here is a last example of new technologies we are developing, and 
this is another example where water is tied closely to energy 
production. Water is used to scrub the emissions from coal fired power 
plants to capture impurities. The effluent from the scrubbers goes to a 
wastewater treatment plant where it is treated before discharge. Often 
times, this wastewater contains trace quantities of mercury originally 
coming from the coal. Regulations on mercury emissions in water are 
increasingly tight, in many cases limited to less than 10 parts per 
trillion, an exceedingly low concentration. Conventional wastewater 
treatment technology cannot meet these requirements.
    We have designed specialty polymers which dissolve in the 
wastewater and selectively adsorb mercury. These polymers can be used 
in conjunction with conventional wastewater treatment methodologies to 
improve mercury removal. In addition we can use very fine filters, 
called ultra-filters, to recover tiny particulates containing mercury. 
We are working now with a number of U.S.-based power companies to 
optimize these technologies, used alone or in tandem as required for 
their operating conditions, to meet these challenging mercury emissions 
targets.
In Conclusion
    Today, I've discussed just three examples of new technologies that 
GE Water and Process Technologies is developing that illustrate how we 
help customers solve water challenges related to higher water recovery; 
increased water recycling; lower cost and more energy efficient 
processes; and adherence to regulatory requirements.
    At GE, we're working closely with our customers and global thought 
leaders to ensure that advanced technology development continues so 
that together we can overcome water quality and scarcity challenges.
    There is also an important role for Federal funding for water R&D 
to leverage the investments of key stakeholders, including foundations, 
universities, communities, and industry, in addressing water scarcity 
and quality issues.
    Chairman Shaheen and members of the Subcommittee, thank you for 
your time and the opportunity to provide our comments on these 
important issues.

    Senator Shaheen. Thank you very much, Mr. Stanley.
    Mr. Willardson.

 STATEMENT OF ANTHONY WILLARDSON, EXECUTIVE DIRECTOR, WESTERN 
                STATES WATER COUNCIL, MURRAY, UT

    Mr. Willardson. Madam Chairman, the Western States Water 
Council was created in 1965 by a resolution of the Western 
Governors, and we represent 18 States, of the reclamation 
States and the State of Alaska. Our members are appointed by 
the Governors. We're closely affiliated with the Western 
Governors Association.
    The water resources in the West are in distress, given our 
population growth, as well as changing water needs and values. 
There are an increasing number of conflicts between users and 
uses.
    States are primarily responsible for ensuring that their 
own water resources are sustainable, but Federal support is 
essential, given its Federal trust responsibilities and 
regulatory mandates. Water must be given a higher priority at 
all levels of government as an essential element of a 
sustainable economy and sound environment. Adequate supplies of 
clean water are essential to creating and maintaining jobs.
    An integrated and collaborative approach, beginning at the 
local watershed, is important to effectively conserve, protect, 
develop, and manage our water resources. We must recognize and 
respect national, regional, State, local, and tribal 
differences, their values, and support decision-making and 
problem solving at the lowest practical level.
    In 2006, the Council and Western Governors Association 
worked together, working with our Federal partners to address 
uncertainties related to growth, better define our water 
supplies, uses, and needs, improve our infrastructure, resolve 
any water rights claims, and deal with environmental demands, 
particularly related to endangered aquatic species, as well as 
climate uncertainties.
    We very much appreciate the leadership of the subcommittee 
and the committee in enactment of the Secure Water Act, in 
support of USGS stream gauging and Landsat programs, with the 
Indian water rights settlements that have been adopted, now 27. 
Also, we are working on related funding issues, and the 
committee's work on energy and water integration.
    I'd like to highlight the work of our Western Federal 
agency support team, created at a request of the Western 
Governors, and helps us in implementing the water needs and 
strategies for sustainable future reports, and which provide a 
number of recommendations.
    Eleven Federal agencies have named representatives to work 
with us on those recommendations. That includes the Army Corps 
of Engineers, the Bureau of Reclamation, and the U.S. 
Geological Survey. Together they have dedicated a Federal 
liaison, who is detailed in our offices. That person is an EPA 
employee. DOE has also expressed interest in participating.
    In addition to the support of the council on WGA 
initiatives, WestFAST helps to coordinate other water-related 
Federal efforts, and has identified the numerous Federal water 
resource studies that are going on in the Colorado river basin, 
and also has compiled a summary of Federal climate-related 
programs. We view WestFAST as a model for other Federal-State 
partnerships, and further opportunities for leveraging limited 
resources to address priority water problems.
    I'd like to highlight just a few examples of our 
collaborative efforts. One of the challenges that we face is a 
lack of adequate information related to our existing water uses 
as a region. We have outlined steps to create a water data 
exchange to compile and share water use information between 
States and Federal agencies. We're working with the Department 
of Energy to first identify uses related to energy demands. 
We're also participating with USGS and the national water 
census.
    We continue to work with the Department of Interior and the 
Native American Rights Fund to better define and settle Indian 
water rights claims, and as I said, to fund those 
implementation of the settlements that Congress has approved.
    Water in the West is moving from agricultural to other 
uses, and we're exploring innovative ways of conserving water, 
allowing water transfers, and encouraging sharing in a manner 
that avoids and mitigates negative impacts on agricultural 
communities and the environment.
    Federal water transfer policies will be an important part 
of this effort, as well as an examination of Federal regulatory 
requirements. Defined water rights and regulatory processes are 
important to encouraging appropriate opportunities to 
voluntarily move water between existing and future needs. In 
this regard, the Landsat thermal infrared imager is important 
in helping us to archive and measure consumptive water use, and 
improve water management and water rights administration. 
Requested USGS funding is essential to maintain this 
capability.
    Last, I'd mentioned with respect to the aging 
infrastructure, that it is a major concern. We're addressing 
opportunities to prioritize and refine our necessary 
improvements, and finance those, and also opportunities to 
stretch and augment existing supplies through innovative 
conservation, water reuse, desalination, and even weather 
modification strategies, as well as water banking and 
opportunities for interstate, interregional, and international 
cooperation.
    We appreciate the opportunity to testify.
    [The prepared statement of Mr. Willardson follows:]

 Prepared Statement of Anthony Willardson, Executive Director, Western 
                    States Water Council, Murray, UT
I. Introduction
    Madame Chair, and members of the Subcommittee, my name is Tony 
Willardson, and I am the Executive Director of the Western States Water 
Council (WSWC). We appreciate the opportunity to testify on the water 
resources challenges facing the West and the Nation. Thank you all for 
your leadership in addressing the serious water-related needs of the 
West and the Nation.
    Our members are appointed by the Governors of eighteen states. We 
are a non-partisan advisory body on water policy issues closely 
affiliated with the Western Governors' Association (WGA). My testimony 
is based on official reports, statements and positions taken by both 
organizations, as well as our recent and continuing efforts to define 
and refine a vision and principles for effective water management 
strategies to help ensure a prosperous and sustainable future. I will 
emphasize just a few of our interests and concerns, while attaching the 
most recent WGA policy resolution on Water Resources Management in the 
West (No. 11-7) and highlighting selected sections in my testimony.
    Water in the West (and elsewhere) is an increasingly scarce and 
precious resource, given population growth and an expanding range of 
often competing economic and ecological demands, as well as changing 
social values. Surface and ground water supplies in many areas are 
stressed, resulting in a growing number of conflicts among users and 
uses. A secure and sustainable future is increasingly uncertain given 
our climate, aging and often inadequate water infrastructure, limited 
knowledge regarding available supplies and existing and future needs 
and uses, and competing and sometimes un-defined or ill-defined water 
rights. Effectively addressing these challenges requires a 
collaborative, cooperative effort among federal, state, tribal and 
local governments and stakeholders that transcends political and 
geographic boundaries. The following principles are keys to effectively 
managing our challenges.

  <bullet> State primacy is fundamental to a sustainable water future. 
        Water planning, policy, development, protection, and management 
        must recognize, defer to, and support state laws, plans, and 
        processes. The federal government should streamline regulatory 
        burdens and support implementation of state water plans and 
        state water management strategies.
  <bullet> Given the importance of the resource to our public health, 
        economy, food security, and environment, water must be given a 
        high public policy priority at all levels.
  <bullet> An integrated and collaborative approach to water resources 
        management is critical to the environmentally sound and 
        efficient use of our water resources. States, tribes, and local 
        communities should work together to resolve water issues. A 
        grassroots approach should be utilized in identifying problems 
        and developing optimal solutions.
  <bullet> Any approach to water resource management and development 
        should accommodate sustainable economic growth, which is 
        enhanced by the protection and restoration of significant 
        aquatic ecosystems, and will promote economic and environmental 
        security and quality of life.
  <bullet> There must be cooperation among stakeholders at all levels 
        and agencies of government that recognizes and respects 
        national, regional, state, local and tribal differences in 
        values related to water resources and that supports decision-
        making at the lowest practicable level.

    In June 2006, the WGA unanimously adopted as WGA policy a report 
prepared by the WSWC entitled, ``Water Needs and Strategies for a 
Sustainable Future,'' and similarly endorsed a follow up ``Next Steps'' 
report in 2008. A 2010 ``Progress Report'' was accepted by the 
governors, and we are now preparing a 2012 WGA Water Policy Report, 
refining our vision, values and recommendations regarding opportunities 
or strategies for further addressing present and future challenges.
    The 2006 WGA report included 28 recommendations and the 2008 ``Next 
Steps'' report contained 42 recommendations for action in six different 
areas, focused on challenges related to growth and meeting future 
water-related demands, watershed planning and basic water data 
gathering, present and future water infrastructure needs, the 
resolution of Indian water rights claims, protecting aquatic endangered 
species, and climate adaptation. WGA policy resolution 11-7 on Water 
Resources Management in the West reaffirms many of the recommendations 
in the 2006 and 2008 reports.
    I want to stress that one common aspect of our water-related 
challenges and opportunities for developing successful management is 
the uncertainty surrounding our present uses and future needs. The 
importance of basic information regarding our water resources for sound 
decision-making cannot be over emphasized.
II. Water Information and Data
    ``Western Governors encourage continued investment in the Nation's 
water measurement and monitoring data networks and the development of 
information services that promote collaboration between the research 
and management communities to ensure relevant information is developed 
and shared with decision-makers. Basic information on the status, 
trends and projections of our water resources is essential to sound 
water management.'' (WGA Policy Resolution 11-7, p. 1)
    The 2006 WGA Report called for `` . . . a state-by-state and 
westwide summary of existing water uses . . . , current ground and 
surface water supplies, and anticipated water demands, .[that] should 
address both consumptive and non-consumptive uses and demands.'' The 
2008 WGA Report recommended, ``State and federal water resource 
agencies should work together to provide universal access to the water-
related data collected by all state, local and federal agencies, as 
well as tools and models that better enable the synthesis, 
visualization and evaluation of water-related data . . . '' It also 
called for `` . . . an accurate assessment of the Nation's water 
availability and water demands, with the goal of integrating the 
information into state water resources planning, recognizing that a 
truly national assessment must begin at the state and local level with 
appropriate technical and financial support from the federal 
government.''
    In September 2007, the National Science and Technology Council's 
Committee on Environment and Natural Resources, Subcommittee on Water 
Availability and Quality (SWAQ), released a report entitled: ``A 
Strategy for Federal Science and Technology to Support Water 
Availability and Quality in the United States.'' In part the report 
reads: ``In 2006, the Nation supported 300 million citizens and the 
population was growing at a rate of almost 1 percent per year. Several 
regions and major metropolitan areas are growing at double-digit rates. 
Attempts to address the science and technology needs of the water 
community will require special consideration of areas with extreme 
growth in population or water consumption. In addition, trends in water 
use in the agricultural and energy sectors are major drivers of water 
resource needs. Other primary factors that influence the future 
availability of water include climate change and variability, 
pollution, and increased conflicts over water allocation among 
different users. Abundant supplies of clean, fresh water can no longer 
be taken for granted.'' (p. 7)
    The SWAQ report continues, ``Many effective programs are underway 
to measure aspects of our water resources. However, simply stated, 
quantitative knowledge of U.S. water supply is currently inadequate 
(U.S. Government Accountability Office, 2005; National Research 
Council, 2004). The United States should measure water resources more 
strategically and efficiently. A robust process for measuring the 
quantity and quality of the Nation's water resources requires a systems 
approach. Surface water, ground water, rainfall, and snowpack all 
represent quantities of water to be assessed and managed--from the 
perspectives of quantity, quality, timing, and location. A 
comprehensive assessment of U.S. water resources should build upon 
significant monitoring programs by water management authorities, 
States, and Federal government agencies to ensure that regional and 
national water resources are measured accurately. Data and information 
about the Nation's water supply should be widely available, should 
integrate physical and social sciences, and should be relevant to 
decisionmakers, from the individual homeowner to regional water 
managers. Without an adequate assessment of water supplies on a 
watershed or aquifer basis, optimal water management cannot be 
achieved. Improved knowl-edge of the size and distribution of the water 
supply and how it changes over time will allow more efficient and 
equitable allocation of this precious resource and will minimize over-
allocation of limited supplies . . .  To manage water effectively, we 
should know our present and future demands for water in individual 
homes, businesses, farms, industries, and power plants, as well as 
water needed for sustainable ecosystems.'' (pp. 7-8)
    ``Western Governors support several federal programs that are 
particularly critical.. Western Governors are concerned about declines 
in federal spending for.programs that provide important water supply 
information and believe that such programs should be fully funded by 
Congress.'' (WGA Policy Resolution 11-7, p. 2)
    We urge Congress to continue to support the U.S. Geological Survey 
(USGS) and its National Water Availability and Use Assessment, 
authorized by the SECURE Water Act, as well the National Streamflow 
Information Program and Cooperative Water Program, all of which are 
critical to providing a sound basis for improving water management and 
decision-making. We continue to join with scores of other government 
entities and stakeholders in calling on Congress to fully fund NSIP and 
re-balance the federal CWP cost-share to a 50-50 match, in order to 
reverse the loss of long-term streamgages and restore data that is 
critical to assessing our needs related to water supplies, drought and 
floods, emergency warning and management systems, infrastructure 
design, climate, interstate water compacts, international treaties and 
tribal trust responsibilities, as well myriad other federal, state and 
local government water planning, management and decision-making 
purposes.
    We also strongly support NASA's Landsat Data Continuity Mission 
(LDCM), with its thermal infrared sensor (TIRS) and imaging capability 
(that many western states are using to monitor and manage consumptive 
water uses, particularly agricultural uses). Further, we recognize the 
need for and importance of providing sufficient appropriations for USGS 
to complete and operate the necessary ground operations systems without 
having to take funds from other USGS programs. This is a priority for 
WGA and the WSWC, and hopefully for this Congress, given the impending 
failure of Landsat 5 and the need to launch Landsat 8 as planned and 
keep LDCM on schedule, so we do not lose this important thermal data 
which more and more states rely on to measure and monitor consumptive 
uses.
    We are also very concerned about potential cuts to USDA's Snow 
Survey and Water Supply Forecasting Program, which is presently 
operating on a ``shoe string.'' Western water managers depend on this 
vital information for water supply planning and decision-making. Any 
funding cuts will likely lead to the suspension of snow course 
readings, stop conversions of snow courses to automated SNOTEL (Snow 
Telemetry) sites, and ultimately result in the loss of data due to the 
failure of equipment that has to be actively maintained. Many snow 
courses and SNOTEL sites have been operating for decades, and the 
potential loss of such long continuous records is particularly 
troubling and problematic due to the impact on modeling and 
forecasting.
    ``Western Governors support federal efforts to coordinate water 
data gathering and information programs across multiple agencies . . .  
Western Governors encourage federal agencies to partner with States in 
the gathering, coordination and effective dissemination of water-
related data . . .  Western Governors call on the federal government to 
work with Western States to develop tools and models that better enable 
the synthesis, visualization and evaluation of water-related data.'' 
(WGA Policy Resolution 11-7, p.2)
    The WGA, WSWC and our member states are working closely with a 
number of federal agencies on various efforts to further our water 
related knowledge, including but not limited to the WaterSMART 
Assessment/Census and Basin Studies, Interior's Landscape Conservation 
Cooperatives, the National Integrated Drought Information System 
(NIDIS) Upper Colorado River Basin Pilot, climate and extreme event 
workshops, and energy and water demand studies.
    Of particular note, the WGA and WSWC are working with the 
Department of Energy and National Laboratories to develop water demand 
projection and water availability models as a basis for estimating and 
evaluating water needs for electric power generation and other energy 
uses. We are also evaluating the impact of those demands on other water 
use sectors. The WSWC is providing expert advice and state generated 
data, and will be preparing information on state institutions, 
statutes, policies and processes that govern water rights and control 
the allocation and use of water in the West.
    We have also developed a project plan for a Water Use Data 
Exchange, collaborating with state and federal agencies, to make data 
available in a format that can be synthesized to support federal, state 
and local decision-making and improve water resources planning and 
management. Our initial efforts are focused on water for energy 
demands, but our intent is also to be able to better understand our 
capabilities and limitations related to estimating water use and 
prepare a foundation upon which to build better water budgets and 
demand projections through close collaboration between state and 
federal agencies.
III. Water Infrastructure
    ``Western Governors support investment in water supply and water 
quality infrastructure. Infrastructure investments are essential to our 
nation's continued economic prosperity and environmental improvements, 
and they assist state and local entities in meeting federally mandated 
standards. Infrastructure investment is particularly critical now, as 
much of the water infrastructure that has served the West for decades 
is aging and in dire need of repair.'' (WGA Policy Resolution 11-7, 
p.4)
    In November 2010, the WGA, WSWC and Texas Water Development Board 
(TWDB) sponsored a Symposium entitled, ``Western Water Resources 
Infrastructure Needs and Strategies'' in San Antonio, Texas. Patrick 
Natale, Executive Director of the American Society for Civil Engineers 
(ASCE), spoke and said: ``The estimated five-year investment need for 
all infrastructure repairs and rehabilitation is $2.2 trillion.'' The 
most recent ASCE Report Card gave the Nation's drinking and wastewater 
infrastructure a D-grade, its dams a D, and its levees and inland 
waterways a D-. Steve Stockton, Director of Civil Works, U.S. Army 
Corps of Engineers, reported, ``The present value of the capital stock 
portfolio of the USACE has declined from a peak value of $250 billion 
in 1983 to $165 billion today, with $60 billion in authorized projects 
and an annual investment of $2 billion. Roughly $100 billion is needed 
to repair levee systems, while $125 billion is required to replace the 
current navigation lock system.'' Steve Allbee, EPA Gap Analysis 
Program Director, added, ``State and local governments have spend $1.1 
trillion since the 1960s on water and wastewater infrastructure, with 
an additional $140 billion federal investment, but EPA's 2002 analysis 
identifies a current need of $540 billion.''
    Separately, estimates of the Bureau of Reclamation's 2010 backlog 
total some $6.6 billion for major rehabilitation and replacement of 
aging infrastructure ($930 million), authorized Title XVI water 
recycling and reuse projects ($600 million), authorized construction 
and operation of rural water projects ($1.2 billion), authorized 
environmental restoration programs ($2 billion), and then authorized 
and pending Indian water rights settlements ($1.9 billion). By 
comparison, Congress appropriated $951.2 million in FY 2010 for 
Reclamation's Water & Related Resources Account.
    Construction related federal Stimulus spending totaled some $135 
billion, with $22 billion for water and wastewater projects according 
to Ken Simonson, Associated General Contractors of America. Total 
construction spending is down 10% in the last five years, and private 
non-residential building is down 25%, said Perry Fowler, Texas 
Associated General Contractors.
    Of note, a report by the Texas 2000 Commission entitled, ``Texas 
Past and Future,'' concluded: ``Capital financing requirements to meet 
demands from municipal and industrial water and wastewater treatment 
during the next quarter century represent an outlay more than double 
the existing debt of the state and all of its political subdivisions.'' 
TWDB has spent $12.4 billion on water and waste-water projects, 
including $1.5 billion in 2010 alone.
    According to Stephen Fuller, George Mason University, every $1 
billion spent on water-related infrastructure produces 28,500 jobs, 
growth in personal earning of $1.1 billion, and the gross domestic 
product (GNP) grows by $3.4 billion. Infrastructure investments are an 
investment in our future.
    In the West, our population is growing and water demands have 
changed since much of our infrastructure was built. Symposium 
participants identified a need to redefine and re-evaluate our water 
infrastructure needs based on standard criteria that include risks to: 
(a) health and human safety; (b) economic growth; and (c) the 
environment. We also need to evaluate risks to our existing 
infrastructure, and improve asset management and system operations.
    There is a great need for stable or increasing funding of 
infrastructure, especially in small and rural communities, that must be 
addressed. While states recognize that they cannot depend on the 
federal government in Washington, D.C. to solve all their 
infrastructure problems, there is a legitimate continuing federal role 
related to federal landownership, tribal trust responsibilities and 
federal regulatory mandates. Federal financial incentives and technical 
assistance may also be appropriate to assist state and local 
governments, where they can't reasonably meet their own needs. There is 
a need, and there are opportunities, to improve collaboration and 
leadership at all levels of government in addressing our water-related 
infrastructure needs. Moreover, it is important to make investment 
decisions based on long-term capital budgeting efficiencies, and move 
away from ``annual incremental choices.'' Inconsistent, inadequate and 
untimely funding leads to project delays and ultimate higher costs.
    Financing is the principal challenge to meeting our present and 
future infrastructure needs, particularly given important concerns over 
the national debt and federal spending. Infrastructure can be viewed 
either as a critical investment or ``pork barrel'' spending. We must 
differentiate between ``good'' and ``bad'' debt, and between projects 
we need and projects we would like to have. We must adequately weigh 
project costs and benefits, using planning and prioritization tools to 
set clear priorities. That being said, the project with the highest 
benefit-cost ration or return on the federal investment is not 
necessarily the best project. State and local collaboration and 
appropriate cost sharing are important tools. Federal capitalization of 
State Revolving Funds for water and wastewater projects have been an 
effective and successful partnership, and have been especially critical 
to meeting the needs of small systems and small communities. Similar 
partnership mechanisms that rely on state operations and decision-
making should be considered, such as federal loan guarantees, water-
related private activity bond tax exemptions, and an infrastructure 
bank or water trust fund.
    A 1964 compilation of papers on the economics of public policy in 
water resources development observed, ``A reduction in the federal 
share of the costs of water resources projects should not be regarded 
necessarily as a desirable end in itself. Rather, requirements should 
be established to serve more specific objectives as achieving optimum 
resource development and use--and promoting desired incidence, 
distribution and stabilization policies.'' (Economics and Public Policy 
in Water Resource Development, Stephen Smith & Emery Castle editors, 
Iowa State University Press, 1964).
    A 1984 WSWC report on federal water project financing and cost 
sharing concluded: ``The present Administration seems to be proposing 
further withdrawal of federal financing participation in national water 
resource development in order to reduce federal spending. While the 
urgent need to balance the federal budget may appear to necessitate a 
decreasing federal role, reduced federal appropriations for water 
projects will do very little, if anything, to solve our economic 
problems. The size of the national debt has mainly been caused by 
direct income transfers and national defense spending.. While western 
states have previously endorsed the concept of cost sharing, they have 
not, and cannot support federal abdication of responsibility. where an 
appropriate federal interest is involved.'' The same might be said 
today. (State/Federal Financing and Western Water Resource Development, 
1984, pp. 13-14)
    Public Private Partnerships may help reduce overall public risk and 
capital investment requirements, as well as improve efficiencies and 
cost effectiveness. Governments can remove unnecessary obstacles to 
alternative infrastructure delivery methods, and provide a supportive 
statutory and political environment. We must also recognize that 
private risk capital is profit driven, and investors are intolerant of 
bureaucratic processes and litigation. Opportunities exist to minimize 
regulatory compliance costs and avoid unnecessary project delays by 
better defining reasonable and necessary protections, streamlining and 
coordinating regulations at all levels of government, and removing 
unnecessary regulatory obstacles. We need to promote both public and 
private accountability.
    In the West, Congress provided the means to finance federal water 
resources investments through the Reclamation Act of 1902. Western 
Governors continue to urge the Congress to increase appropriation from 
the Reclamation Fund for authorized purposes to match average annual 
fund receipts.
    In the end, there is no ``silver bullet.'' Resolving our 
infrastructure challenges will require real cash to service real debt. 
There has to be a revenue stream. However, despite budget pressures, 
now is a good time to invest in order to take advantage of 
opportunities related to both low material and capital costs.
IV. Indian Water Rights Settlements
    ``Western Governors support negotiated settlements of Indian land 
and water rights disputes in order to meet the nation's obligations to 
tribes while providing increased certainty for all Western water 
users.'' (WGA Policy Resolution 11-7, p. 5)
    The WGA and WSWC are long-standing advocates of Indian water rights 
settlements, and we applaud Congress for passing the Aamodt, Crow, 
Taos, and White Mountain Apache settlement agreements last December as 
part of the Claims Resolution Act of 2010. ``Western Governors urge the 
Administration to support a strong federal commitment to meaningful 
federal contributions that recognize the trust obligations of the 
United States government. Congress should also ensure that any land or 
water settlement, once authorized and approved by the President, will 
be funded and implemented in a timely manner without a corresponding 
offset to some other tribe or essential Interior program.'' Settlements 
and related infrastructure investments are bringing economic 
development, environmental protection and peace to many valleys in the 
West--yet more needs to be done. ``Negotiated settlements are flexible, 
promote sound management practices, provide a basis for partnerships 
between Indian and non-Indian communities, and save millions of dollars 
by avoiding prolonged and costly litigation.'' (WGA Policy Resolution 
11-7, p. 5)
V. Water Transfers
    ``Western Governors recognize the potential benefits of market-
based water transfers, and that the predominant water use in the West 
is agriculture, but they are concerned about maintaining the important 
cultural, economic, and environmental benefits of agricultural lands 
and food production.'' (WGA Policy Resolution 11-7, p. 5)
    With support from the Walton Family Foundation, the WGA and WSWC 
are carrying out a year-long project to identify and promote innovative 
water sharing strategies to allow temporary or permanent water 
transfers between different uses (including agriculture, urban, energy 
and environmental uses), while avoiding or mitigating damages to 
environmental values, agricultural economies and rural communities. 
Specifically, the WGA and WSWC are focusing on state-level programs, 
institutional arrangements, and administrative practices that can 
facilitate smart water sharing. The project is engaging state water 
managers and a broad stakeholder community of agricultural water users, 
municipal providers, energy/industrial developers, and the 
environmental community. Products will include a toolbox of innovative 
strategies, options for new programs or administrative practices, and 
potential policy recommendations for the Western Governors--with a 
focus on activities that can be implemented at the state level to 
address our growing and changing water needs.
    Further, Western Governors encourage adoption of strategies to make 
existing water supplies go further, including water conservation and 
reductions in per capita water use. They also support investment in 
research into promising water-saving strategies. Moreover, Western 
Governors encourage the use of alternative water supplies (of 
appropriate quality for designated uses) through water reuse and 
recycling, desalination and reclamation of brackish waters.
VI. State-Federal Collaboration: WestFAST
    ``Western Governors recognize the important role of federal 
agencies in supporting sound water resource management in the Western 
states. Governors appreciate the efforts of federal agencies to 
coordinate water-related activities with the Western states through the 
`Western States Federal Agency Support Team' (WestFAST) and recommend 
the continuation of this key state-federal partnership.'' (WGA Policy 
Resolution 11-7, p. 4)
    Lastly, on behalf of the WGA and WSWC, we would like to recognize 
and applaud the collaborative efforts of eleven federal agencies, 
including the U.S. Army Corps of Engineers, U.S. Bureau of Reclamation 
and U.S. Geological Survey, in joining us in signing a Letter of 
Cooperation to work together for the sustainable and efficient use of 
western water resources. The WestFAST partnership is a continuing 
commitment on the part of federal and state agencies--working with 
local, tribal and other public and private stakeholders--to improve the 
effectiveness of collaboration in seeking grassroots, watershed 
solutions to water issues in the West. It emphasizes proactive, 
voluntary, participatory and incentive-based approaches to water 
resource management and conservation assistance programs. Each agency 
has designated a WestFAST member to represent them, and together 
support a federal liaison officer detailed to our office. We believe 
WestFAST represents a model for other collaborative federal-state 
partnerships.
VII. Conclusion
    We appreciate the invitation to testify on these important matters 
and look forward to continuing to work with the Subcommittee, Committee 
and Congress on opportunities to address our present and future water 
supply challenges.

    Senator Shaheen. Thank you.
    Ms. Meeker.

   STATEMENT OF MELISSA L. MEEKER, EXECUTIVE DIRECTOR, SOUTH 
     FLORIDA WATER MANAGEMENT DISTRICT, WEST PALM BEACH, FL

    Ms. Meeker. Madam Chair, thank you for the opportunity to 
appear before you. My name is Melissa Meeker, and I am the 
Executive Director of the South Florida Water Management 
District. This agency is 1 of 5 regional agencies created to 
ensure a sustainable supply of water for Florida citizens, 
environment, and economy.
    In South Florida, this responsibility includes operating 1 
of the world's largest flood-controlled systems, which protects 
7.7 million people and delivers 1.4 billion gallons of water 
each day to support urban and agricultural users.
    Florida's water challenge is not necessarily a lack of 
water. Nearly two-thirds of our fresh water is supplied by vast 
underground aquifers, and Florida receives 53 inches of 
rainfall each year, making it one of the wettest States in the 
Nation.
    But we do have water challenges, which are 3-fold. First 
and foremost is storage. Florida is a flat landscape, and that 
means that we have an inability to really capture and store 
rainwater for future use. It's extremely limited. As a result, 
an average of 1.7 billion gallons are discharged daily through 
our canal systems to tide.
    Our second challenge is weather extremes. Florida is 
affected by tropical storms and hurricanes, as well as 
extensive droughts and water shortages. Just this year, the 
region emerged from a 4-year rainfall deficit. Because Florida 
is largely surrounded by saltwater, our drought conditions 
bring the risk of saltwater intrusion in our underground fresh 
water supplies.
    Our third challenge is demand and competing uses. 
Statewide, Floridians use an average of 6.7 billion gallons a 
day. The projection for the year 2030 is 8.1 billion gallons 
per day. That means in the next 20 years, another 1.4 billion 
gallons a day must be identified and developed. Planning for a 
growing population must also be imbalanced--must also be 
balanced with ensuring water is available for our natural 
systems.
    Water in the State of Florida is a public resource. So, 
strategies that expand our water supply must be in the public 
interest. We use a variety of tools to achieve this, including 
sound planning and predictable permitting programs based and 
embedded firmly in our State law, demand reductions, 
development of alternative water sources, and in South Florida, 
restoring the Everglades, which will result in more water from 
environmental, urban, and agricultural users.
    In 2004--in 2005, excuse me, the Florida legislature 
recognized the importance of developing alternative water 
supplies, and adopted the Water Protection and Sustainability 
Program. More than $550 million in State funding have helped to 
construct 327 projects, which will create an estimated 760 
million gallons a day of new water. This is more than 50 
percent of the additional water demands I previously described.
    To date, more than 60 percent of those funded programs are 
for reclaimed water. This underscores the value of wastewater 
as a critical water resource, rather than a disposal challenge, 
as historically viewed. Reclaimed water can safely be used for 
irrigation, groundwater recharge, saltwater intrusion barriers, 
environmental enhancement, and other beneficial uses.
    Florida is a leader in water reuse. The State's total reuse 
capacity has increased more than 300 percent since 1986. 
Statewide, there are more than 480 facilities collectively 
reusing 660 million gallons a day of reclaimed water. This is 
supplementing our water supplies by the billions.
    Florida's efforts go even further. Three years ago State 
lawmakers directed the elimination of ocean outfalls by 2025. 
Preventing this discharge of wastewater to the oceans will 
generate an estimated 178 million gallons of reclaimed water 
that can be used in some of our most highly populated areas in 
Southeast Florida.
    We cannot talk about water in South Florida without talking 
about environmental restoration. They're intrinsically linked. 
The largest of our efforts is a State-Federal partnership to 
restore America's Everglades. The Comprehensive Everglades 
Restoration Plan is constructing large public works, like 
storage reservoirs and treatment wetlands, to improve water 
delivery to the Everglades' inter-coastal ecosystems.
    New water resulting from construction of these projects 
will be set aside for the environment first, and then made 
available for other purposes. While restoration is underway, 
Federal agency coordination, Congressional authorizations for 
shovel-ready projects, and continued Federal and State funding 
are critical to maintaining our momentum.
    In summary, Florida's water managers are successfully using 
a variety of tools to address current and future water needs. 
But to maintain progress we must commit to financial and 
political investments that support community infrastructure 
improvements, innovative technologies, enhanced agency 
coordination, especially in the face of budgetary challenges, 
and partnerships like the Comprehensive Everglades Restoration 
Plan. The long-term benefits, particularly that of a healthy 
and sustainable economy, truly outweigh the costs.
    Chairman, thank you again for convening this hearing. I 
appreciate the invitation to share Florida's perspective, and 
we look forward to a national dialog on these issues. Thank 
you.
    [The prepared statement of Ms. Meeker follows:]

  Prepared Statement of Melissa L. Meeker, Executive Director, South 
         Florida Water Management District, West Palm Beach, FL
Introduction
    Thank you for the opportunity to provide testimony to the 
Subcommittee on Water and Power of the Senate Committee on Energy and 
Natural Resources. We appreciate Chairman Jeanne Shaheen's heightened 
focus on the critical issue of water supply challenges and 
opportunities. My name is Melissa L. Meeker, and I appear before the 
subcommittee in my capacity as Executive Director of the South Florida 
Water Management District.
    Headquartered in West Palm Beach, the South Florida Water 
Management District is one of Florida's five regional water management 
districts created to oversee and manage the state's water resources. 
Operating for the past forty years, these public agencies are charged 
with four broad mission responsibilities: flood control, water supply, 
natural systems and water quality. With general oversight and guidance 
provided by the Florida Department of Environmental Protection, the 
water management districts utilize a variety of tools and technologies 
to help ensure a reliable and sustainable supply of water for Florida's 
citizens, environment and economy, both for today and for our future.
    The South Florida Water Management District has two additional 
responsibilities unique to South Florida. The first is managing and 
operating the Central and Southern Florida Project, one of the world's 
largest public works projects. This extensive infrastructure of canals, 
levees and structures was built by the U.S. Army Corps of Engineers 
fifty years ago to provide flood control and water supply benefits to 
an estimated population of 2 million. Today that system is supporting a 
population of 7.7 million-nearly four times the number of people it was 
designed for. At the same time, operation of this complex system of 
water management structures is capable of delivering nearly 1.4 billion 
gallons per day-or 500 billion gallons annually-to support the water 
supply needs of urban areas and the agricultural industry.
    The agency's second unique responsibility is implementing the 
federal-state partnership to restore America's Everglades, the largest 
ecosystem restoration initiative in North America. The Comprehensive 
Everglades Restoration Plan is focused specifically on ``getting the 
water right''.in quantity, quality, timing and distribution. Successful 
restoration will capture, store, treat and deliver water to revitalize 
the natural system, improve wildlife habitat and recharge the 
underground aquifer to ensure a reliable and sustainable supply of 
water for the Everglades and South Florida. This effort is a critical 
component of our overall water management strategy.
Overview: Where Does Florida's Water Come From?
    Florida is a rainfall-dependent state. Average annual rainfall is 
53 inches, making it one of the wettest states in the nation. Unlike 
other parts of the country, nearly two-thirds of Florida's freshwater 
use is pumped from underground aquifers. These include the deep 
Floridan Aquifer and the shallower Biscayne Aquifer, which is highly 
dependent on rainfall for replenishment. The state's remaining fresh 
water is supplied from surface waters, including lakes and rivers, 
which are also dependent on rainfall. In South Florida, approximately 
90 percent of the water used in homes and businesses comes from 
groundwater sources, with only 10 percent from surface waters.
    At the center of South Florida sits the 730-square-mile Lake 
Okeechobee-the liquid heart of the greater Everglades ecosystem. It 
serves as both a direct source of public water supply and provides a 
supplemental source of irrigation water to more than 700,000 acres in 
agricultural production. In addition, the `big lake' serves as the 
backup water supply for more than five million residents.
    America's Everglades are a vital part of South Florida's water 
story. Dubbed the River of Grass for the sawgrass that flourished 
throughout the marsh, the Everglades is a mosaic of freshwater ponds, 
prairies and forested uplands that is home to dozens of federally 
threatened and endangered species, including the Florida panther, 
American crocodile, snail kite and wood stork. These vast, shallow 
wetlands, which once covered almost 11,000 square miles, help to 
recharge the region's underground water supplies. But because of 
efforts to drain the marshland for urban development, agriculture and 
flood control, the Everglades is today half the size it was a century 
ago.
Florida's Water Supply Challenges
    Florida's water supply challenges are three-fold: the need for 
storage, unpredictable weather extremes and a growing demand coupled 
with competing uses.
    Storage--Florida's flat landscape creates one of our most 
significant water supply challenges: lack of storage. Although rainfall 
recharges underground supplies, the ability to capture and store the 
rainwater for future use is extremely limited. When floods threaten-
which occurs even during water shortage situations-the South Florida 
Water Management District's top priority is channeling excess water 
away from homes and businesses as quickly as possible. To lower the 
levels in coastal canals and accommodate direct rainfall and stormwater 
runoff for flood protection, fresh water must oftentimes be released to 
the Atlantic Ocean or the Gulf of Mexico.
    Effective management of the Central and Southern Florida Project 
provides for the delivery of nearly 1.4 billion gallons per day to meet 
South Florida's water supply needs. But because of limited surface 
water storage and an infrastructure designed for flood control, it is 
estimated that a staggering 1.7 billion gallons of water per day, on 
average, is diverted through the extensive canal system and discharged 
to tide.
    Weather Extremes--Despite the abundance of rainfall, the state's 
climate types yield significant rainfall variability from region to 
region and from year to year. In South Florida, most of the rain falls 
during just four summer months. In addition, a significant amount of 
rainfall is lost through evapotranspiration or-because of the flat 
landscape and lack of regional storage-channeled out to tide for flood 
protection.
    Florida is also prone to prolonged droughts and water shortages. 
Just this year, the region emerged from a multi-year period of rainfall 
deficit. Lake Okeechobee reached an all-time low of 8.82 feet above sea 
level in the summer of 2007, and from October 2010 to June 2011, the 
region experienced its driest dry season since recordkeeping began 80 
years ago. In some areas, the rainfall deficit grew to more than 20 
inches, with Lake Okeechobee, a water body with an average depth of 
only 9 feet, dropping more than 3.5 feet below normal. In essence, the 
Sunshine State is a state of meteorological extremes, where extended 
dry spells and big rain days are considered the norm.
    And because Florida is largely surrounded by salt water, drought 
conditions require a constant vigil to monitor and combat the intrusion 
of heavier seawater into the state's underground freshwater supplies.
    Demands and Competing Uses--During the past half-century, Florida's 
water demands have risen exponentially-and they are projected to 
continue increasing. Statewide, Floridians used an average of 6.7 
billion gallons a day in 2010; the projection for 2030 is 8.1 billion 
gallons a day. That means that in the next 20 years, another 1.4 
billion gallons a day must be identified and planned for. Planning and 
developing water for a growing population must also be balanced with 
ensuring water is available for our natural systems.
    What makes Florida unique is its diversity of environmental 
features: beaches, rivers, lakes, bays, estuaries and wetlands, 
including the vast Everglades ecosystem. The vast interconnected 
Everglades system, which historically stretched from Orlando in the 
central part of the state down to Florida Bay, today encompasses 2.4 
million acres and is the focus of a thirty-year, multi-billion dollar 
state-federal restoration effort.
    The health of this ecosystem depends on delivering the right 
quality of water to the right places in the right amounts and at the 
right time. Successful restoration requires capturing, storing, 
treating and delivering water to revitalize the natural system. When 
complete, Everglades restoration has the very real potential to achieve 
both our environmental and economic water supply needs.
Florida's Water Supply Solutions
    To meet Florida's future demands, the state's water management 
districts are diversifying the water supply portfolio to maximize 
traditional sources, while at the same time tapping into alternative 
sources. Strategies include sound planning and permitting; demand 
reduction through water conservation; development of alternative water 
sources such as surface waters, reuse and desalinization; and in South 
Florida, restoring the Everglades, which will result in more water 
overall for environmental, urban and agricultural users.
    Planning and Permitting--Water in the State of Florida is a public 
resource. Its use, as determined by state statutes, is guided by the 
diverse programs implemented by the water management districts (Chapter 
373, Florida Statutes). The cornerstone of effective water supply 
management is sound planning and regulatory certainty.
    To address future water needs, Florida's water management districts 
work with utilities, agriculture and other stakeholders to develop 
region-specific water supply plans. These plans use a 20-year planning 
horizon to evaluate water needs and identify strategies for meeting 
future demands. Developed through a collaborative effort with local 
governments and other stakeholders, each plan includes water demand 
estimates and projections; an evaluation of existing regional water 
resources; identification of water supply-related issues and options; 
water resource and water supply development components, including 
funding strategies; and recommendations for meeting projected demands.
    In South Florida, the regional plans completed to-date have 
concluded that the use of traditional fresh water sources have been 
maximized. In 2010, urban and agricultural users in South Florida used 
an estimated 3.5 billion gallons per day of water. Over the next 20 
years, water needs in the region are projected to increase by almost 1 
billion gallons a day.
    Regulatory programs also play an important a role in water supply 
management. When applied fairly and consistently, they aid in advancing 
water use efficiency, promoting water conservation, sustaining limited 
supplies and protecting the natural environment. Permit applications 
for water use are evaluated by Florida's water management districts 
under a ``three-pronged test'': the proposed use must be reasonable-
beneficial, it must not interfere with any presently existing legal use 
of water, and it must be consistent with the public interest.
    Additional rules are in place for protecting Florida's water 
bodies, especially wetlands, from harm that could result from water 
supply over-pumping. In addition, the state's Water Reservations 
authority allow for water to be set aside in an ecosystem for the 
protection of fish and wildlife. This has become an important tool in 
Everglades restoration.
    Furthermore, in South Florida it is no longer an option for 
utilities or businesses to address future demands by requesting 
increased withdrawals from certain regions. Restricted Allocation Area 
rules prevent water users from tapping the famed River of Grass for new 
or additional supplies. ``New'' water from the Everglades is now 
restricted for environmental restoration purposes only. A similar rule 
is in effect that limits withdrawals from Lake Okeechobee to current 
levels.
    Alternative Water Supplies--Diversifying water supply sources is 
important to Florida's future and ensures communities are less 
susceptible to the effects of drought. In 2005, the Florida Legislature 
recognized this and enacted the Water Protection and Sustainability 
Program. Through funding, this precedent-setting program encourages 
cooperation between municipalities, counties, the state and the five 
water management districts to protect and develop water supplies in a 
sustainable manner. Examples of alternative water supplies that meet 
this objective include: treatment of saltwater and brackish water; 
water reuse; stormwater/surface water captured during heavy rainfalls; 
and sources made available through the addition of new storage 
capacity.
    Since 2005, more than $551 million in state funding assistance has 
been provided toward 327 projects, about 15 percent of the $3.8 billion 
estimated total construction costs. When constructed, these alternative 
water supply projects will create a combined 761 million gallons a day 
of ``new water''.more than 50 percent of the additional 1.4 billion 
gallons a day needed to meet the projected growth in demand.
    In South Florida alone, funding has been provided in support of 
local alternative water supply projects since 1997. To-date, a total of 
$204 million in grants has been directed toward 474 alternative water 
supply projects that produced 429 million gallons of water per day. 
Funded projects have included reuse, use of brackish and seawater 
sources and aquifer storage and recovery.
    The reuse of reclaimed water is a key component of the new ``water 
pie.'' To date, more than 60 percent of the alternative water supply 
projects funded are for reclaimed water. This underscores the value of 
wastewater as a critical water resource rather than a disposal 
challenge. It is no longer acceptable to use water just once and then 
dispose of it. Water reuse is an excellent opportunity to integrate 
wastewater management and water supply. Reclaimed water can safely be 
used for irrigation, groundwater recharge, saltwater intrusion 
barriers, environmental enhancement and other beneficial uses.
    Florida is today a leader in water reuse. The state's total reuse 
capacity has increased 331 percent between 1986 and 2010. Statewide 
today, there are more than 480 facilities in operation--collectively 
reusing 659 million gallons a day of reclaimed water that is estimated 
to have avoided the use of more than 121 billion gallons of potable 
quality water. This also adds more than 80 billion gallons back to 
available groundwater supplies.
    To further increase the use of treated wastewater, the Florida 
Legislature in 2008 authorized the elimination of six ocean outfalls 
remaining in the state. This legislation requires utilities currently 
using ocean outfalls as a wastewater disposal method to go to advanced 
wastewater treatment by 2018; to eliminate discharges (except for wet 
weather) by 2025; and to achieve, at a minimum, 60 percent reuse of the 
facility's actual annual flow by December 31, 2025.
    The elimination of the state's ocean outfalls--all of which are 
located within the South Florida Water Management District's 
boundaries--will generate an estimated 178 million gallons per day of 
reclaimed water for use within some of the most heavily-populated areas 
of South Florida. Water supply development projects that support the 
reuse of treated wastewater are included in regional water supply plans 
and its beneficial use is encouraged in consumptive use permits. The 
challenge we face is in retrofitting our communities to accommodate 
reclaimed water infrastructure and the public perceptions associated 
with this valuable resource.
    I recently had the opportunity to talk to a national audience about 
Florida's leadership and commitment to increasing water reuse in the 
state at the ``2011 Potable Reuse Conference'' sponsored by the 
WateReuse Association. A copy of that presentation is included here as 
part of my written testimony. See attachment*.
---------------------------------------------------------------------------
    * A copy of the presentation has been retained in subcommittee 
files.
---------------------------------------------------------------------------
    Realizing Everglades Restoration--Together with traditional water 
supply augmentation and demand management strategies, efforts are also 
under way to capture, conserve and more effectively utilize water for 
the natural system through environmental restoration.
    Today, the South Florida Water Management District and the State of 
Florida, along with the U.S. Army Corps of Engineers and other partner 
agencies, are working to undo the environmental damage inadvertently 
caused by the construction of the Central and Southern Florida Project 
and a century of drainage. The overarching goal is to capture the 1.7 
billion gallons per day of fresh water that now flows unused to the 
ocean and the gulf and redirect it to storage for natural areas that 
need it most for restoration purposes. Returning a more historic flow 
of water to the remnant River of Grass will not only revive the native 
habitat for 68 threatened and endangered species, it will also 
naturally replenish the underground aquifers that supply drinking water 
to the population.
    Authorized in the Water Resources Development Act of 2000, the 
joint state-federal Comprehensive Everglades Restoration Plan (CERP) 
partnership provides a framework to restore, protect and preserve the 
water resources of central and southern Florida, including the 
Everglades. CERP includes more than 60 elements. Any new water 
resulting from the construction of restoration projects will, first and 
foremost, be directed to environmental restoration and then will be 
made available for other purposes. Major components include surface 
water storage reservoirs; water preserve areas; management of Lake 
Okeechobee as an ecological resource; improved water deliveries to 
coastal estuaries; underground water storage; treatment wetlands; 
improved water deliveries to the Everglades; removal of barriers to the 
natural sheetflow of water; storage of water in existing quarries; 
reuse of wastewater and improved water conservation.
    Approximately 60 percent of the nearly 400,000 acres of lands 
needed to move forward with Everglades restoration are in public 
ownership. Design and/or construction of projects to increase storage, 
improve water quality and reestablish more historic flow patterns and 
hydrologic characteristics are under way. Federal agency coordination 
and authorizations of projects ready-to-go, along with continued 
federal and state funding, is crucial to maintaining restoration 
progress.
Conclusion
    Just as rainfall is linked to water supplies, the availability of 
an affordable water supply is also tied to the economy. The economic 
downturn has been painful across the country, and the combination of a 
weak economy with recent record drought conditions has made it a 
challenge for many communities and businesses. That connection 
underscores the importance of planning for and developing adequate 
water supply for economic sustainability. Adequate, affordable water is 
needed to achieve economic growth; attract new industries and provide 
cooling water for new and existing utilities; sustain agriculture; and 
to maintain a healthy environment. These--and numerous other water-
dependent businesses--all have the potential to create jobs. No one 
wants water scarcity or availability to be a limiting factor in any 
aspect of our state or nation's economic future.
    Finding and implementing workable, cost-effective solutions to 
environmental, water resource protection and water supply availability 
issues requires a concerted and collaborative approach--a combination 
of public works projects and private participation that can yield 
mutually beneficial dividends. We must employ a variety of resource 
management tools to address our challenges, and we must commit to 
financial and political investments in water conservation, water 
resource development and alternative water supplies to ensure that 
future water needs will be met-not at the expense of our natural 
systems but as a result of innovative and cooperative solutions.
    Federal support and investment in the Comprehensive Everglades 
Restoration Plan, community infrastructure improvements and new 
technologies are vital to helping local communities-and our nation-meet 
its water supply needs. The long-term benefits, particularly that of a 
healthy and sustainable economy, truly outweigh the costs. Chairman 
Shaheen, the South Florida Water Management District would like to 
thank you for convening this hearing and for stimulating thoughtful 
dialogue that can lead to collaborative and productive solutions to the 
nation's water supply challenges. We appreciate the invitation extended 
to the State of Florida to provide input and our perspective on this 
important issue.

    Senator Shaheen. Thank you very much.
    Harry. I'm not going to call you Mr. Stewart. I know you 
well enough to call you Harry.

 STATEMENT OF HARRY T. STEWART, DIRECTOR, WATER DIVISION, NEW 
  HAMPSHIRE DEPARTMENT OF ENVIRONMENTAL SERVICES, CONCORD, NH

    Mr. Stewart. The last time we met it was in a smaller room 
than this, I believe----
    Senator Shaheen. That's right.
    Mr. Stewart [continuing]. Senator. Thank you for the 
opportunity, Madam Chair, to be here and talk about water 
resource issues with you.
    To me, sustainability, in terms of public water supplies, 
is a matter for water resource itself, the infrastructure that 
conveys, stores, and treats that water. The financial resources 
have to be in place, and also the management capability. Those 
are all very important issues.
    New Hampshire, as you indicated, is the rapid--the most 
rapidly growing State in New England. In fact, the State has 
doubled in population in 50 years, and is projected to increase 
another 20 percent, or 260,000 people in the next 20 years. So, 
that certainly presents a challenge for us, in terms of our--
our water resources.
    About 36 percent of the population is supplied water at--at 
its--at residences by private individual wells. Those aren't 
really a topic, in terms of the sustainability issue probably, 
but they are an issue in New Hampshire and other States.
    For example, in New Hampshire, 20 percent of those wells, 
we know, have arsenic exceedances. They're unregulated. We have 
education outreach to those folks, but it certainly is a public 
health issue in New Hampshire and other States.
    The community public water supplies in New Hampshire, the 
721 of them, 100 or so are municipal systems. Those have been 
pretty much fixed. Then there are older systems. Some go back 
150, 160 years. It's been 10 or 15 years since I've heard of a 
piece of wooden pipe coming out of the ground, but we do have 
wooden pipe, actually, still in the ground. Those systems are--
are old. They're in pretty good shape, in terms of compliance 
with the Safe Drinking Water Act, but there are quantity 
issues, supply issues, going forward, and infrastructure, more 
broadly, infrastructure issues that need to be addressed.
    The other 600 or so our community supplies that have grown 
up like mushrooms across the State during the growth spurts 
that have occurred over the last 50 years. The older of those 
are undermanaged, underfinanced. They have trouble with 
compliance with the Safe Drinking Water Act. When they are 
upgraded, the affordability is a major issue for the community, 
particularly if it's a low-income community. So, those are a 
major concern in the broadest sustainability context.
    We know in New Hampshire that there's 1.7 billion in 
infrastructure needs for drinking water supply. We did a need 
survey this past year to--to feed information into a 
sustainability commission. That's a very substantial figure.
    Other water infrastructure needs for wastewater, municipal, 
and State-owned dams, and storm water infrastructure are 
comparable, in the $1.5 billion range, cumulatively. So, we 
have a lot of issues with regards to the infrastructure.
    Our climate change is affecting our drinking water 
supplies, and--and it is a real issue. For example, over the 
last 5 years, the Lamprey River, near where you live, Senator, 
7 of the 15 highest flows on record have occurred. The record 
is a 100 old. So, we're very clearly seeing more volatility 
with regard to our precipitation events and how they affect 
river flows.
    Going forward, New Hampshire has a number of initiatives 
that are trying to address the sustainability question. The 
Governor, this year, Governor Lynch, commissioned a commission 
to develop a water sustainability plan for the State of New 
Hampshire. This is in its early throes. But the focus is on the 
long-term and how to make sure that we're prepared for the 
future, in terms of water resource sustainability.
    We also have a commission that's working on the 
infrastructure sustainability, in the context of funding. This 
is a--a legislative commission. We hope that coming out of 2012 
they'll have--there'll be a direction, in terms of some funding 
source to--to help with the question of affordability for the--
for the community water supplies, and the wastewater plants, in 
particular.
    We also have 2 other initiatives--initiatives. Excuse me. 
Since 1998, when you were Governor, we've had a large 
groundwater withdrawal permitting program. This has evolved 
over time. It's a very transparent program. So, when 
withdrawals occur, there's 2 public hearings.
    Considerations, in terms of approvals, include the long-
term right of replenishment of the aquifer, if that's going to 
be affected. If there's effects on wetlands or surface water 
flows that could cause a violation of the Clean Water Act, the 
spread of groundwater contamination. All these factors, as well 
as impacts on other users, are considered.
    This is a very sophisticated program. It's certainly state-
of-the-art nationally. Our aquifers are different than in 
Texas. They're more localized. But it's a very effective 
program.
    We also have a--an in-stream flow protection pilot program 
going on. This is supposed to last 5 years. It's taken 10. It's 
going to end this--in 2012. To look at how to build a consensus 
on--on water use in a river basin, and balance the interests of 
diverse users, along with the environmental considerations, to 
make sure that the environment is reasonably protected, also.
    So, I think New Hampshire is moving forward. We've made 
good progress toward a sustainable water supply over the long 
term. We have a long way to go. I think it's important to note 
that Federal funding is integral to this. We need the Federal 
dollars for the--in terms of drinking water State revolving 
fund, the clean water State revolving fund, and other moneys 
for our research and planning that have been available 
historically. Some are at risk at the moment. Those are very 
important and critical to us and the other States, going 
forward.
    Thank you for this opportunity.
    [The prepared statement of Mr. Stewart follows:]

 Prepared Statement of Harry T. Stewart, Director, Water Division, New 
      Hampshire Department of Environmental Services, Concord, NH
    I am here today to present the State of New Hampshire's views on 
the challenges that we face as a northeastern state to address water 
supply issues, as well as some of our successes and opportunities to 
ensure sustainable water resources into the future. Thank you for this 
opportunity.
WATER SUPPLY CHALLENGES
    The focus of this hearing is ``water sustainability''. For public 
water supplies, sustainability means the availability of adequate water 
resources; adequate infrastructure to convey, treat and store the 
available water; adequate management capacity to manage the water 
system and the financial resources to support the operation, 
maintenance and capital investment in the water infrastructure for the 
long term. I have summarized below a number of water supply challenges 
for New Hampshire in the context of these criteria.
    Population growth--New Hampshire's population is currently just 
over 1.3 million people, over double the population that existed in 
1960. This growth has generally occurred in multi-year surges of 5 to 
10 years over the last 50 years, predominately in the southern tier of 
the state. New Hampshire is also predicted to continue to be the 
fastest growing state in New England going forward to 2030, with an 
expected population increase of between 130,000 to 260,000 people. As a 
result, since 1960, the water use has also doubled with the population 
to an estimated 100 million gallons per day and is expected to continue 
to increase and, therefore, will continue to be a challenge for the 
state. In the national context, while there are some separate 
industrial and agriculture consumptive water users, the use by public 
water supplies are predominate as compared with other states. Water 
supply for new residential development is supplied by a combination of 
municipal water supply extensions, small community water supplies and 
private residential wells. About 36% of the state's population is 
served by private residential wells and about 64% by community public 
water supplies. New Hampshire is also generally perceived to be 
relatively ``water rich'', which is partially true, but there are also 
some watersheds, especially in the southern tier near the seacoast 
where water resources are increasingly stressed due to increasing 
demands caused by population growth.
    Private residential wells--While private residential wells are not 
the primary topic of my testimony, it is worth noting that these wells, 
which serve over 400,000 individuals in New Hampshire, are a challenge 
in New Hampshire and nationally. New Hampshire has basic regulations 
that control well locations for sanitary protection and well capacity. 
However, many of these wells have been drilled into deep bedrock to tap 
into bedrock fractures through which water can flow. This deep bedrock 
contains natural contaminants. Around 20% of these wells have 
exceedances of the arsenic drinking water standard 0f 0.010 mg/l, while 
numerous others have problems with radon, other radionuclides, 
fluoride, iron, manganese and other natural contaminants. These wells 
also may contain volatile organic compounds, such as methyl tertiary 
butyl ether (MtBE) or other contaminants from gasoline or other spills 
or releases from leaks. New Hampshire has an active education and 
outreach program to address water quality in these wells.
    Community public water supplies--Groundwater and surface water are 
equally important water supply sources in New Hampshire. New Hampshire 
has a total of 721 community public water supplies regulated under the 
Safe Drinking Water Act. The water supply sources for the population 
served are

  <bullet> 38% groundwater only
  <bullet> 39% surface water only
  <bullet> 23% surface water plus groundwater

    There are also over 600 very small public water systems serving 
less than 500 people, most supplied by groundwater wells. The abundance 
of small systems poses a very significant management challenge. Most 
are under-managed and under-financed. And, the older systems typically 
have inadequate piping and storage infrastructure. In addition, since 
most of these systems are supplied by deep bedrock wells, many of these 
systems also have the water quality issues mentioned before for private 
residential wells. Compliance with the water quality and operating 
requirements of the Safe Drinking Water Act are a challenge for these 
systems in New Hampshire and nationally. In addition, the cost per user 
of compliance is higher than for larger systems making affordability 
for users, especially in low income areas, a significant issue when 
these systems are upgraded to current standards.
    New Hampshire has around 100 municipal or major private utility 
public water systems. The systems tend to be relatively small on a 
national scale, with only two serving over 50,000 people. Significant 
progress has been made over the years to achieve compliance with the 
Safe Drinking Water Act. However, delayed investment in water 
infrastructure is a significant issue and challenge going forward.
    Water supply infrastructure needs for sustainability--In 2011, to 
provide more accurate and current information to a legislative study 
commission, the Commission to Study Water Infrastructure Sustainability 
Funding (discussed further below), DES contracted for a detailed needs 
survey to identify 20-year funding needs by polling the public water 
supply systems. This resulted in identification of a the 20-year need 
of $1.7 billion ($85 million/year) in the following broad categories;

  <bullet> 51% ($878.5 million) for water delivery,
  <bullet> 39% (668.3 million) for water treatment,
  <bullet> 6% ($94.7 million) for water storage and
  <bullet> 4% ($71.5 million) for water supply source development.

    The upgrade of this infrastructure is critical to provide safe, 
potable water to New Hampshire's citizens and to the long term health 
of New Hampshire's economy. A combination of local, state and national 
funding ultimately is needed to keep these investments affordable for 
ratepayers.
    Other water infrastructure needs--The provision of water supply is 
an obvious dominant factor when considering how to achieve water 
resource sustainability in New Hampshire. Other factors include the 
identification and protection of significant lands for water supply 
source protection, management of development patterns, and the state of 
other existing water infrastructure, specifically wastewater collection 
and treatment systems, stormwater systems, and dams. These components 
of water infrastructure also have very substantial investment needs to 
provide for long term sustainability due to regulatory requirements and 
aging infrastructure. DES has estimated the following needs in these 
areas for the next 20-years:

  <bullet> Wastewater infrastructure upgrades ($1,300 million)
  <bullet> Municipal and state-owned dams ($60 million)
  <bullet> Stormwater infrastructure to meet federal permitting 
        requirements ($100 million)

    Overall watershed management and investment in all types of water 
infrastructure are keys to water supply sustainability and the economic 
health of New Hampshire. It is also important to note that, from a 
municipal perspective this is all ``one check book.'' Many 
municipalities could pay a large, and potentially unaffordable, price 
for delayed investment to address upgrade requirements across this wide 
array of municipal water infrastructure. This is also reflective of the 
undervaluation of water infrastructure and investment needs in water 
rates to support this infrastructure. ``Full cost pricing'' in the long 
term is also key to the sustainability of this suite of infrastructure.
    Climate change--The impacts of climate change on New Hampshire's 
water resources provide a significant future challenge for water 
supplies. There is strong evidence that these impacts exist right now. 
For example, over the last 5 years, consistent with predictions of 
volatility, New Hampshire has experienced 7 of the 15 highest flows of 
record in the Lamprey River on New Hampshire's Seacoast. The effects of 
climate change, including the potential reduction in snow pack from 
warming coupled with increased storm intensity and, conversely, drought 
conditions, are likely to cause diminished surface water and 
groundwater storage thus availability for drinking water supply over 
the long term.
OPPORTUNITIES AND SUCCESSES
    New Hampshire is fortunate to have a relative abundance of high 
quality water resources from a global and national perspective. This 
provides opportunity and potential advantage if our water resources are 
used and managed wisely which can be fully realized only if measures 
are implemented that include:

  <bullet> Ensuring that consumptive withdrawals are sustainable 
        through the right management techniques and regulatory 
        structures.
  <bullet> Water infrastructure investments to address identified 
        deficiencies, and then ensure sustainable investment in the 
        long term as well as compliance with federal requirements. This 
        is our greatest challenge.
  <bullet> Maximizing energy efficiency for the water supply 
        withdrawal, treatment and pumping and the pumping and treatment 
        of wastewater. We know that this area presents ``low hanging 
        fruit'' that is gradually being realized ``one system at a 
        time'' as funding allows.
  <bullet> Management of watershed lands with a focus on protection and 
        preservation of important water resources such as drinking 
        water supply aquifers and reservoirs.
  <bullet> Water conservation to preserve vital water resources and 
        also as a means to make water use more efficient. Operation and 
        investment costs less when less water is used to achieve the 
        same objectives. This is an area where New Hampshire can apply 
        lessons learned in other states where water resources are 
        already stressed.

    New Hampshire has several ongoing commissions that are evaluating 
these and other water resource issues:

  <bullet> Governor's Commission to Develop a Water Sustainability Plan 
        for the State of New Hampshire--This is an active commission 
        established by Governor Lynch to broadly evaluate the issue of 
        water sustainability.
  <bullet> Commission to Study Water Infrastructure Sustainability 
        Funding--This commission was established by the Legislature in 
        2009 and renewed in 2011 to evaluate infrastructure funding 
        needs and funding options. This is a critical concern 
        especially in light of the needs expressed above coupled with 
        the risk of federal funding reductions and recent reductions of 
        state funding for water supply and wastewater state aid grants 
        and the elimination of a state matching grant program that 
        provided incentive to purchase sensitive drinking water source 
        water protection lands.

    These commissions, in combination, are focused on developing a 
statewide consensus on how to improve our water resources management 
and funding for the long term and should help us ultimately to move 
towards the sustainability goal.
    New Hampshire also has two state-based programs that are in 
implementation to help us to better manage our water resources: a large 
groundwater withdrawal permitting program (which Senator Shaheen 
requested that I discuss) and an instream flow pilot program. 
Collectively, when fully implemented, these programs will go a long way 
towards clearly establishing a state regulatory framework for the 
management of both groundwater and surface water that balances the 
needs of all users in a sustainable manner (in conjunction with the 
federal Clean Water Act).
Large Groundwater Withdrawal Permitting Program
    This program is fully implemented. We know from discussions and 
inquiries from other states that this program is the ``state of the 
art'' for permitting large groundwater withdrawals to ensure no impacts 
to surrounding users and resources. Since 1998, all new groundwater 
withdrawals with a proposed use of at least 57,600 gallons per day 
require a permit from the New Hampshire Department of Environmental 
Services. This permitting process has been since improved by several 
statutory changes developed by a longstanding Commission to Study 
Groundwater Withdrawals, which was established by the state legislature 
principally to address concerns raised by the public about proposed 
large commercial groundwater withdrawals. The permitting process 
generally consists of an application, two public hearings (before and 
after withdrawal testing) to ensure municipal and public participation, 
development of technical information including a long term groundwater 
withdrawal test. Permitting decisions are based on consideration of a 
comprehensive list of potential ``adverse impacts'', any of which could 
be a basis for denial:

  <bullet> Reduction of the withdrawal capacity of other water users or 
        surface water levels or flows that cause a violation of surface 
        water quality standards;
  <bullet> A net loss of values for wetlands;
  <bullet> Causing a permitted surface water or groundwater discharges 
        to fail to meet permit conditions;
  <bullet> Causing the spread of existing groundwater contamination, or
  <bullet> Causing the long-term rate of replenishment of the aquifer 
        to be exceeded. Conservation plans are required for all new 
        permitted withdrawals to better ensure the efficient use of 
        water resources. Conservation requirements were also instituted 
        at the same time for surface water withdrawals.
Instream Flow Protection Pilot Program (for Surface Water Flow 
        Management)
    This pilot program will be completed in 2012. The goal is to 
develop a strong scientific and regulatory basis to balance the diverse 
interests for uses of rivers through a consensus building process. 
These diverse uses include public water supply, wastewater 
assimilation, hydropower production, navigation, recreation, fishing, 
conservation, maintenance and enhancement of aquatic life, fish and 
wildlife habitat. There are two ongoing pilot studies to address these 
issues for the Souhegan River (state funded) and the Lamprey River 
(federal-funded). These pilot programs will serve as a model for how to 
reasonably balance potentially competing interests to ensure water 
resource sustainability.
Conclusion
    In conclusion, New Hampshire has made good progress towards 
ensuring a sustainable water supply over the long term and has a clear 
sense of the primary actions that need to be accomplished to further 
this objective. However, we have a long way to go.
    It is also important to recognize how important federal funding is 
to the states and local communities to promote these efforts, 
especially in this period of shrinking resources at all levels of 
government. At the national level, the Drinking Water State Revolving 
Fund Program, the Clean Water State Revolving Fund Program, other 
water-related programs and research efforts must be adequately funded 
for the states and local communities to meet the water supply 
challenges of the 21st century.
    Thank you again for this opportunity to testify before your 
committee.

    Senator Shaheen. Thank you very much.
    We have at least 3 major regions of the country 
represented, I think, on the panel today. Four, if we count 
you, Dr. Gleick, as being part of the Pacific Coast. I think 
most of you--I'll put you in a separate category, Mr. Stanley, 
because you're really representing industry.
    But I think you've all said in different ways what Mr. 
Willardson put so well when you said that we need a higher 
public priority on water use in this country. So, I'd like to 
ask you all to go back to that question: How do we get more 
public attention to water use in this country, and attention to 
address the kinds of challenges that each of you are really 
working on to address water use, and both the scarce resources 
and the technologies that are available to make sure we have 
the water that we need in this country?
    So, Mr. Willardson, would you like to go first on that, 
since you put it so well?
    Mr. Willardson. We can credit drought with getting a lot of 
public attention in Texas right now. They are looking at their 
water management. In fact, I think intermittent shortages have 
always been a catalyst to try and change policies. I think at 
this point, we have--we've talked about the need for a national 
water policy. We think that should not be equated with a 
Federal command and control structure that's pushed down from 
the top, but really, would have to be built on local watersheds 
and also State policies, and using those as building blocks 
toward a national policy. We think that can be used to--in 
support. The Federal programs should be used in support of 
those efforts.
    I think there is a need for public education, and a 
realization of the value of water, and the fact that we pay a 
lot more for our cell phone bills, generally, than we do for 
our water bills. What's more important to us?
    Senator Shaheen. Dr. Gleick, you also talked about the need 
for a national policy on water, which I think can be defined in 
different ways. Mr. Willardson pointed out that we're not 
talking about a command and control, a regulatory regime, per 
se, but more a national strategy. Would you agree with that, or 
do you think we're looking at something else?
    Mr. Gleick. I would. Let me make 2 comments. First, as--as 
Mr. Willardson said, and as Ben Franklin said many, many years 
ago, we learn the worth of water when the well runs dry. We 
tend to forget it when the well fills up again. That's--that's 
part of our problem. But there is a growing awareness about 
water issues. Despite difference of--differences of opinion 
about environmental issues, the American public considers water 
to be the most important environmental challenge, and has 
consistently for many, many years. People care about water.
    You asked the first panel, do we have a national water 
policy. We do have a national water policy. Maybe we don't 
think we do, but there's a de facto national water policy in 
the combination of Federal laws that we've passed around water 
quality and water management, around the strategies of the 
different agencies. There are Federal responsibilities. The 
challenge going forward is going to be to better integrate and 
manage those Federal responsibilities, to leave the local 
issues to local agencies, State issues to State agencies, to 
help at the Federal level, when help is appropriate, but there 
are important Federal responsibilities. That's what an 
integrated national water policy could look like. My written 
testimony goes into more detail.
    Senator Shaheen. Right.
    Mr. Gleick. Let me just say one specific thing. It's time 
to rewrite the Clean Water Act and the Safe Drinking Water Act. 
Those are foundational Federal laws about water. They were 
great. They're important. They're out of date. They need to be 
rewritten. It's this body that needs to do it.
    Senator Shaheen. We could spend the next--the next 3--3 
weeks talking about that. But do you want to talk a little more 
specifically? As you say, we need to rewrite them, because 
they're out of date. Are there any particular areas in mind 
that you want to refer to when you say that?
    Mr. Gleick. Sure. Two in particular. For the Clean Water 
Act, we've done a pretty good job of dealing with what we call 
point sources of pollution. We could do a better job at 
enforcement, but--but a pretty good job. We've done a very bad 
job at dealing with non-point source pollution. Many of the 
remaining serious water quality problems in our rivers and 
lakes are non-point sources. Nitrates. Phosphates. A whole 
series of things that you're aware of. We need to deal with 
that.
    On the safe drinking water side, we have a remarkable tap 
water system in this country. A tap water system much of the 
rest of the--of the world wishes they had. But it's not as good 
as it could be. It's not as good as it should be.
    There's new technology. General Electric has developed a 
lot of it, and many other companies have developed it. To 
produce any quality tap water we want, from any quality 
wastewater we might produce, we can restore the tap water 
system of this country. It's an investment worth making. It's 
an investment that we're going to be sorry we didn't make, if 
we don't move forward on it.
    Senator Shaheen. Thank you. Ms. Meeker or Harry, would 
either of you like to add to those comments?
    Mr. Stewart. I agree with Dr. Gleick on the--on the non-
point source question. The Clean Water Act does not address 
that well. We see that in Great Bay, in New Hampshire, where 
permits for municipalities are going to get ratcheted up for 
nitrogen removal. Without the non-point source improvements, 
that's not going to matter to Great Bay. So, I think that's a 
very important point.
    The Clean Water Act, we've talked about it for years. It 
needs to be overhauled eventually.
    Senator Shaheen. Ms. Meeker.
    Ms. Meeker. Thank you. Just a comment on a national dialog. 
I'm not sure if I would go so far to say we need a policy, but 
in terms of the national dialog, 2 key areas where I think we 
could use additional coordination, and public education was one 
of those that's mentioned.
    As we further technologies, it's very difficult to explain 
some of those technologies to the public. They need to 
understand them in order to support their governmental entities 
and utilities moving forward with those technologies. So, 
that's the first.
    The second----
    Senator Shaheen. Give me an example of what you're talking 
about.
    Ms. Meeker. You know, he just talked about wastewater 
creating--I mean you can do that whole wastewater, treat it to 
the point where it's actually drinkable. There are--that's the 
2 extremes. We have many areas in between, and without that 
public education and--and public involvement and understanding 
treatment technologies, getting them to understand those issues 
is very difficult. So, that's some--an area, I think, where our 
Federal agencies could really help us.
    The second is in the technology development. You know, 
research is one. An individual utility can't necessarily go out 
and research something on their own. But having the Federal 
agencies work with either their own agencies or other not-for-
profits who specialize in those types of things is exactly the 
type of area where I think you could--you could certainly help 
us.
    Senator Shaheen. Thank you. Mr. Stanley, do you see, as 
you're looking at the work that GE is doing, are there any 
breakthrough technologies that are going to make a dramatic 
difference as we're looking at some of the challenges we face 
to address clean water?
    Mr. Stanley. Breakthrough technologies in the eye of the 
beholder. You asked the question earlier about have we made any 
significant advances, and I thought Ms. Castle gave a nice 
answer, in that reverse osmosis is a technology that's been 
around for a lot of years, but when you look at the details, in 
fact, we have made quite a number of improvements. Many of 
those have--have made by GE, some other advances by 
competitors. But the net result is that--that there's been 
significant advances there.
    We continue--I have a team that's dedicated to reverse 
osmosis. Looking for improvements in the membrane technology, 
and the module design, et cetera, to try and improve that. So, 
whether you would characterize that as a--as a breakthrough 
technology, or a more incremental or transformational 
improvement of the technology, we are looking at all of the 
devices that we sell, the chemical treatments that we provide, 
how we integrate those into solutions, and we see tremendous 
progress as we look at our development efforts as we go 
forward.
    So, yes, I'm very bullish on the opportunity for technology 
to continue to make improvements and provide solutions for 
customers.
    Senator Shaheen. Good. Are there areas, either in the 
United States or around the world, where you're working with 
governments to address specific water challenges, where you've 
seen success?
    Mr. Stewart. We--in the U.S., we have an arrangement with 
the University of New Mexico, that's a government-funded 
program, looking at brackish water reclamation there. That's a 
very ongoing program that so far has been very successful, and 
we look forward to continue that program.
    We work with the government of Singapore. Very progressive. 
I think others mentioned how progressive Singapore is----
    Senator Shaheen. Right.
    Mr. Stewart [continuing]. With their water programs. We 
have a new research center. We have a collaboration with the 
National University of Singapore, and activities with the 
public utility board in Singapore. So, very aggressive there. 
We also have a number of activities in Israel. We're on the 
boards of incubators there, and we work with small companies in 
Israel. So, we have a number of activities around the world.
    Senator Shaheen. Good. Ms. Meeker, I want to go back to 
your testimony, where one of the things you talked about was 
the restoration of the Florida Everglades. Are there lessons 
there that have been learned that you think can apply to other 
restoration projects, either in the U.S. or around the world? 
One of the things that there's been a lot of attention to has 
been what's happened in Louisiana at the mouth of the 
Mississippi, where so much destruction of the Delta there has 
increased the impact from hurricanes and storms. Have you 
learned anything in the Everglades that has application there 
or other places?
    Ms. Meeker. Do you have a couple days?
    Senator Shaheen. I know. We're getting short on time here.
    Ms. Meeker. Yes. Excellent question. Certainly could take 
up a lot of time. I'll say simply yes, I think we've learned a 
lot. At the top of the list of our lessons learned is 
interagency coordination. The Federal, regional, State, local 
partnerships that have been formed, so that it's not a single 
entity that has to keep the ball rolling, I think is critical. 
I think that--that fits with any issue, any technological 
issue, or any major challenge which we are trying to face. It's 
about establishing those relationships, working together, 
trusting each other, and seeing what the end goal is, and 
focusing on that. It's not always easy to do, but certainly our 
top priority.
    Senator Shaheen. Good. Thank you. Harry, you mentioned, and 
as did Dr. Gleick, the non-point source pollution and ways to 
address that. Can you talk about some--some of the ways that 
pollution has effectively been addressed? Perhaps, Dr. Gleick, 
you could also respond, or anyone else who has been looking at 
those kinds of challenges, and has found successful ways to 
address them.
    I have a personal stake at this, because I live in the area 
that Mr. Stewart was talking about. I'm in one of those 
communities where we have septic systems and no community water 
supply. So the pollution is affecting not only the groundwater, 
but the Great Bay that comes in from the ocean.
    Mr. Stewart. There are some opportunities. The University 
of New Hampshire Storm Water Center is one area that has been 
doing a lot of research in this area. Basically, there are ways 
to--to treat storm water to improve its quality, and also to 
reduce the flow of storm water into surface waters by 
technologies, such as pervious pavement, and the like, to 
reduce the impact of storm water onto surface water.
    So, we don't have all the answers at this point. I think 
nationally, it's a problem and a challenge, but there are these 
relatively low technology solutions that are developing and 
evolving to address these issues.
    Senator Shaheen. Dr. Gleick.
    Mr. Gleick. Yes. I would add, there are lots of successes 
out there. The Pacific Institute, actually, today released a 
series of agricultural farm success stories from the Western 
U.S., some of which look at the issue of water quality 
improvements. We can improve water quality and reduce ag 
runoff, for example, by improving the efficiency of water use 
in agriculture. You apply less water, and less water runs off.
    You can put in place policies to reduce the application of 
chemicals, and that reduces the chemical runoff that results. 
Dealing with CAFOs, the combined animal feeding operations, 
which this country has moved toward in the agricultural area. 
That's a very serious water quality challenge. It's a--it's, to 
some degree, becoming a point source, if you will, but they're 
not adequately regulated.
    I just point out, we talk about the--the hundreds and 
hundreds of millions of people worldwide without access to safe 
drinking water. There are people without access to safe 
drinking water in the United States. It's largely, as you know, 
Senator, people in rural communities, with a dependence on 
local wells, where those wells are not monitored, they're not 
protected, they're vulnerable to the kinds of non-point source 
problems that we've been talking about. It's another example of 
where modifications of Federal laws could improve public 
health, improve public safety, improve the quality of water, 
and reduce some of these challenges.
    Senator Shaheen. Thank you. One of the things that many of 
you have mentioned is the effect of climate change and these 
increasing weather emergencies on our water systems and our 
water supply. Are any of you working in--on planning to address 
those additional emergencies? I think, Ms. Meeker, you talked a 
little bit about that. But what kind of planning are you doing 
to address those challenges, and how do you get the public 
brought in to the efforts that you're looking at? Dr. Gleick, 
you want to answer that first? Then maybe I could ask the other 
panel members if they could respond.
    Mr. Gleick. We do a lot of work on the impacts of climate 
change on water resources and on how to adapt to--to 
unavoidable impacts of climate change in the water area. There 
are more and more examples of water agencies taking 
responsibility for designing new infrastructure, not for 
yesterday's climate, but for future climate.
    There was an interesting story about rebuilding the rail 
line north of New York City washed out by an extreme event, a 
hurricane, and doing it to a different standard, to take into 
account both future sea level rise and a higher risk of severe 
storms.
    There is a realization that our water systems are both 
vulnerable, but also can be protected, if we think about 
rebuilding them and redesigning them now, rather than waiting 
for the future. We're thinking about re-operating reservoirs in 
California, because we're losing snowpack, which is a very 
important storage, natural storage. That's happening in the 
Rocky Mountains area as well.
    There are lots of examples, but it's a very slow process. 
It's--we're way behind the curve. Water agenciesare just trying 
to now figure out what the most effective things to do might 
be.
    Senator Shaheen. Mr. Stanley, are you working on that 
anywhere in the world, as you----
    Mr. Stanley. Not--not directly. You know, obviously, as 
climate change happens, as water becomes scarce and--and more 
problematic in regions, we try and develop products that will 
be, you know, useful and helpful for--for customers. But that--
that's our response really.
    Senator Shaheen. Thank you. Mr. Willardson.
    Mr. Willardson. I would just mention that climate is just 
one of the uncertainties that we face.
    Senator Shaheen. Sure.
    Mr. Willardson. In mentioning both droughts and--and the 
flooding that we've seen in the West are a product of natural 
variability, and we've had to deal with that. You do have, by 
diversifying your supplies, by conserving water, trying to 
manage demands, and taking what really are no-regret 
strategies, water management tools that make sense anyway.
    Senator Shaheen. Thank you. Ms. Meeker.
    Ms. Meeker. The 2 areas where we have focused on have been 
in our infrastructure improvements for our coastal structures, 
where at one time they were gravity structures. You could just 
open them and let the water flow off the land. As sea level has 
inched up, literally, we have--when we refurbished those 
structures, they now become mechanical structures to force the 
water out. So, that's the first one.
    The second is, as we see that sea level rise, you know, we 
see a higher tendency or a possibility for saltwater intrusion 
in our groundwater wells. So, that's a key area that we watch 
very closely, working with, you know, USGS and the sampling, 
and everything else, and the utilities to watch the saltwater 
levels in those wells.
    We have moved wells away from the coastal area. We use our 
coastal structures to keep water levels in the canals higher, 
to recharge the aquifers, to--to, you know, create a head, to 
keep that saltwater out. So, we continue to work with that 
literally every day.
    Senator Shaheen. A number of people have mentioned the 
importance of data, as you're trying to make these decisions. 
Do you feel like you have adequate data? Do you also have 
adequate ways to either regulate or incentivize compliance with 
those----
    Ms. Meeker. Absolutely.
    Senator Shaheen [continuing]. Needs?
    Ms. Meeker. Yes. We have an extensive sampling program 
throughout South Florida, both in groundwater and surface 
water, and look at, you know, every--every bit of information 
you can imagine, we're collecting it. We also have a very 
active regulatory program, which includes compliance. So, 2 
very key areas that we focus on to ensure that we have the 
right information to make the right decisions.
    Senator Shaheen. Thank you. Harry.
    Mr. Stewart. From a--from a data perspective, our screen 
gauge network is shrinking, when it should be expanding, due to 
funding. That's a combination in New Hampshire of the gradual 
Federal attrition, but also State match for stream gauges. So--
and that--as we get these tropical storms and hurricanes, such 
as Irene, that came up the coast, you know, we have people that 
are looking real-time at what's going on in the State, and we 
need those stream gauges for that purpose.
    As far as other changes in our programs, we have changed 
our criteria for culvert design. So, new culverts are being 
designed to a higher standard, to a 100-year storm event, which 
is probably no longer a 100-year storm event.
    The other thing that's happening in New Hampshire is that 
it's something that the engineers and scientists have known, 
but I think that there's a shift in the--in the population, 
where there's finally a recognition that we can't keep building 
in floodplains, because they do flood.
    Senator Shaheen. Thank you. Again, I know several of you 
have planes to catch. While we could go on much longer, and 
because it's a fascinating topic, and obviously, one that we 
need to pay more attention to. I want to thank you all very 
much for your testimony, for being here, and as I said, I think 
it's a topic that we will come back to, because obviously, 
there is a lot more work to do.
    So, again, thank you very much. This hearing is closed.
    [Whereupon, at 4:55 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]

Hon. Jean Shaheen,
Chairwoman, Senate Committee on Energy and Natural Resources, Water and 
        Power Subcommittee, 304 Dirksen Senate Building, Washington, 
        DC.
Hon. Mike Lee,
Ranking Member, Senate Committee on Energy and Natural Resources, Water 
        and Power Subcommittee, 304 Dirksen Senate Building, 
        Washington, DC.
    Dear Chairwoman Shaheen, Ranking Member Lee and Members of the 
Subcommittee: My name is Dan Keppen, and I serve as the Executive 
Director of the Family Farm Alliance (Alliance). The Alliance is a 
grassroots organization of family farmers, ranchers, irrigation 
districts and allied industries in 16 Western states. The Alliance is 
focused on one mission: To ensure the availability of reliable, 
affordable irrigation water supplies to Western farmers and ranchers. 
We are also committed to the fundamental proposition that Western 
irrigated agriculture must be preserved and protected for a host of 
economic, sociological, environmental and national security reasons--
many of which are often overlooked in the context of other national 
policy decisions.
    We appreciate the attention your subcommittee is placing on the 
critical need to address domestic and global water supply issues. 
However, we were disappointed that no representatives of agriculture--
the largest user of water in America and the world, according to 
Assistant Interior Secretary Anne Castle's own testimony at your 
hearing--were invited to participate in the December 8 event. Within 
the Interior Department, the Bureau of Reclamation (Reclamation) is the 
single largest wholesaler of water in the country, providing water for 
10 million acres of irrigated agriculture, and drinking water for 31 
million Westerners. The Family Farm Alliance has a long history of 
collaboration with our partners at Reclamation, and we generally agree 
with Assistant Secretary Castle's assessment that the a proper role for 
the federal government on water matters is to focus on research and 
development; more fully integrate, coordinate and maximize use of 
resources; and encourage planning from the ``ground up''. We also have 
a wellestablished relationship with Congress, with 33 invitations to 
testify before Congressional committees on Western agriculture, water 
and environmental matters since 2005.
    This testimony will provide some key observation that underscore 
the importance of providing reliable and affordable water to Western 
agricultural irrigators, address some concerns we heard with testimony 
provided at the December 8 hearing, and provide specific policy 
recommendations that we believe lay the foundation for effectively 
addressing current and future water challenges in the Western United 
States.
                            Key Observations
We are in danger of losing a generation of farmers
    Nationally, the median age of active farmers in America has never 
been higher, with the percentage of farmers under 50-years-old 
continuing to plummet. More than half of today's farmers are aged 
between 45 and 64, and only 6% of our farmers are younger than 35.
The number of farms is declining throughout the West
    According to the U.S. Department of Agriculture (USDA), the total 
number of farms nationally is 2.08 million, a 0.6% drop from a year 
ago. Nationally 930.9 million acres are in farmland, a 1.5 million-acre 
drop from a year ago (USDA National Agricultural Statistic Service). 
For example, at the start of 2008 in Oregon, California, Idaho and 
Washington, there were 170,800 farms, a decline of 2% compared to the 
previous year. California, Oregon and Washington each lost 1,000 farms 
since the previous USDA annual report on farm numbers. There are 500 
fewer farms in Idaho, according to the USDA report. In the West, 
Oregon, California and Idaho each lost 100,000 acres compared to the 
previous year. USDA attributes the decline in the number of farms and 
land in farms to a continuing consolidation in farming operations and 
diversion of agricultural land to nonagricultural uses.
Americans pay a substantially lower amount of disposable income on food
    According to the World Bank, families in 28 other high-income 
countries pay 10.2% of their disposable income on food compared to 6.2% 
for families living in the United States. For the average American 
that's a difference of $3,820 per year and represents real dollars that 
are available to purchase consumer goods other than food. A 2011 report 
by Cardno-ENTRIX examined the relative affordability of food in the 
U.S. as compared to 28 other high-income countries. Data was derived 
from a report published by the World Bank titled ``Global Purchasing 
Power, Parities and Real Expenditures.'' The results were weighted for 
each country by its total GDP so to ensure comparability with the U.S. 
On a percentage basis, other highincome countries spend about 64% more 
in disposable income on food and non-alcoholic beverages compared to 
the U.S. The full food cost report is available at: www.farmwater.org/
food__cost__results.pdf
    At a time when average Americans are feeling the pinch in their 
pocket books, the foundation of our country's ability to provide safe 
and affordable food and fiber is at risk. Ironically, it is because 
Western irrigated agriculture has been so adaptive and successful at 
providing plentiful, safe and affordable food that it is now 
jeopardized--nobody believes there can be a problem. The last Americans 
to experience food shortages are members of the Greatest Generation and 
their parents. For the most part, they have left us, taking with them 
the memories of empty supermarket shelves. When the issue has never 
been personalized, it's easy to be complacent.
Agriculture holds the most senior water rights in the West and is 
        considered a likely source of water to meet growing municipal 
        and environmental demands
    The Family Farm Alliance is part of a work group of diverse 
interests--agricultural, environmental, and urban--that has been funded 
by the Walton Foundation to seek the most effective and innovative ways 
water can be shared for mutual benefit, without damaging agriculture or 
rural communities; to pinpoint obstacles to sharing; and to develop 
strategies to alleviate obstacles. To that end, the Colorado River Ag/
Urban/Enviro Working Group has investigated transfers throughout the 
West in an attempt to uncover best ideas for the Colorado River Basin, 
and beyond. The Group has developed recommendations for the Western 
States Water Council (WSWC) in the context of toolbox strategies to 
increase the chance that WSWC might get the Western governors behind at 
least some of our recommendations. We want to get the governors to 
enable local solutions to sharing water more effectively, to give 
governors more latitude to do what's right in their states instead of 
being tied by federal restrictions. Our message to the governors is 
that changes shouldn't be pushed from the top down. We hope they can 
get behind the idea of empowering interjurisdictional solutions.
    Several observations were gleaned from the Colorado River Basin 
Forum:

  <bullet> Better management of the resource can always be part of the 
        solution. Management requires flexibility (and trial and 
        error.) More regulation usually reduces flexibility. Competing 
        demand interests on water have not done a very good job of 
        creating the opportunity for flexible management.
  <bullet> More storage is still a critical piece of the answer. 
        Finding the dollars within the states for creation of new 
        storage for water for the environment could be a very helpful 
        way to level the field.
  <bullet> We need to be concerned that our demand does not get so 
        hardened that a drought can devastate our society. The 
        environment and agriculture can both recover from a temporary 
        insufficient supply easier than homes and businesses.

    As we look to the future, we can tie that fact to Mother Nature's 
expected long term drought cycles. We need to find ways to implement 
interruptible supply and lease agreements between cities and 
agriculture, and cities and the environment. For multiple reasons, 
water transfers that result in the permanent fallowing of agricultural 
land may be detrimental to all sectors. Regulatory costs and 
insufficient infrastructure are significant barriers to temporary water 
transactions that might be used in lieu of permanent fallowing. We 
should encourage temporary transactions with incentives, potential 
mandates and pilot programs.
The only large potential for moving water from agriculture to other 
        uses will come from fallowing large swaths of farmland
    We often see bold general statements of water transfer proponents 
about the potential for agricultural water use efficiency to free up 
water that can be used for in-stream flows. However, those statements 
are usually followed up by a list of the factors that make it a 
difficult proposition. Those include re-use deficiencies when water is 
removed upstream in the system, water rights that protect water users 
from water being taken away if they conserve water, and transactions 
that move water between presumably willing buyers and willing sellers, 
but have the effect of taking land out of production. All of those 
issues are dealt with directly in a major California report released 
last month by the Center for Irrigation Technology (CIT) at Fresno 
State. The report, ``Agricultural Water Use in California: A 2011 
Update'', which refutes some long-standing beliefs about agricultural 
water usage and confirms others. The full report is available at http:/
/www.californiawater.org. The CIT report and others have reached a 
similar conclusion: the only large potential for moving water from 
agriculture to other uses will come from fallowing large swaths of 
farmland.
Growing domestic and global food security and scarcity concerns must be 
        considered as federal water policies are developed and 
        implemented
    The U.S. needs a stable domestic food supply, just as it needs a 
stable energy supply. The post 9/11 world of terrorist threats makes 
the stability of domestic food supply even more pressing. Outgoing 
Secretary of Health and Human Services Tommy Thompson put it bluntly 
when he said, ``I cannot understand why the terrorists have not 
attacked our food supply, because it is so easy to do.'' Further, 
Thompson said he worries ``every single night'' about threats to the 
American food supply.
    This isn't just a matter of domestic security; it's also a global 
concern. Earlier this year, the Global Harvest Initiative (GHI) 
released its Global Agricultural Productivity (GAP) Report, which 
measures ongoing progress in achieving the goal of sustainably doubling 
agricultural output by 2050. For the first time, the GAP Report 
quantifies the difference between the current rate of agricultural 
productivity growth and the pace required to meet future world food 
needs. The report predicts that doubling agricultural output by 2050 
requires increasing the rate of productivity growth to at least 1.75% 
annually from the current 1.4% growth rate, a 25% annual increase.
    Other signs point to the hard truth of a very real food crisis in 
the world today. The Food and Agriculture Organization of the United 
Nations (FAO) in June 2009 reported that over 1 billion people world-
wide go hungry every day. And the problem will only get worse. The 
world's population is growing by 79 million people each year. The FAO 
estimates that the world needs to produce 70% more food by 2050 to keep 
pace with population growth and increased demand for calories.
    G-8 agricultural ministers at a summit last year committed to 
increase international assistance for agricultural development to $20 
billion over the next three years. Actions of this type will surely 
give the world's hungry a reason for hope by tackling food security 
with a renewed commitment to agricultural development in other 
countries. However, similar focus must be placed closer to home, where 
less than two percent of the nation's population produces food for our 
country and the world.
    We need policies that encourage agricultural producers to work 
together in a strategic, coordinated fashion. Rebuilding is required of 
parts of the institutional structure now in place, so that water 
resources can be managed specifically, not generically. We must get a 
handle on changing weather patterns and assess how the agricultural 
landscape and water security will be impacted due to a changing 
climate. And we must develop a clear understanding of the resulting 
limitations on our ability to feed the world is impacted when we take 
domestic agricultural lands out of production as water tied to those 
lands is transferred elsewhere.
                                Concerns
    As you know, Peter Gleick of the Pacific Institute for Studies in 
Development, Environment and Security testified at the December 8 
hearing. The Family Farm Alliance and our members have worked with Dr. 
Gleick in a variety of forums, and his December 8 testimony featured 
points where we agreed and disagreed. For example, we agree with Dr. 
Gleick's statement that ``Farmers cannot afford to upgrade irrigation 
infrastructure to reduce losses and cut waste,'' which is consistent 
with our findings, further outlined in Policy #5, below. However, his 
push for new federal policies to ``eliminate subsidies for some kinds 
of crops, raise the price of water delivered from federal irrigation 
systems to encourage efficiency, or provide financial assistance to 
farmers to invest in shifting irrigation technologies to modern systems 
for monitoring and delivering water'' need to be addressed.
    Western farmers and ranchers have long taken a progressive approach 
to water management. Farmers are already investing in upgraded 
irrigation systems. For example, between 2003 and 2010 San Joaquin 
Valley farmers invested almost $2.2 billion in upgraded irrigation 
systems on over 1.8 million acres of farmland. Those investments helped 
improve water use efficiency and food production and helped fuel 
portions of the rural economy at a time when water supply cuts were 
increasing unemployment. And, these sorts of efficient farm practices 
have led to increased economic value and production. A report by the 
California Department of Water Resources\1\ shows that the value of 
California farm products doubled during the 40-year period from 1967 
and 2007 while at the same time, applied water decreased by 14%. Other 
research by the California Farm Water Coalition showed that the volume 
of farm production between 1967 and 2000 rose approximately 89% with 
only a two percent increase in applied water per acre. These indicators 
support assertions that farmers in general are improving water use 
efficiency in significant ways over time.
---------------------------------------------------------------------------
    \1\ The DWR report is available at 222.farmwater.org/
DWR_Econ_Efficiency.pdf
---------------------------------------------------------------------------
    Dr. Gleick and others often bring up arguments regarding the need 
to address ``antiquated'' Western water policy. ``Part of the 
problem,'' says Dr. Gleick, ``is old water legislation that has not 
been updated to account for the realities of the 21st century and for 
recent advances in our scientific and technical understanding of both 
water problems and solutions.'' We need to resist any attempts at 
rewriting our basic system of water rights, something affirmed recently 
by the Delta Stewardship Council in California. We offer additional 
recommendations to address this concern in Policy #6, below.
    Dr. Gleick and the Pacific Institute recommend that we ``phase out 
irrigation, energy, and crop subsidies that promote wasteful use of 
water and energy.'' This recommendation begs the question, who decides 
what is an efficient water use in agriculture?
    Finally, Dr. Gleick's testimony closes with optimistic graphs that 
demonstrate progress in terms of water use efficiency since 1975. Based 
on those figures, it is difficult to see where we need to make changes, 
unless Pacific Institute's goals are something other than increasing 
efficiency.
                         Policy Recommendations
    Western water supplies are already inadequate to the demands of 
agriculture, urban growth, environmental enhancement and power 
generation. Global climate change, we're told, will further reduce 
those supplies. So how will we meet the ever-increasing demand for 
water in the West in an era when there will be an ever-decreasing 
supply? Improved conservation, water reuse and efficiency by urban and 
agricultural water users are certainly parts of the solution, but only 
a part. Resolving these issues without destroying what we worked so 
hard to achieve is the challenge that we all face. To be successful, we 
must face them together. No resolution will be found unless we find a 
way to balance all competing needs. We believe that within the policies 
outlined in this testimony lay the foundation upon which to build for 
the future. It will be a foundation that allows for resolution of 
significant conflicts in a way that supports continued growth of 
irrigated agriculture.
            Policy 1.--The U.S. must adopt an overriding national goal 
                    of remaining self-sufficient in food production. 
                    Food security is homeland security. Policy 
                    decisions on a wide range of issues should then be 
                    evaluated to be sure they are consistent with that 
                    goal
    Remarkably absent from the newly-ignited dialogue about fuel and 
food costs and food safety is recognition of the importance of a secure 
and sustainable domestic food supply. Politicians from both parties now 
routinely urge us to end our reliance on foreign energy sources, but 
nobody is talking about food independence. A national response should 
include as one of its goals selfsufficiency in food production. It is 
time for our national leaders to stand up and focus on improving the 
security, stability, and economic aspects of domestic food production 
so that our food remains readily available, ample, affordable, and 
safe. An obvious solution to address this alarming development would be 
to increase agricultural productivity and output. In our own country, 
that means finding ways to keep farmers and ranchers doing what they do 
best, and to further encourage young farmers to follow in their 
footsteps.
    Europeans aggressively protect their farms and food production 
capability because they still remember the hungry years during and 
after World War II when they relied on other nations, America in 
particular, to feed them. The time has come--indeed, it's long 
overdue--for the United States to similarly adopt an overriding 
national goal of remaining self-sufficient in food production. Policy 
decisions on a wide range of issues ranging from taxation to the 
management of natural resources should then be evaluated to be sure 
they are consistent with that goal. It's hard to imagine a simpler or 
more important step to safeguard the American public.
            Policy 2.--State and local governments must consider the 
                    impacts of continued growth that rely on water 
                    transfers from agriculture and rural areas and to 
                    identify feasible alternatives to those transfers, 
                    including reuse
    Severing water from agricultural land makes the land less 
productive. Period. Policy makers should be wary of putting too much 
emphasis on agricultural water transfers, particularly in the context 
of growing domestic and global food security and scarcity concerns.
    There is growing recognition that states and local governments must 
consider the impacts of continued growth that relies on water transfers 
from agriculture and rural areas and to identify feasible alternatives 
to those transfers. For example, a 2006 report released by the Western 
States Governors Association (WGA) states ``there is understandable 
support for the notion of allowing markets to operate to facilitate 
transfers from agricultural to municipal and urban use as a means to 
accommodate the needs of a growing population. While such transfers 
have much to commend them, third party impacts should be taken into 
account, including adverse effects on rural communities and 
environmental values. Alternatives that could reasonably avoid such 
adverse impacts should be identified.''
    The Family Farm Alliance is working with WGA and Western States 
Water Council to develop a report on successful and unsuccessful 
agricultural-to-urban water transfers to determine how transfers can be 
accomplished in a manner that avoids or at least mitigates damage to 
agricultural economies and environmental values, while at the same time 
avoiding infringement on private property rights. The Alliance position 
will be built upon a policy founded in fundamental truths:

  <bullet> Although water is lost to evaporation in surface reservoirs 
        that serve agricultural, environmental and urban uses, there is 
        very little ``wasted water'' associated with moving and 
        applying irrigation water. Water not directly consumed through 
        evapo-transpiration often serves other purposes, such as 
        replenishing groundwater, buffering soil salinity and 
        supporting riparian vegetation.
  <bullet> Further tightening of urban water conservation measures, in 
        essence, ``hardens'' those urban demands. Some degree of 
        flexibility must be embedded in urban water conservation 
        programs to allow these areas to employ more restrictive water 
        conservation measures during drought periods. Without having 
        the ability to save water during drought periods via drought 
        conservation measures, the resulting hardened demand will force 
        urban water managers to more quickly look to secure water from 
        other areas; namely, agriculture and the environment.
  <bullet> A multitude of unique solutions exist for Western 
        communities wrestling with growing urban water use. The 
        Northern Colorado Water Conservation District is currently 
        seeking to 9 develop new offstream storage to protect 
        agriculture as urbanization sweeps into Northern's traditional 
        service area. Farmers in the Klamath Irrigation Project 
        (CALIFORNIA / OREGON) are paid through an environmental water 
        bank to temporarily fallow land or pump groundwater in place of 
        using Klamath River water. On the other hand, unsuccessful 
        implementation of Central Valley Project Improvement Act water 
        transfer provisions in California suggests that water markets 
        cannot be legislated.

    There will be nothing done with water in the West without there 
being winners and losers. Cities may expect to buy water from farms, 
but that is not a long term solution as global food shortages make 
farming a crucial national need.
             Policy 3.--When water demands and environmental laws 
                    conflict, balanced solutions that respect the 
                    socioeconomic realities of the West must be found
    Environmental enhancement and mitigation programs are competing for 
existing sources of water. Across the West, environmental activists 
have attempted to redirect water to environmental uses through 
litigation and negative media campaigns, without adequate public 
process or regard for prior commitments. These actions have caused 
major conflicts, costly lawsuits and delayed benefits for endangered 
species and the environment.
    In recent years, many in the environmental community have focused 
on irrigation projects and dams as the source of all woes facing 
Western fisheries. This distracts policy makers from employing a 
balanced, comprehensive approach to all factors that limit the 
abundance of at risk, native fish species. In California's Bay-Delta, 
for example, environmental activists have focused almost exclusively on 
state and federal water pumps in the Delta that supply water for 
millions of acres of the most productive farmland in the world, not to 
mention drinking water for millions of Southern Californians. They 
ignore or downplay many other factors that stress fish, including the 
loss of plants located in the Delta; the introduction of non-native 
species, including predator species like the striped bass, the decline 
of food availability; and the discharge of toxics into Delta waterways 
and streams tributary to the Delta. Over the course of the last two 
decades, the effort to recover native species in the Delta has been 
heavily focused on limiting operations of the state and federal 
projects. Tens of millions of acre-feet have been managed in order to 
protect and enhance populations of Delta smelt, salmon and steelhead. 
Yet, these efforts have failed, and abundance indices for these species 
are at record lows\2\.
---------------------------------------------------------------------------
    \2\ July 17, 2008 Letter from U.S. Reps. Costa, Cardoza, 
Radanovich, Nunes and McCarthy to Dr. Balsinger and Director Hall re: 
Bay-Delta Conservation Plan Process.
---------------------------------------------------------------------------
    There is a better way. Solutions to these complex issues can be 
found by reasoned, well intentioned people. Water users care about the 
environment. Creative, successful solutions can be found by motivated, 
unthreatened parties. Incentives that create reasons to succeed will do 
more good for the environment in a shorter period of time than actions 
that rely on threats of government intervention. Successful incentives 
will ultimately reduce occasions for judges to be forced to substitute 
their own judgment for that of professionals and stewards of the land.
            Policy 4.--State laws and institutions must be given 
                    deference in issues relating to water resource 
                    allocation, use, control and transfer. The best 
                    decisions on water issues happen at the state and 
                    local level
    The federal government has repeatedly recognized this fact. In 
1952, Congress passed the McCarran Amendment. This law specifically 
waives the sovereign immunity of the United States in matters that 
pertain to state water right adjudications. This system may be 
frustrating for federal agencies but it works.
    Solutions to conflicts over the allocation and use of water 
resources must begin with a recognition of the traditional deference to 
state water allocation systems. Federal agencies must acknowledge that 
they are required to adjudicate water rights for federal purposes 
according to state law and abide by state decrees defining both federal 
and non-federal rights.
    Recently, in many areas of the West, federal agencies have 
attempted to redirect water to solve environmental issues, without 
regard for state law or prior commitments, via implementation of 
federal laws that have the effect of overrunning state statutes. These 
actions cause far more problems than they resolve. Environmental issues 
must be resolved through a cooperative process that respects state 
water law.
    A simple commitment by federal agencies to work within the 
framework of existing appropriative systems instead of attempting to 
fashion solutions which circumvent current water rights allocation and 
administration schemes would form the foundation for eliminating the 
gridlock that now paralyzes federal water management decisions.
    Such a commitment would encourage states and water right holders to 
proactively address water allocation issues by eliminating the now 
omnipresent fear that a subsequent federal mandate will either 
undermine local efforts to address an allocation issue or suddenly 
require unexpected additional reallocations of water which render local 
cooperation impossible.
            Policy 5.--Aging water infrastructure must be addressed 
                    promptly and with priority commitments, as failure 
                    do to so will create a failed legacy for the next 
                    generation
    Specific action can be taken in Washington, D.C. to tackle the 
looming water infrastructure problems plaguing the West:

          1. Direct more funding to the Department of Interior 
        WaterSMART grant program to--implement (i.e. ``build'') 
        projects that have been submitted but not approved for funding.
          2. Reaffirm the loan guarantee authority provided in the 
        Rural Water Supply Act.--Congress should specifically direct 
        funding and implementation of the loan guarantee program 
        authorized by The Rural Water Supply Act of 2006. 
        Unfortunately, Reclamation loan guarantees, a long-awaited 
        critical financing tool for water users across the West, are 11 
        now being held up because of incorrect interpretations of clear 
        Congressional direction by the Office of Management and Budget 
        (OMB).
          3. Establish a direct loan program for local agricultural 
        water districts.--This would require full appropriation by 
        Congress, over and above what Reclamation already funds. The 
        program would provide low interest loans to irrigators and 
        repaid by them.

    It is imperative that we find creative ways to provide for the 
operation, maintenance, and modernization of existing water supply 
infrastructure. Implementation of these recommendations would provide 
important first steps towards solving our aging water infrastructure 
problems.
            Policy 6.--New water supplies must be developed to provide 
                    for recreational and environmental needs, allow for 
                    population growth and protect the economic vitality 
                    of the West
    We believe that it is possible to meet the needs of cities and the 
environment in a changing climate without sacrificing Western irrigated 
agriculture. To achieve that goal, we must expand the water supply in 
the West. There must be more water stored and available to farms and 
cities. Maintaining the status quo simply isn't sustainable in the face 
of unstoppable population growth, diminishing snow pack, increased 
water consumption to support domestic energy, and increased 
environmental demands.
    It strains credibility to believe that conservation alone will 
supply enough water for the tens of millions of new residents expected 
to arrive in Western cities during the coming decades. Farmers and 
ranchers understand that conserved water cannot realistically be 
applied to instream uses, as it will more likely be put to beneficial 
use by the next downstream appropriator or held in carryover storage 
for the following irrigation season.
    Many water projects are ready and waiting to be developed in the 
West\3\. While conservation and recycling programs have done a 
tremendous job of meeting new growth, still, only a small amount of new 
water has been developed in the past 30 years. We cannot continue to 
``conserve just a little more'' forever.
---------------------------------------------------------------------------
    \3\ Western Water Supply Enhancement Study. Family Farm Alliance, 
2005.
---------------------------------------------------------------------------
    The federal government must adopt a policy of supporting new 
projects to enhance water supplies while encouraging state and local 
interests to take the lead in the implementation of those projects. 
It's time to start developing and implementing the water infrastructure 
needed to cope with a changing climate, meet the needs of a burgeoning 
population, and support a healthy agricultural base in the West. While 
on- stream storage should not be seen as unacceptable, off stream 
storage, groundwater banking, and countless other forms of water 
development should be encouraged as a matter of federal policy and law.
    Local and state interests have shown enormous creativity in 
designing creative water development projects. For example, the State 
of Wyoming has initiated its Dam and Reservoir Program, where proposed 
new dams with storage capacity of 2,000 acre feet or more and proposed 
expansions of existing dams of 1,000 acre feet or more qualify for 
state funding. Wyoming water managers and policy makers recognize that 
dams and reservoirs typically provide opportunities for many potential 
uses. While water supply is emphasized in the Wyoming program, 
recreation, environmental enhancement, flood control, erosion control 
and hydropower uses are also explored as secondary purposes.
    Modern, integrated water storage and distribution systems can 
provide tremendous physical and economic flexibility to address climate 
transformation and population growth. However, this flexibility is 
limited by legal, regulatory, or other institutional constraints, which 
can take longer to address than actually constructing the physical 
infrastructure\4\.
---------------------------------------------------------------------------
    \4\ CLIMATE WARMING AND WATER MANAGEMENT ADAPTATION FOR CALIFORNIA, 
Stacy K. Tanaka et al, Department of Civil and Environmental 
Engineering, Department of Agricultural and Resource Economics, 
University of California, Davis 95616
---------------------------------------------------------------------------
    The often slow and cumbersome federal regulatory process is a major 
obstacle to realization of projects and actions that could enhance 
Western water supplies.
    The Family Farm Alliance wants to work with the new Administration, 
Congress, and other interested parties to build a consensus for 
improving the regulatory process. The real reason the Alliance 
continues to push for improved water storage and conveyance 
infrastructure is not to support continued expansion of agricultural 
water demand (which is NOT happening in most places). Instead, we seek 
to mitigate for the water that has been reallocated away from 
agriculture towards growing urban, power, environmental and 
recreational demands in recent decades. If we don't find a way to 
restore water supply reliability for irrigated agriculture through a 
combination of new infrastructure, other supply enhancement efforts, 
and demand management--our country's ability to feed and clothe itself 
and the world will be jeopardized. We need to pin down how much new 
water is needed for new uses, and then find ways to support those uses 
in a sustainable way that doesn't hurt irrigated agriculture. New 
infrastructure is one such way; improved conveyance and storage 
projects provide the best flexibility to manage and move water in the 
West.
            Policy 7.--We Must Coordinate and Prioritize Western Water 
                    Research Needs
    Our country has tremendous, but limited, resources available to fix 
our problems, so we must prioritize. One priority research item should 
be a comprehensive validation of West-wide changes in climate change-
driven streamflow. This should be followed by quantification of the 
amount of additional reservoir storage, conservation targets, etc 
required to re-regulate this change in hydrology. This would quickly 
illustrate to policy makers the need to start modernizing our water 
infrastructure. This assessment should be accompanied by a 
comprehensive study of the collective impacts of agricultural land and 
water changes in Western states over the last 10 years, as well as 
predicted trends. A study of this sort may provide the type of hard 
findings that may alert policy makers to the ``big picture'' 
ramifications of this issue.
    The potential water impacts associated with use of alternative 
fuels must also be studied. Throughout the West, we are seeing 
proposals to build plants to make ethanol, another ``answer'' that may 
(or may not) lower greenhouse gas emissions. An April 2007 Sacramento 
Bee editorial provides a reality check on how much water it would take 
to grow all the corn required to meet California's goal of producing a 
billion gallons of ethanol a year. According to the Bee's calculations, 
that's about 2.5 trillion gallons of water for 1 billion gallons of 
ethanol, which is more than all the water from the Sacramento-San 
Joaquin Delta that now goes to Southern California and valley farms. 
Because there is only so much water for agriculture in California and 
other Western states, this means that some other existing crops will 
not be grown, thus furthering our dependence on imported food sources.
    Another growing demand that will be placed on Western water 
resources is driven by power requirements. The total water consumed by 
electric utilities accounts for 20% of all the nonfarm water consumed 
in the United States. By 2030, utilities could account for up to 60% of 
the nonfarm water, to meet the water needs required for cooling and 
pollutant scrubbing. This new demand will likely have the most serious 
impacts in fast-growing regions of the U.S., such as the Southwest.
    There are also risks and opportunities to manage water associated 
with petroleum development. Across the western United States alone, 
more than 5 billion gallons per day of ``produced water'' is brought to 
the surface during petroleum production\5\. This wastewater has 
historically been re-injected back into the ground and ``lost'' to 
further uses. Recovering usable water from sources contaminated by oil 
and gas drilling operations could significantly help our farmers, 
ranchers and recreational users, not to mention the habitats of many 
plants and animals. Meanwhile, with the growing emphasis on opening up 
oil shale production in the Rocky Mountain West, new oil and gas 
techniques are expected to use large amounts of water under pressure to 
extract the oil and gas from underground. Recovered ``produced water'' 
could help satisfy this new demand.
---------------------------------------------------------------------------
    \5\ Revolutionary New Water-Saving Technique Gives Oil And Gas A 
New `Green Look' In Rockies Nickle's Energy Group, 2008.
---------------------------------------------------------------------------
    Even without warming climate conditions, continued growth in the 
West will put the squeeze on both water and power use. When you throw 
in climate change and energy considerations, the projections are 
alarming.
            Priority 8.--Real management is needed in the real 
                    ``reservoir'' of the West--our federallyowned 
                    forest lands in upper watershed areas
    Federal agencies must improve management of the West's biggest 
``reservoir''--our watersheds.
    In most Western states, much of the water used derives from 
snowmelt in mountainous areas. We are hearing more frequent reports 
from state and local governments and water users who question how the 
federal government is managing the watersheds.
    The Yellowstone fires that occurred 20 years ago provided a wakeup 
call to many that nearly a century of federal forest firefighting may 
have actually made the forests more flammable and more dangerous. The 
U.S. Forest Service policy of putting out all fires may have actually 
filled the forests with fuel, making them harder to protect\6\.
---------------------------------------------------------------------------
    \6\ Yellowstone Fires of '88: Twenty years of recollection''. Rocky 
Barker, 2008. PERC Reports Summer 2008.
---------------------------------------------------------------------------
    During the early 1990's, forest management practices underwent a 
drastic change\7\. In 1994, at the behest of environmental 
organizations claiming to protect the forest habitat of the northern 
spotted owl, a ``threatened'' species under the Endangered Species Act, 
25 million acres of federal forests were put off limits to commercial 
timber harvesting. The federal government also greatly expanded 
``wilderness areas,'' closed hundreds of miles of national forest roads 
long used by firefighters to reach isolated wildfires, and terminated 
salvage timber sales. As a result of minimizing the mechanical-thinning 
approach to forest management--coupled with 100 years of a flawed 
federal fire suppression policy--the national forests became overgrown 
with underbrush and overfueled with dead or dying trees. They also 
became less accessible to firefighting crews.
---------------------------------------------------------------------------
    \7\ Why the nation's forests are burning so hot. M. David Stirling, 
Pacific Legal Foundation. August 3, 2008 Eureka (CALIFORNIA) Reporter.
---------------------------------------------------------------------------
    A July 2008 report released by the National Research Council\8\--
one of the first major studies on forest and water since a U.S. Forest 
Service project in 1976--underscores the importance of forests to the 
nation's water supplies. The report finds that modern forest practices 
have helped to protect streams and riparian zones, but more needs to be 
learned about the implications of such practices as thinning or partial 
cuts. This understanding can lead to the development of ``best 
management'' practices could help balance timber harvest with 
sustainable water flow and quality\9\.
---------------------------------------------------------------------------
    \8\ Hydrologic Effects of a Changing Forest Landscape. National 
Research Council of the National Academy of Sciences. July 2008.
    \9\ Oregon State University News and Communication Service, July 
14, 2008 Media Release ``New Report: Greatest Value of Forests is 
Sustainable Water Supply''.
---------------------------------------------------------------------------
Summary
    Western water policy over the past 100 years stands out as one of 
the modern era's great successes. Over 180 federal water projects serve 
17 Western states. These provide water to more than 31 million people, 
and deliver irrigation water to 140,000 farmers and 10 million acres of 
farmland. These lands produce 60% of the nation's vegetables and 25% of 
its fruits and nuts.
    Millions of acres of arid Western desert have been transformed into 
the world's most efficient and productive agricultural system.
    Irrigated agriculture is an incredible investment\10\. It continues 
to be a leading Western economic driver. Now is not the time to 
retreat. Sound policies are needed that encourage continued investment 
in irrigated farming rather than risking diminished domestic food 
production because cities are taking farm water. Relying on agriculture 
to be a ``shock absorber'' to soften or eliminate the impending water 
shortage is not planning. Rather, it is a choice to effectively put our 
heads in the sand and hope for the best. It will worsen the overall 
impact of climate change on our nation's economy and security.
---------------------------------------------------------------------------
    \10\ A 1998 study by Dr. Darryl Olsen and Dr. Houshmand Ziari, 
estimates the impact of irrigated agriculture in the Western states to 
be $60 billion annually (direct and indirect income). The annual return 
to the economy from the $11 billion investment in the federal system 
has been estimated at $12 billion annually. In other words, the economy 
of the United States receives a greater than 100% return each year on 
this investment.
---------------------------------------------------------------------------
    Western irrigated agriculture is a strategic and irreplaceable 
national resource. It must be protected by the federal government in 
the 21st Century.
    Now is the time for leadership at all levels--local, state, and 
federal--to face the challenges and create opportunities that will 
define the future of the West. Recognizing the value of irrigated 
agriculture is vital. Understanding the current and future role of 
irrigated agriculture in the West through aggressive action to repair 
aging infrastructure and create new water supply enhancement projects 
is imperative. Properly managing federal watersheds and encouraging 
federal agencies to work with the agricultural community to solve local 
water challenges are equally crucial. Through thoughtful planning, the 
Congress and the Administration can play a truly important role in 
helping find the solutions that have proved so elusive to date.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of L. Jerry Hansen to Questions From Senator Shaheen
Climate Change
    Question 1. How should we be planning for the impacts of climate 
change on our water supply-both domestically and globally? What is 
being done now to address the uncertainty that climate change 
invariably brings with it?
    Answer. We are following the Council on Environmental Quality's 
(CEQ) climate change adaptation implementing instructions (issued in 
March 2011) to assess the likely impacts of climate change on our 
mission and operations. Once that assessment is complete, we will 
incorporate those climate change considerations into all applicable 
Army planning processes (for example, our installation land use master 
plans, our Integrated Natural Resource Management Plans, our training 
range management plans, and our future stationing decisions).
National Policy
    Question 2. Do you believe we are in need of a national policy to 
address water supply issues in this country? If so, what would be the 
key components to such a policy to ensure its effectiveness?
    Answer. Water, across all its characteristics, is a national 
security issue. It is critical to our country's long term prosperity 
and our overall resilience as a nation. The Army recently completed a 
research project to develop a water security strategy. It is the first 
attempt at a framework with strategic goals and objectives. The key 
components bring together the multiple aspects of water, including 
supply, quality, distribution, cost, and supply chain for a single 
global organization. There is no single agency within the federal 
government that has the responsibility for water issues.
Sustainability
    Question 3. I am impressed with the Army's net zero installations 
and commend you for the great work on that front. What are your plans 
for continuing this work and expanding it to other Army facilities? 
Will you be sharing lessons learned or best management practices with 
other Federal agencies who are working toward the same goals?
    Answer. The Army has identified six Net Zero Pilot Installations in 
each of the Energy, Water, and Waste categories and two integrated 
installations, for a total of 17 different installations counting 
multiple category sites. The Pilot Installations are striving for Net 
Zero by 2020, but all Army installations are encouraged to pursue Net 
Zero. A total of 25 installations will be chosen by end of FY 2014 to 
reach Net Zero Energy by FY 2030. The overall goal is to achieve net 
zero at all Army installations by 2050.
    Yes. Our Net Zero pilot installations are the seedbeds for the 
Army, and will serve as model sustainable communities, both for the 
Army and the nation. The Net Zero Installation Initiative has been 
disseminated throughout the Army. Our ASA(IE&E), the Honorable 
Katherine Hammack uses her Garrison visits to emphasize the importance 
of Net Zero to the Army. We have set up several mechanisms for the Net 
Zero pilot installations to collaborate with the other installations, 
to share their successes and lessons learned. We meet regularly with 
our counterparts working Energy and Environmental programs within the 
Department of Defense and other federal entities, such as the 
Department of Energy, Council on Environmental Quality and the EPA. We 
have also set up a public web site where we will share our successes 
and lessons learned.
    Responses of L. Jerry Hansen to Questions From Congresswoman Lee
    Question 4. Please describe the process you would have to undertake 
to determine the value of water at your facilities. Is water valued 
differently under different circumstances and locations? For instance 
in facilities located in New England as compared to Utah or the 
Dakotas.
    Answer. The Army has no specific definition of ``value of water'' 
nor have we determined the parameters of water values. The Army values 
the importance of water to conduct our mission and our Soldiers are 
active members of the local communities using the availability of fresh 
water. Water is essential to the success of our mission across the U.S 
and its territories, where reliance is mostly placed on municipalities 
or privatization for both supply and wastewater treatment, as well as 
worldwide--wherever we may expect to operate.
    Without accurate knowledge of water's availability, it is 
impossible to predict accurately the effect of water withdrawals from 
ground water resources. A key concern for the U.S. Army is the 
vulnerability of military installations to critical resource issues. 
Water issues of concern-including adequate supply, increased cost of 
production per unit volume, quality, habitat degradation and salinity 
issues-already impact military installations and military operations in 
many locations. There is a need to assess vulnerability of regions and 
installations to water supply and to develop strategies to improve any 
adverse effects. This work by the Army and others should employ 
methodologies to conduct national screenings of watershed vulnerability 
and prepare regional water budgets-to include documenting supply and 
demand in regions containing Army installations, which have developed 
installation water demand projections.
    To achieve water sustainability and Federal water conservation 
targets contained in Executive Order 13423, Strengthening Federal 
Environmental, Energy, and Transportation Management, the Army 
initiated the Net Zero vision as a holistic enterprise approach to 
appropriately manage our natural resources with the goal of achieving 
Net Zero installations. The Net Zero vision is to reduce energy, water, 
and waste on our installations. This approach is a force multiplier 
enabling the Army to appropriately conserve available resources, manage 
costs and provide our Soldiers, Families and Civilians with a 
sustainable future.
    The Net Zero Water Installation limits the consumption of 
freshwater resources and returns water back to the same watershed so 
not to deplete the groundwater and surface water resources of that 
region in quantity and quality over the course of a year. The net zero 
water strategy balances water availability and use to ensure 
sustainable water supply for years to come. This concept is of 
increasing importance since scarcity of clean potable water is quickly 
becoming a serious issue in many areas of the world. The continued 
draw-down of major aquifers results in significant problems in the 
future. Strategies such as harvesting rainwater and recycling discharge 
water for reuse can reduce the need for municipal water. Desalination 
can be utilized to convert briny, brackish or salt water to fresh water 
so it is suitable for human consumption or irrigation.
    The US Environmental Protection Agency (EPA) Science Advisory Board 
(SAB) conducted a public teleconference on 5 December 2011 for 
consultation and assisting EPA to scope, plan and develop a report on 
water's contribution to the U.S. economy. The report will consider 
economic sectors, research on the value of water in the U.S. from 
market consumption, and present cost and pricing information that is 
critical to support water resource decision-making. The Army 
anticipates the results of this study.
    Question 5. In your view, which agency is the most capable to put a 
value on water?
    Answer. For drinking water and wastewater, the federal 
Environmental Protection Agency is most capable. It has the most in-
house staff experience to determine the market value of water because 
of its regulatory responsibilities and long history of working with 
others with an interest in the market value of water.
    Question 6. Are you aware that the Environmental Protection Agency 
is embarking on the preparation of a report to address the Value of 
Water to the U.S. Economy? If so, have you contributed to this report/
study? If not, what are your plans concerning the report/study?
    Answer. The ASA(IE&E) was not familiar with the Environmental 
Protection Agency's (EPA) study, The Value of Water in the U.S. 
Economy. We have contacted the study's primary manager, Dr. John 
Powers, and talked to him about the goals of the study. The study's 
internal kick-off meeting within EPA occurred the first week of 
December 2011. The EPA then subsequently met with the U.S. Army Corps 
of Engineers (USACE) to discuss factors and approaches for addressing 
the value of water. EPA and USACE plan to meet quarterly to discuss 
multiple topics, one of which will be ways the Army may contribute to 
the Value of Water project.
    Responses of L. Jerry Hansen to Questions From Senator Murkowski
Endangered Species Act
    Question 7. What are examples of common mitigation efforts that the 
Army is forced to take to accommodate ESA?
    Question 7a. Generally, how have ESA mitigation efforts affected 
military readiness? Can you provide specific examples of how ESA 
compliance has negatively impacted the Army's training or readiness?
    Question 7b. How often does the ESA delay Army procedures or 
business? Examples?
    Answer. Examples are: (1) manage training areas for species 
conservation rather than training requirements; (2) restrict 
availability (time, or duration of a training event); (3) restrict or 
place off-limits the use of training lands and ranges (decrease size, 
number, or type of training events to minimize impacts on listed 
species; (4) restrict or eliminate the use of certain weapons, 
ammunition, pyrotechnics, or smoke; (5) fund species specific studies 
or monitoring of species to determine mission impacts to listed species 
(6) purchase conservation easements on private lands to support 
conservation efforts for species; and (7) make significant changes to 
existing infrastructure to accommodate species requirements.
    a. ESA mitigation impacts on training remains a major challenge to 
Army readiness, particularly where the mitigation activities restrict 
training and decrease the full capability of the land or ranges to meet 
training requirements. The use of the ESA and the National 
Environmental Policy Act (NEPA) however, by third parties to bring 
lawsuits against the Army as a tool to stop or restrict training has 
compounded this challenge.
    b. A few examples of how ESA compliance has negatively impacted the 
Army's training (restrictions)--are: (1) Fort Irwin, CA--delayed the 
opening of the southern expansion and western expansion areas due to 
extensive mitigation and related NEPA actions; (2) Fort Benning, GA--
requires movement of specific heavy maneuver training events associated 
with the Maneuver Center of Excellence off the FY 09 footprint of Fort 
Benning, GA (land acquisition) to mitigate impacts to the Red Cockaded 
Woodpecker; (3) Fort Hood, TX--currently Fort Hood has restrictions 
that impact heavy and light maneuver on a total of 54,195 acres due to 
mitigation for the Golden Cheeked Warbler; (4) Fort Lewis, WA is 
managing four candidate species: two butterflies, the Streaked Horned 
Lark and a pocket gopher; and (5) Yakima Training Center, WA is 
managing the Greater Sage Grouse which is a candidate species. Both WA 
installations have instituted restrictions on maneuver training in the 
hope of precluding their listing under the ESA. Fort Lewis has also 
initiated the purchase of conservation easements on private lands to 
off-set impacts from listed and candidate species on Ft Lewis.
    b. Because of the complexity and magnitude of numerous current and 
new Army missions, the consultation process is normally longer than the 
specified consultation timeframes. The above examples also serve as 
examples of ESA delaying mission activities.
    Question 8. The Department of Defense has a greater density of 
endangered and threatened species than any other Federal Agency with 
more than 420 species inhabiting DoD land.
    Question 8a. How many of those species currently inhabit Army land?
    Question 8b. The red-cockaded woodpecker is the highest priority 
species on Army Lands. What is the resource output specifically 
relating to the red-cockaded woodpecker by the Army? i. How many Army 
bases are affected by this particular species?
    Answer. As of FY2010 Army installations reported 213 threatened and 
endangered species onsite at 101 installations.
    a. The Army's expenditures on the management of the Red-cockaded 
Woodpecker for the previous 5 years are approximately: FY11--$8.7 M; 
FY10--$11.0 M; FY09--$10.4 M; FY08--$ 10.3 M; FY07--$ 7.0 M.
    b. The Red-cockaded Woodpecker affects 8 Army installations: Fort 
Jackson (including Leesburg Training Site), SC; Fort Bragg, NC; Fort 
Gordon, GA; Fort Benning, GA; Fort Stewart, GA; Camp Blanding, FL; Fort 
Polk (including Peason Ridge), LA; and Military Ocean Terminal Sunny 
Point, NC.
    Question 9. What are the resource expenditures on a yearly basis 
that the Army expends addressing ESA issues and mitigation efforts on 
Army land?
    Question 9a. How many lawsuits have been filed against the Army by 
environmental groups regarding ESA? Are there any pending lawsuits 
against the Army regarding ESA listings or mitigation efforts?
    Question 9b. Has the Army ever been involved with a settlement 
agreement with a special interest group relating to an ESA lawsuit?
    Answer. The Army expenditures on the management of threatened and 
endangered species over the past 10 years are approximately: FY11--$ 
38M; FY10--$ 44M; FY09--$36M; FY08--$41M; FY07--$ 44M; FY06 -$ 40M; 
FY05--$ 42M; FY04--$26M; FY03-$30M; FY02--$ 24M
    a. There have been at least 10 cases brought by environmental 
groups pursuant to the Endangered Species Act, challenging proposed 
Army actions or biological opinions issued by the U.S. Fish & Wildlife 
Service (USFWS) that involved proposed Army actions. These cases have 
involved challenges to Army actions at: Pohakuloa Training Area and 
Makua Military Reservation, HI; Fort Benning, GA; Sierra Army Depot, 
CA; Fort Sam Houston, TX; Fort Huachuca and Barry Goldwater Range, AZ; 
and, Fort Irwin and the National Training Center, CA. There are 
currently no pending lawsuits against the Army brought pursuant to the 
ESA.
    b. Yes. Although somewhat rare, the Army has entered into 
settlement agreements with special interest groups relating to 
litigation brought pursuant to the Endangered Species Act. For example, 
in response to one of the lawsuits brought by the Center for Biological 
Diversity (CBD) concerning Fort Huachuca, the Army and USFWS entered 
into a settlement agreement with CBD, which required the Army and USFWS 
to reinitiate Sec. 7 consultation regarding Fort Huachuca's impact on 
the Huachuca Water Umbel and Southwestern Willow Flycatcher. The Army 
has also entered into settlement agreements with regard to ESA 
litigation or potential litigation concerning actions at Fort Benning, 
GA (Red-cockaded Woodpecker), and in Hawaii (various endangered 
plants).
    Question 10. In the near future, how do you believe that the Army 
will operate in conjunction with the ESA? Do you believe that the 
negative impacts and resource expenditures will increase?
    Question 10a. Does the Army have any recommendations on how the ESA 
could be reformed so that it does not burden the military financially 
or operationally?
    Answer. Army will continue to meet the compliance requirements of 
the ESA and be a leader in the conservation of certain species but at a 
cost of lost flexibility in both resource allocation and availability 
of training lands. Yes, new court ordered species listing decisions due 
to the US Fish and Wildlife Service settlement agreement with non-
governmental organizations will continue to increase management 
requirements for threatened and endangered species on Army training 
lands. In addition, the drawdown will cause an increased training load 
on Army installations and subsequent training impacts from listed 
species. However, a reduction in end strength may reduce the initial 
impacts of species management on training at some installations in the 
future.
    a. There are several recommendations for reducing the burden on the 
Army: (1) encourage Federal Agency coordination and legislation that 
will permit the Army to fund offsets for on-installation mission 
impacts to other Federal lands that have a suitable mission 
compatibility with species conservation; (2) provide adequate funding 
to other federal land management agencies to conserve species on their 
lands so the burden to recover certain species is shifted from DoD 
lands to other Federal Lands that have a more ``organic'' conservation 
mandate or mission compatibility; (3) incorporate Army mission 
requirements into the development and revision of ESA mandated 
threatened and endangered species recovery plans and (4) provide 
additional incentives to landowners (federal, state, local, private) to 
support and promote the conservation of species on their lands that 
directly support Army requirements. These recommendations only pertain 
to the Army and are not intended to represent recommendations of the 
other military services.
Mineral Resources
    Question 11. The Army obviously has many facilities throughout the 
U.S., often in areas where there are significant shale gas resources. 
Does the Army own the mineral rights to the resources beneath military 
bases and do you plan to develop these? Does the Army have a plan to 
structure partnerships with private industry to explore and produce 
those resources?
    Answer. In most but not all cases, the United States does own the 
mineral rights beneath Army installations and ranges.
    Under current mineral leasing laws, the Bureau of Land Management, 
not the Army, has the authority to lease Army property for development 
of shale gas resources. In almost all cases, the development of shale 
gas resources would trigger the expenditure of additional Army 
resources to accommodate the military mission with the private energy 
development. Current law is a significant disincentive because it does 
not compensate an installation for devoting its own time and funds into 
facilitating shale gas resource development; rather, any funds raised 
by the development flow directly into the U.S. treasury. Consequently, 
the Army does not currently have a plan to develop these resources, 
although we would like develop these resources in the future. The Army 
would need authority to eliminate current financial disincentives and 
create financial incentives to allow military bases to improve energy 
security and recover costs associated with shale gas production. 
Without these changes to financial incentives, any authority to develop 
such resources on Army lands would likely go unused.
Water
    Question 12. Does water have very specific value in connection with 
DoD and Army Operations
    Answer. The Army recognizes the value of water as an enabler to 
operations and as a constraint on the endurance and resilience of 
Soldiers. We also recognize the tactical and operational risks assured 
access to water poses during major operations. The Army ``Sustain the 
Mission Project'' report, September 2009, quantifies the casualty 
potential from distributing water on the non-linear battlefields in 
Iraq and Afghanistan. The Army is using these data to inform the 
development of near and long-term solutions that will provide greater 
resiliency through improved methods of production, purification and 
distribution, and by giving Soldiers a broader range of sources.
    The Defense Department and the Army have produced policy, 
directives and doctrine to ensure water considerations are 
appropriately addressed. DoD Directive 4705.1, dated 9 July 1992 and 
recertified 8 December 2003, provides specific direction to all DoD 
components as related to Water in Contingency Operations and further 
designates the Army as the executive agent for land-based water 
resources. Further guidance in Joint Publication 4-03, Joint Bulk 
Petroleum and Water Doctrine, explains the value and conceptual 
operational information. Army Regulation 700-136, Tactical Land-Based 
Water Resources Management, further establishes the responsibilities of 
Army organizations. TB MED 577/NAVMED P-5010-10/AFMAN 48-138-IP, 
Sanitary Control and Surveillance of Field Water Supplies, is the Army 
and tri-Services approved Technical Bulletin establishing Water Quality 
Standards to include all policy, standards, guidelines and procedures 
to ensure a safe water supply.
    Question 13. Has the Army inventoried its water resources and needs 
from the point of view of operational readiness?
    Answer. Determining requirements is a continual process. The Army 
has formed a team incorporating the Office of the Assistant Secretary 
of the Army for Acquisition, Logistics and Technology; Office of the 
Deputy Chief of Staff, Logistics; Office of the Deputy Chief of Staff, 
Resource Management; the Product Manager for Petroleum and Water 
Systems; Tank Automotive Research, Development and Engineering Center; 
the Combined Arms Support Command; and the Joint Water Resources 
Management Action Group (JWRMAG) to define the requirements for water 
equipment, current and future, and identify methods of fulfilling 
capability gaps. This effort surveys all areas of the commercial market 
to identify and assess the latest technology in all areas related to 
water.
    The Army has made long-term efforts to address operational water 
requirements at both the small unit level and for larger units 
conducting sustained operations. We have partnered with the USMC on 
their Expeditionary Energy, Water and Waste Initial Capabilities 
Document (ICD) to define the requirements for development of water 
equipment to support small tactical units. We have also completed our 
``Capabilities Based Assessment for Base Camps'' to define the 
requirements for larger, sustained operations. Both of these documents 
will be used for future capability development.
    For current and recently completed operations, the Army deployed 
and is deploying a number of technologies to reduce the risk to 
Soldiers from distributing water, and to provide Commanders with an 
expanded selection of sources to support their operations. For 
instance, the Army has leased water-well drilling equipment and drilled 
many wells in Iraq and Afghanistan to provide a local source of water 
and eliminate movement of water on unsecure routes. We have also 
fielded or are fielding new purification equipment suitable for small 
units and individual Soldiers for use at the point of need. In 
addition, as of December 2011, we have deployed 62 new Shower Water 
Reuse Systems that can recover 75% of shower water for reuse, thereby 
reducing overall demand. The Army has produced 116 of these systems 
with an objective of 236 total.
    Question 14. Does the Army value water appropriately in its 
operations?
    Answer. Yes. We are incorporating the United States Army Combined 
Arms Support Command (CASCOM) approved Water Planning guide as a 
planning factor for contingency operations in all Combatant Commands 
and Army Supporting Commands. In addition, the Army is developing a 
Fully-Burdened Cost of Water capability for inclusion in the ``Sustain 
the Mission Project'' decision support tool. This will give Commanders 
and planners a means to determine the true cost of supporting a 
deployed force with water. This information can be used to make 
informed decisions on the costs associated with different sources and 
methods to acquire, purify, and distribute water in a particular 
warfighting scenario. Once informed, Commanders can make decisions that 
limit their operational and tactical risks in ways that increase their 
freedom of action and increase force endurance and resiliency.
    Question 15. Please describe the expertise of your Department in 
assessing the Army's water resources and needs?
    Answer. The Army has a wide array of expertise in water spread 
across its installations, operations, and Army Corps of Engineers Civil 
Works programs. Installation and headquarters personnel must keep an 
installation functioning under all situations, including ensuring 
sufficient water supply is available to meet its needs now and into the 
future. This requires programming and budgeting for infrastructure 
maintenance, renovation, and eventual replacement. Frequently, 
installation water related infrastructure continues to be used after 
its design life has been exceeded which raises the risk of failure, 
both small and catastrophic. This includes both the drinking water 
distribution system and the waste water disposal system. Operations 
related water includes personnel concerned with water quality for 
Soldiers; drilling for, processing, and storing sufficient quantities 
of water for multiple uses during contingency operations; and 
transporting water when local supplies are unavailable or insufficient. 
The challenge for water in operations is to decrease the need to 
transport water so that there are fewer convoys needed, thus directly 
reducing the injury risk to Soldiers that transport and provide 
security for these numerous convoys. The Army Corps of Engineers Civil 
Works' expertise in water resource development includes flood control, 
navigation, recreation, and, infrastructure and environmental 
stewardship.
    Question 16. Are you aware that the Environmental Protection Agency 
is embarking on the preparation of a report to address the Value of 
Water to the U.S. Economy?
    Answer. The ASA(IE&E) was not familiar with the Environmental 
Protection Agency's study, The Value of Water in the U.S. Economy. We 
have contacted the study's primary manager, Dr. John Powers and talked 
to him about the goals of the study. The study's internal kick-off 
meeting within EPA occurred the first week of December 2011. The EPA 
then subsequently met with the U.S. Army Corps of Engineers (USACE) to 
discuss factors and approaches for addressing the value of water.
    Question 17. Is the Department of the Army or the DoD to your 
knowledge contributing to or planning to contribute to or monitoring 
the development of or planning to monitor the development of that 
study?
    Answer. In early December 2011, the EPA met with the U.S. Army 
Corps of Engineers (USACE) to discuss factors and approaches for 
addressing the value of water. This is the first of regularly planned 
quarterly meetings between the EPA and USACE to discuss multiple topics 
of interest. Future meetings will include discussion of the study as an 
agenda item.
                                 ______
                                 
     Responses of Anthony Willardson to Questions From Senator Lee
    Question 1. Is water both a private and public resource? Within 
Western water law, how do you address water as a public resource, 
specifically within Western water law?
    Answer. Water is a complex mixed economic good with both public and 
private attributes, the use of which is governed by State law, 
generally under the so-called Prior Appropriation Doctrine, though 
there are exceptions especially related to groundwater. In the West, 
State constitutions declare it to be a common public resource, but also 
provide for its private beneficial use, or ``appropriation,'' which may 
or may not be exclusive and uses may or may not be consumptive. While 
interests in water are often thought of as a private property right, it 
is usually a usufructuary right, or private right to the use of a 
public resource that can be bought, sold, leased, bequeathed and 
otherwise transferred.
    There are conditions, limitations and restrictions placed by the 
State on these private rights of use, including its beneficial, non-
wasteful use for specified purposes. Uses may or may not be tied to or 
appurtenant to the land on which the water is used. Also, State law 
prohibits ``injury'' to other private water users, and while often 
derided as a disincentive to water conservation, requires that water be 
used as prescribed or the right to its use may be lost, by abandonment 
or forfeiture, and returned to the public domain and again 
``appropriated'' to another's use. This is the so-called ``use it or 
lose it doctrine,'' which was designed to limit ``speculation,'' avoid 
granting rights to ``unused'' waters, and encourage the maximum 
beneficial use of the resource, generally viewed in economic terms.
    The State grants water use permits, recognizes ``perfected'' 
rights, reviews and approves applications to transfer water rights 
(both temporarily and permanently), and with few exceptions has the 
authority to consider the broad public interest as part of the State's 
decision. Once ``perfected,'' or put to use as required by State law, 
that specific quantity of water is thereafter generally considered to 
be private property, the exclusive use of which is controlled by a 
simple queuing concept or the principle of ``first in time, first in 
right.'' This is a basic principle of the West's Prior Appropriation 
Doctrine.
    There are exceptions to these general rules. For example, in Texas, 
groundwater is considered private property, which limits the amount of 
control the State has over the development and management of the 
resource. Even so, groundwater management areas have been established 
to provide some local limitations on the means of extracting 
groundwater to provide some accountability and avoid conflicts between 
pumpers.
    Taken as a whole, the Prior Appropriation Doctrine that has evolved 
in the West is intended to avoid the impacts of unfettered use of the 
water ``commons'' leading to the over exploitation or degradation of 
the resource to the detriment of the public. It is also important to 
recognize that water once used for its intended purpose is often 
returned to a river, stream or aquifer, and State law essentially 
requires that it be returned in good condition. Reasonable and 
beneficial use requirements and the prohibition against waste apply to 
both quantity and quality. Waters are ``reused'' by the next 
``appropriator.'' Thus water is used and reused multiple times, and may 
often be ``fully'' appropriated.
    In considering a water use permit application, States do consider 
whether or not water is available for appropriation. However, these 
determinations are general and relative given changing circumstances, 
such as drought, which raise considerable uncertainty as to the 
availability of water to meet the demands of various uses. Senior users 
have a right to use their full appropriation, before junior users, and 
at times given water supply hydrologic variability, the resource may be 
``fully'' or ``over'' appropriated. State law allocates rights to the 
use of water, and when water is physically scarce, administers water 
rights according to the ``first in time, first in right'' and ``use it 
or lose it'' principles.
    While the concepts are simple, their physical and legal application 
can be very complicated. Water use has been further complicated by the 
subsequent enactment and application or imposition of federal 
restrictions related to Tribal trust and other responsibilities, 
including environmental protections. The extent to which such 
restrictions on the use of private property are constitutional have 
been the focus of a number of lawsuits, and some ``takings'' claims 
have been upheld.
    Question 2. Please describe the role of water rights in valuing 
water and alternative uses and the available infrastructure.
    Answer. To a large extent the value of water for any use depends on 
the degree of certainty related to its availability. In the Eastern 
U.S., this is largely a matter of meteorology, but in the West, given 
general water scarcity it is equally a matter of law. The most valuable 
water rights are those with the most senior priority dates. Often in 
the West, the most senior use rights were granted in the 1800s, long 
before the growth of urban metropolises and environmental protections.
    These senior property rights cannot be taken without just 
compensation, by government action, though their exercise can and has 
been restricted by statute, some might say reasonably and others 
unreasonably. They can and do move through economic transactions 
between willing buyers and sellers, but price and value are complicated 
by both the public and private aspects of water as an economic good. 
Many western farmers and ranchers (water right holders), tied to the 
land and water through generations, may not view any price as 
sufficient compensation for changing their way of life. For many their 
water rights are a valuable commodity that also provides for their 
economic security later in life, especially where there are no heirs 
willing or able to assume responsibility for the family operation.
    As with real estate, it is also true that the value of water 
depends to a large extent on location, location, location! It should 
also be noted that in much of the West, land without water is of little 
value. Water supplies located closest to centers of demand will be more 
valuable. As with any commodity, transportation and distribution costs 
are a significant and sometimes overriding consideration.
    Given its relative value as a matter of weight, compared to other 
commodities, water can be very expensive to move. In the West, there 
are literally thousands of transfers of water between different 
watersheds and river basins, some across long distances that depend on 
extensive infrastructure investments. The ability to capture, store and 
release water as needed from thousands of reservoirs and other 
facilities, large and small, also greatly contributes to the 
reliability, resiliency and value of a particular supply of water. The 
economic value of water as a commodity is significantly reduced if it 
cannot be stored and moved. Therefore, the availability of water-
related infrastructure is essential in calculating the costs and value 
of any water supply.
    However, it should also be noted that water left instream for 
various purposes, including aesthetic, environmental, fish and 
wildlife, and recreational uses are also valuable and should not be 
underappreciated. More and more, states recognize these values and 
protect (within their water rights systems) instream uses. Water need 
not be diverted from a river or stream to have value.
    Question 3. When the Western States Water Council addresses the 
value of water, what is the first thing you should understand or 
address? What other issues need to be addressed as you look at the 
value of water?
    Answer. Aside from the role of water rights, as previously 
described, when seeking water for any use, physical and economic supply 
and demand are paramount as with any other commodity. Benjamin Franklin 
has been credited with saying, ``We know the value of water when the 
well runs dry.'' To a large extent, the value of water is related to 
the cost of an alternative supply or costs related to doing with less 
or doing without. More and more industries are beginning to consider 
the impact of water scarcity on their operations and the cost of doing 
business. Water is an essential, but sometimes under-appreciated input 
to production, and may at times be a critical limiting factor.
    Water can also be a growth limiting factor, and some western urban 
areas are facing this very real possibility. Moreover, as the value of 
potable water supplies has increased, so too has the value of 
wastewater produced by urban areas, which can be treated and used for a 
variety of non-potable purposes. Water in the West is moving from 
agricultural to ``higher'' uses, mostly urban. The Western Governors' 
Association and WSWC are exploring opportunities to mitigate adverse 
impacts of such transfers on rural communities and the environment.
    It should be noted that recognizing, defining and addressing water 
supply and demand problems in general depend on geographic, hydrologic, 
meteorological and climate data and sound science and modeling for 
effective decision making. Western states depend on many federal 
agencies for such information and related research, and some of the 
most critical programs in need of consistent and increased federal 
support are mentioned in my written testimony. The value of water 
cannot be determined effectively without sufficient, accurate 
information on present and future supplies and demands.
    Question 4. Do you have any concerns with Federal regulatory 
initiatives as they may pertain to water? What are some of the 
estimates of costs that may be associated with these initiatives? Do 
the benefits get near the costs?
    Answer. The Western States Water Council has in the past called for 
a rational, reasonable federal regulatory framework, as it relates to 
water, but has not sought to comprehensively define what that means. 
The Council has adopted various positions and resolutions, as well as 
commented on occasion, with respect to specific regulatory proposals 
(which are attached). As indicated, not all of these Council actions 
have had unanimous support, though at a minimum, two-thirds of our 
voting member states approved them.
    The Council has raised specific issues and related to expansion of 
federal jurisdiction under the Clean Water Act (CWA) through redefining 
``waters of the United States,'' duplicative regulation of pesticide 
applications under both the Federal Insecticide, Fungicide and 
Rodenticide Act (FIFRA) and CWA, and the possibility that waters 
transferred from one water body to another (including from one 
watershed or basin to another) without the addition of any pollutant 
might become subject to federal permit requirements under the CWA's 
National Pollutant Discharge Elimination System (NPDES).
    There are various estimates of costs related to each initiative, as 
indicated in the attachments, but it is safe to say that they are 
substantial, in the hundreds of millions of dollars, and that whether 
or not the increased environmental benefit would outweigh the costs is 
debatable.
    Question 5. In your experience have State Water Quality Officials 
been concerned about the cost benefit balance of the initiatives you 
have mentioned?
    Answer. State and federal budgets are similarly stressed during 
these difficult economic times. Water quality officials are struggling 
to maintain existing services and protections in the face of dwindling 
financial and human resources. As described in the attached statements, 
WSWC members are concerned with the increasing cost and potential 
burden of new regulatory initiatives, and question the water quality 
benefits that would result. Again, not all of our states are of the 
same opinion regarding the specifics, but it is fair to say that in 
general the overwhelming majority agree that there needs to be 
sufficient flexibility to address priority concerns and focus resources 
on those problems that the States themselves have identified as most 
likely to produce the greatest return in improved water quality at the 
least cost. States have both their own sovereign authorities and 
delegated federal responsibilities for environmental protection, 
including water quality protection, and are generally best positioned 
to determine how to allocate their resources and address water quality 
issues within their borders. Moreover, new unfunded federal initiatives 
and mandates are not likely to be effective, and may divert resources 
from more productive actions.
    Question 6. What are the opportunities and challenges of water 
conservation?
    Answer. Water conservation is a fundamental concept behind State 
water law, policy and planning and will continue to be a critical 
strategy for meeting present and future needs. It is a tool for 
addressing both short and long-term demands by stretching existing 
supplies. However, water conservation is best viewed as a means to 
specific ends. It is not a panacea for all of our water problems. It is 
an effective tool for addressing temporary emergencies such as drought 
or other supply interruptions, but is generally not a permanent 
solution to shortages due to long-term population growth.
    While using water more efficiently is generally a good option, it 
is not without its limitations and opportunities for wise use are best 
considered on a case-by-case basis taking into consideration all of the 
costs and benefits. Increasing water use efficiency can require costly 
capital investments on one hand, while on the other delaying or 
mitigating the need for other infrastructure improvements.
    Conservation can reduce demands to divert more water from lakes, 
rivers and streams, improving instream conditions. But it can also 
reduce returnflows, groundwater recharge and eliminate less efficient 
uses (given our present artificial hydrologic system comprised of 
numerous man-made reservoirs and other impoundments, canals, laterals, 
and ditches) that have created wetlands, seeps, bogs and perennial 
streams where there were once dry plains, gulches and ephemeral 
streams.
    Question 7. Would you mind providing a list of key federal 
statutory and regulatory authorities that impact a holder of a State 
issued water right or permit?
    Answer. The most significant federal statutes that impact the 
exercise of State granted property rights to the use of water in the 
West include the Clean Water Act's NPDES program and Section 404 dredge 
and fill permitting requirements; and the Endangered Species Act 
Section 7 mandates and consulting requirements for federal agencies, as 
well as Section 9 individual species ``take'' prohibitions.
    The fulfillment of tribal trust responsibilities and settlement of 
Indian water right claims are another substantial cloud over the 
exercise of State granted water rights, though significant progress has 
been made within existing resources to address this concern.
    Outstanding and unknown federal requirements increase the 
uncertainty surrounding the value of property rights related to water.
    Question 8. Assuming that a national study to determine the value 
of water could be done; what challenges would you see with its 
preparation or use?
    Answer. The Council and Western Governors agree that as a Nation we 
need to place a higher value on water and invest more towards meeting 
our present and future needs.
    Any study of the value of water must recognize that to a large 
extent it is a personal and subjective determination. Moreover, it is 
often as much a political as an economic decision, and any underlying 
objectives, biases and assumptions should be transparent in any study.
    The value of water is a function of our willingness to pay as well 
as a price at which we are willing to sell. Former EPA Assistant 
Administrator for Water Ben Grumbles has opined that water is always 
worth more than we are willing to pay. Indeed, we should rightly 
recognize the many economic externalities inherent in valuing both 
public and private goods and services provided by water.
    Often public regulators of water purveyors relate its price to the 
cost of service and/or acquiring alternative or additional supplies. 
Others would suggest including opportunity costs in the value, and 
still would price water at whatever the market will bear.
    Given the uncertainty and difficulty inherent in determining water 
supplies and demands, valuing water will be equally challenging. There 
is a general lack of sufficient data for sound decision making, as 
referenced in my written testimony, which makes any valuation 
difficult.
    In September 2007, the National Science and Technology Council's 
Committee on Environment and Natural Resources, Subcommittee on Water 
Availability and Quality (SWAQ), released a report entitled: ``A 
Strategy for Federal Science and Technology to Support Water 
Availability and Quality in the United States.'' In part the report 
reads: ``Many effective programs are underway to measure aspects of our 
water resources. However, simply stated, quantitative knowledge of U.S. 
water supply is currently inadequate (U.S. Government Accountability 
Office, 2005; National Research Council, 2004). The United States 
should measure water resources more strategically and efficiently.''
    Any valuation on a national basis may likely to be so general as to 
not be useful, but a summary of principles to guide valuation on a 
site-specific and individual user and uses basis could be helpful--
including water related services, including environmental services that 
should be considered in valuation.
    Question 9. In your view, which agency is the most capable to put a 
value on water?
    Answer. While the value of water is largely determined by markets, 
and myriad collective individual decisions, there is a role for 
government to ensure market externalities are taken into account. 
Governments through various incentives, subsidies, regulation and other 
actions play a large role in determining the value and price of water. 
The value of water to the West and the Nation is and will continue to 
be dynamic, but undoubtedly it should be given a high public priority.
    It is unlikely that any one federal or state agency or agencies 
could effectively accomplish the task of putting a value on water, but 
each can contribute to a collaborative effort to better define the 
value of water and its role in maintaining a healthy economy and 
environment.
    The WSWC and others are currently collaborating with the U.S. 
Geological Survey in an assessment of the Nation's water resources, 
both availability and existing and future uses. This and similar 
efforts will be worthwhile, but not likely to produce a definitive 
answer to what's the value of water.
    Water is literally the lifeblood of the West, and as suggested by 
Benjamin Franklin, many of our citizens know its value when the ``well 
runs dry.'' Much of the West is again facing the prospect of drought 
following an extremely dry December that in some places has been record 
breaking. Given our climate and growing population, water will only 
become even more scarce and precious.
    Question 10. Are you aware that the Environmental Protection Agency 
is embarking on the preparation of a report to address the Value of 
Water to the U.S. Economy? If so, have you contributed to this study? 
If not, what are your plans concerning the study?
    Answer. We are aware of the study, but have not been asked to 
participate or contribute. However, EPA's Office of Water has offered 
to discuss this study with us and we are working on scheduling a time 
to meet. We would hope to collaborate with EPA on this effort.
                                 ______
                                 
     Responses of Aaron Salzberg to Questions From Senator Shaheen
Global Security
    Question 1. I'd like to talk about water as a global security 
issue. The areas likely to face some of the most severe water 
challenges - the Middle East, South Asia, Africa-are also characterized 
by high international tensions, disputed borders, and competing claims 
to shared water resources. Can you discuss the security ramifications 
of increased water demand and decreased water supply and the regions 
that Congress needs to focus on?
    Answer. By 2025, many of the countries in the regions listed above 
will be significantly water stressed-either because demand will exceed 
supply or because the country will not have the infrastructure in place 
to ensure sustainable access to the water necessary to maintain social 
and economic development. Within a country, increasing demands, 
competition between communities over water rights and use, and the lack 
of access to safe drinking water may be increasing factors in local 
conflict and state fragility and failure. Between countries, increasing 
demands, unilateral development (e.g., withdrawing water upstream 
without notifying downstream countries), weak or non-existent bilateral 
or regional institutions (for promoting joint management of shared 
water resources), and/or existing animosities could exacerbate 
tensions. In some regions, floods and droughts will threaten increasing 
numbers of people and cause greater economic dislocations. In all 
cases, as water supplies become increasingly limited it will become 
more difficult for countries to meet their health (e.g., safe drinking 
water and food security), economic growth (e.g., energy production and 
agricultural output), and environmental needs.
    Question 2. Are there key areas internationally where water issues 
exacerbate tensions and could create new conflict?
    Answer. Between countries or regionally, conflict over water 
resources is extremely rare. That said, there are a number of regions 
where demand is increasingly stressing supply, unilateral development 
is taking place, rapid political and environmental changes are 
occurring, there already exists a high-level of tension, and there are 
weak or no institutions for managing differences over water resources 
management (e.g., North-east and Sub-Saharan Africa; South, Central and 
East Asia; and the Middle East). In these regions water will likely 
become an increasing source of tension and a greater factor in regional 
disputes.
International Institutions
    Question 3. What legal regimes are in place internationally with 
respect to the management of water? What efforts are being made to 
build institutions to address water management in developing nations?
    Answer. There is no binding, comprehensive, multilateral, 
international agreement on the management of shared waters, though 
there are several bilateral and regional arrangements that deal with 
specific water resources. In 1997, the UN General Assembly adopted the 
``UN Convention on the Law of the Non-navigational Uses of 
International Watercourses'' which has not been ratified by enough 
countries to enter into force. The Convention codifies many of the 
commonly endorsed principles of shared water resources management 
(e.g., equitable and reasonable utilization, obligation to cooperate 
and not cause significant harm, prior notification) but must be 
interpreted on a case-by-case basis subject to the unique conditions of 
each basin. As such, it is a useful tool but not a clearly defined set 
of international obligations. (The United States has signed but has not 
ratified the Convention.) A similar convention has recently been 
drafted by the UN for the management of groundwater. Between countries, 
many types of legal arrangements exist with differing degrees of 
specificity, institutional arrangements, and political support.
    The United States is working at both the national and regional 
level to strengthen institutions for water resources management. This 
includes, for example, support at the local level to establish water 
user groups and water cooperatives, at the national level to develop 
sound water resource plans/strategies and laws that govern land tenure 
and water rights, and regionally to establish or strengthen 
institutions between or among countries to advance the cooperative 
management of shared waters. To advance these efforts, the United 
States has established the Shared Waters Program within the United 
Nations Development Program to serve as a multi-donor platform for 
supporting regional dialogues on shared waters.
      Responses of Aaron Salzberg to Questions From Senator Coons
    Question 1. As Chairman of the Foreign Relations Africa 
Subcommittee, I remain deeply concerned about the crisis in the Horn of 
Africa. Failure of consecutive rainy seasons has led to the worst 
regional drought in 60 years, and famine has ensued in Somalia due the 
lethal combination of a lack of water, lack of governance, and 
restricted humanitarian access. When compared with the rest of the 
region, what factors have made climatic conditions worse in Somalia? To 
what degree has deforestation associated with the charcoal industry-
which serves as the main source of income for al-Shabaab-contributed to 
the lack of water in Southern Somalia?
    Answer. Increased frequency of natural disasters attributed to 
climate change and increased vulnerability due to non-climatic factors 
has made the Horn of Africa very susceptible to food crises. Vulnerable 
populations do not have the opportunity to fully recover before they 
are faced with another disaster, keeping them in a cycle of poverty. 
The current drought in the Horn of Africa is exacerbating ongoing 
humanitarian, governance, and security concerns in the region. Each 
country in the Horn (e.g., Djibouti, Ethiopia, Kenya, and Somalia) is 
experiencing the crisis amid unique domestic considerations, but all 
are shouldering significant burdens that are further challenged by the 
past year's significant increase of Somali refugee arrivals.
    However, the worst drought in 60 years has not led to the worst 
humanitarian crisis in 60 years. Indeed, the development of national 
agriculture and food security plans by Kenya and Ethiopia in addition 
to increased capacity in the region to predict climate events and 
prepare for potential impacts help to stymie the spread of famine 
outside of the regions of Somalia inaccessible to humanitarian aid. The 
U.S. Government's global hunger and food security initiative, Feed the 
Future, aims to strengthen the positive agricultural development trend 
in the Horn with its programs in Kenya and Ethiopia, as explained 
below.
    Africa has the fastest rate of deforestation anywhere in the world, 
which has significant implications for water and other major issues, 
including agriculture, human health, and conflict over natural 
resources. The region's vulnerability is compounded by developmental 
challenges such as endemic poverty, weak governance, limited investment 
and access to capital, environmental degradation, and conflict.
    Question 2. Recently released analysis from USAID's Famine Early 
Warning System, FEWS NET, has indicated that though the famine will 
persist in Somalia through the end of 2011, certain areas of Somalia 
have experienced modest improvements and were recently downgraded from 
Phase 5 famine to Phase 4 ``emergency crisis.'' What steps are being 
taken to ensure this progress is sustained, and what is the prediction 
for future rainy seasons in the Somalia and the region?
    Answer. On November 18, 2011, data released by the USAID-funded 
Famine Early Warning Systems Network (FEWSNET) and the U.N. Food 
Security and Nutrition Analysis Unit (FSNAU) indicated improvements in 
food security in all areas of Somalia, largely driven by large-scale 
international humanitarian assistance efforts. Though famine conditions 
abated in three of the six areas previously declared as experiencing 
ongoing famine in southern Somalia, FEWSNET and FSNAU acknowledged the 
fragility of the situation, noting that famine could reappear if there 
were a decline in the level of international assistance and/or new 
disruptions to humanitarian access or trade.
    On November 28, al-Shabaab issued a public statement banning 16 
U.N. agencies and international non-governmental organizations from 
operating in al-Shabaab-controlled areas of southern and central 
Somalia. This action further diminished options for providing 
assistance and greatly increased the possibility that famine conditions 
could return.
    On December 22, the President announced an additional $113 million 
in assistance to the Horn of Africa to support food, health, shelter, 
water, and other needs across Kenya, Ethiopia, and Somalia. U.S. 
Government funding for relief efforts in the Horn of Africa now stands 
at $870 million, maintaining the United States' position as the largest 
single donor, including $205 million in humanitarian assistance in FY11 
and FY12 to Somalia. Our assistance includes food aid, treatment for 
the severely malnourished, health care, clean water, proper sanitation, 
and hygiene education and supplies. To help improve food security in 
areas where humanitarian access remains constrained, we are also 
providing market-based interventions such as the distribution of 
improved seed varieties to support fodder production, cash vouchers 
that enable households to purchase basic food and other requirements in 
local markets, and increasing access to cereals among vulnerable 
populations.
    The National Oceanic and Atmospheric Administration's Climate 
Prediction Center Seasonal Precipitation Outlook for the May-June-July 
period indicates below normal rainfall over southwestern Ethiopia and 
equal chances of below, normal, or above rainfall for Somalia [accuracy 
of prediction models degrades significantly as we predict conditions 
further into the future]. The Intergovernmental Authority for 
Development Climate Application and Prediction Center for eastern 
Africa will be holding its seasonal climate outlook forum (COF) at the 
end of February. The Greater Horn of Africa (GHA) National 
Meteorological Services will issue the consensus climate outlook for 
the season at the end of the COF process. Seasonal outlooks are used by 
GHA governments as well as donors to plan and prepare for potential 
climate extremes in the coming season. These efforts were part of 
USAID/OFDA's capacity building programs to strengthen capacity on 
meteorological services in the region.
    USAID/OFDA, in partnership with NOAA, USGS, the UN World 
Meteorological Organization, and National Meteorological and 
Hydrological Services in the region, provided support to the IGAD 
Climate Prediction and Applications Centre (ICPAC) to increase capacity 
for climate prediction and applications in the regions. ICPAC Climate 
Outlooks have been critical in preparedness and planning for droughts 
and other climatic shocks in the region. In coordination with the U.S. 
Government, ICPAC provides access to U.S. climate models and experts to 
develop outlooks in the region.
    Question 3. Describe drought mitigation efforts in East Africa 
funded by the U.S. government and the process of groundwater 
development in the Horn of Africa. To what extent have U.S.-funded 
projects to build wells along pastoral routes proven effective? Is this 
a long-term solution to mitigating the impact of droughts, which will 
almost surely continue to afflict the region?
    Answer. USAID's efforts in recent years to reduce vulnerability 
among the Ethiopian population have yielded substantial results. 
Despite the regular cycle of droughts in parts of the country, the 
number of emergency beneficiaries has dropped from 15 million in 2003 
to a maximum of 4.6 million currently, since many vulnerable people 
have been assisted by the government's long-term Productive Safety Net 
Program (PSNP), supported by USAID and other donors.
    In Kenya, U.S. assistance to farmers and microenterprises, that 
together generate 30 percent of gross domestic product (GDP), has 
helped improve incomes and create jobs for hundreds of thousands of 
Kenyans. The United States is working to improve food security for the 
two million Kenyans chronically dependent on food aid through the Feed 
the Future initiative. Regionally, USAID support for increased trade in 
staple foods, including livestock, and improved farmer access to 
integrated regional markets, improves food security by linking surplus 
to deficit areas, which can mitigate climatic shocks. USAID is also 
investing in technologies including soil liming that can significantly 
boost maize yields, potentially transforming the production of western 
Kenya's largest staple crop.
    USAID and USDA together worked with UC Davis, UC Riverside and the 
International Rice Research Institute in the Philippines to develop 
submergence tolerant rice-rice that not only withstands floods, but 
thrives in them. Over 1 million farmers are already seeing improved 
harvests. And by partnering with national rice research centers across 
South Asia, we hope to reach 70 million more people.
    By investing in drought-resistant seeds and better management of 
water resources, we can protect millions of people from the perennial 
threat of famine and build resilience against an increasingly 
unpredictable climate.
    USAID/ OFDA's due diligence has been focused on balancing 
groundwater extractions against pressing humanitarian needs. In that 
vein, USAID stresses the sustainable use of existing water sources 
first -- and the development of new ones (e.g., new wells) only where 
yields of existing sources are insufficient. For example, in Somalia, 
OFDA has funded the extension of water systems from existing wells by 
re-developing the wells and installing piped water networks. 
Implementing partners conducted drawdown tests to size the pumps.
    Globally, reliable hydrogeological studies, data, and information 
are limited, and ground water sources have been developed without 
understanding characteristics of the aquifers. Lack of knowledge of 
water resources in east Africa has significant impacts on the ability 
to plan, organize, and implement an effective potable water strategy 
for the region in response to the current humanitarian crisis and 
future development activities. In 2005-2006, USAID/OFDA funded a Darfur 
groundwater exploration activity to address this issue. OFDA, USGS, 
Radar Technologies France, and UNESCO collaborated to develop a product 
to understand aquifer potential in Darfur for sustainable development 
of groundwater resources to address needs of IDPs and host communities. 
The process-based on new radar remote sensing technologies combined 
with optical remote sensing, geology, geomorphologic features, and 
climatic data-revealed significant groundwater aquifers not visible 
from the surface to sustain use of water for humanitarian assistance. 
Ground Penetrating Radars over various aquifers in Sudan have verified 
the results of the study in identifying drilling locations. Water 
drilling site maps and drilling manuals have been produced, and NGOs, 
UNESCO, and UNICEF were trained on the use of these products. UNICEF 
has been using these maps to provide water to IDPs in Darfur, Sudan 
while ensuring sustainable use of groundwater resources to avoid 
overtaxing the aquifers.
    Since 2010, one of OFDA's partners in Somalia has constructed 
several piped water systems that incorporate sustainable operation and 
maintenance function. The water points that were developed are all in 
operation today and provide water to Somalis along the traditional 
pastoral routes.
    Question 4. Wise Power is a Delaware-based company that is 
producing decentralized solar power units that don't need to connect to 
the grid. They are finding that there is a strong need for their 
product in Africa. How important do you think decentralized power-
generating technologies, like independent solar power units, or small 
hydro projects, will be in countries like Africa that currently have 
poorly developed grid networks? Can these technologies address power 
needs for small water projects including groundwater pumping, 
irrigation, in addition to home and business power generation? What 
steps are being taken to assist with power diversification in Africa 
and elsewhere to create alternative sources of electricity given the 
depletion of hydro-power in areas susceptible to water shortages? Have 
we considered encouraging solar and geothermal sources of electricity 
in areas that cannot sustain hydro-resources?
    Answer. Decentralized power generating technologie -along with grid 
technologies-will play an important role in diversifying energy 
supplies and increasing access to modern energy services for the 1.3 
billion people in the world who currently have no access to energy, 
including in sub-Saharan Africa and South Asia. To provide electricity 
to this population, the International Energy Agency estimates that 
approximately 120 GW of off-grid and mini-grid power will need to be 
added globally by 2030, and that 90% of that power will come from 
renewable sources, including solar, wind and biomass. In the right 
conditions, these technologies perform exceedingly well in small water 
projects, including groundwater pumping, irrigation, heating, cooking, 
and also in meeting basic human needs and providing for productive uses 
for homes and small businesses.
    The United States Government is actively involved in a number of 
bilateral, regional, and multilateral efforts to promote energy 
diversification through the use of renewable resources in the 
developing world, including in sub-Saharan Africa. USAID's Africa 
Infrastructure Program is providing ongoing support to over 15 African 
governments improving the investment environment for, and advancing the 
actual negotiation of renewable energy projects. For example, it is 
supporting: 1) the development of over 400 MW of wind generation 
capacity in Kenya, Namibia, Lesotho, and Mozambique; 2) capacity 
building related to the East Africa and Geothermal Risk Mitigation 
Facility and Kenya develop geothermal resources capacity in East 
Africa; 3) the development of feed-in tariffs for micro-hydro resources 
in Rwanda and Uganda; and 4) solar and wind mapping efforts in 
Mozambique, and the West African ECOWAS region. The United States 
Government is also working through the International Renewable Energy 
Agency (IRENA) to develop country-relevant solar and wind mapping 
systems and technologies that will give policy makers access to 
necessary information on renewable resources available to promote 
distributed generation through solar and wind.
    Question 5. DuPont and other biotechnology companies have 
developed, and continue to develop crop varieties that have improved 
nutritional value, are able to more readily utilize soil nutrients, and 
are drought resistant. How much of a role will these crops play in 
achieving greater agricultural production with minimal use of water and 
other resources? What is the State Department doing to encourage 
public-private partnerships to develop and make these technologies 
available?
    Answer. World population is projected to grow to approximately 9 
billion people by 2050. At the same time, climate change is putting 
greater strains on agricultural production. The UN Food and Agriculture 
Organization estimates that to meet the expected global demand, farmers 
will need to increase food production by 70 percent using less land, 
less water, less fertilizer and less pesticide. In order to achieve 
these goals, scientists and farmers will need to use all available 
tools, including improved agricultural practices and improved seeds.
    Improved crops, developed through the use of genetic engineering 
and other new breeding technologies, will play a critical role in 
helping the world meet its food security goals in a more sustainable 
manner. The potential role for drought-tolerant crops in this effort is 
enormous, especially in drought-prone areas of the world that may be 
increasing as a result of climate change. U.S. farmers typically lose 
10-15% of their annual yield because of drought and water stress, and 
losses in Africa are even larger. Biotechnology companies are currently 
marketing conventionally bred varieties that can flourish with less 
water and are developing genetically engineered varieties that will 
further improve the drought tolerance of crops. Such varieties will 
sustain crop yields under conditions of water shortage by enhancing the 
resilience of crops to climate variation. Another important goal for 
research in biotech crops is to enhance the nutritional content of 
crops to improve human health, and also to allow crops to be grown on 
lower quality soils with fewer fertilizer inputs to both increase crop 
productivity and protect the environment.
Private-Public Partnerships
    The challenges posed by increasing population and climate change to 
global food security cannot be met without private/public partnerships, 
which make up a significant share of the global agricultural research 
effort. The U.S. Government partners with companies, NGOs, private 
foundations, and international research organizations, such as the 
Consultative Group on International Agricultural Research (CGIAR) and 
International Maize and Wheat Improvement Center (CIMMYT), in a variety 
of ways to ensure the availability of crops relevant to developing 
countries, and that countries interested in adopting biotech crops have 
the capacity to do so. For example, the production and evaluation of 
drought tolerant maize varieties for subsistence farmers in sub-Saharan 
Africa is being carried out by private-public partnerships, with 
funding provided by the Bill and Melinda Gates Foundation and USAID. 
USAID is also partnering with DuPont/Pioneer, CIMMYT and the Bill and 
Melinda Gates Foundation on the development of maize varieties that can 
grow with less fertilizer and with Arcadia Biosciences on drought and 
salt tolerant rice. Crops developed through these partnerships will be 
made available royalty-free to subsistence farmers.
Actions Taken by the Department of State and USAID
    The Department of State and USAID are facilitating the adoption of 
improved crops in several ways:

  <bullet> In 2011, Assistant Secretary of State Jose Fernandez 
        organized a series of meetings with the African diplomatic 
        corps that brought together industry, NGOs and government 
        officials to discuss ways of promoting agricultural investments 
        by establishing transparent, predictable and science-based 
        regulatory systems. The roundtable discussions were attended by 
        nearly two dozen African Ambassadors and included senior 
        representatives from the U.S. Department of Agriculture and 
        USAID.
  <bullet> The U.S. Government maintains a dialogue with U.S. biotech 
        companies and with U.S. and international research centers.
  <bullet> Through our embassies, we publicize the advantages of 
        biotech crops by providing information on request and through 
        the sponsorship of informational visits by U.S. experts.
  <bullet> Our embassies, in seven targeted countries in East and West 
        Africa are developing their 2012 agricultural biotechnology 
        outreach action plans. These action plans will focus on 
        measures that will be taken to promote further advancement and 
        implementation of the technology.
  <bullet> We bring representatives of foreign governments to the 
        United States for tours of agricultural facilities, including a 
        group of African agricultural ministers in October 2011.
  <bullet> The Department of State advocates for timely approvals of 
        new biotech crops abroad, since the most significant delay in 
        the adoption of this technology is the time that it takes to 
        evaluate and obtain approvals in many parts of the world.
  <bullet> The Department of State is also facilitating the adoption of 
        nutritionally enhanced staple crops overseas, such as Golden 
        Rice, and working with U.S. regulatory authorities to ensure 
        that such products also meet food safety standards in the 
        United States. USAID is additionally providing long-term 
        support to the development of these crops.
  <bullet> Promotion of improved crop varieties is also supported 
        through Feed the Future (FTF), the U.S. global hunger and food 
        security initiative. FTF recognizes that, to meet the global 
        food security imperative, activities should be implemented with 
        a broad base of public and private partners, leveraging diverse 
        resources, and the latest scientific advances and innovations. 
        FTF currently invests heavily in accelerating the dissemination 
        of heat- and drought-tolerant, climate-adapted cereals to 
        increase productivity on the tens of millions of hectares 
        affected annually by drought, and in helping farmers adapt to 
        higher temperatures that are already impacting the yields of 
        staples such as wheat, rice, and maize. Leveraging partnerships 
        with the private sector, and proprietary technologies, is 
        critical to success in this area and USAID has recently issued 
        a call for proposals to support new public-private alliances 
        aimed at developing climate resilient cereals using advanced 
        breeding and biotech methods. FTF also supports research on new 
        private sector business models that can allow U.S. companies to 
        recoup their investment in varieties produced through 
        biotechnology, while ensuring access to these technologies by 
        small-holder farmers.
  <bullet> Integrating improved natural resource management (especially 
        water and soil management) and climate change adaptation is a 
        key cross cutting theme in FTF implementation, and we seek to 
        achieve increased agricultural productivity and better 
        nutrition through sustainable agricultural intensification. 
        Improved crop or animal varieties and better access to inputs 
        like fertilizer is important, and promoting the best water and 
        soil management practices will be critical to long lasting 
        gains. Thus, we are supporting both biotech and improved 
        management innovations to enhance ecosystem functions.

                                    

      

</pre></body></html>
